<html>
<title> - OVERSIGHT FIELD HEARING ON ``THE IMPACTS OF CLIMATE CHANGE ON THE CHESAPEAKE BAY''</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



          THE IMPACTS OF CLIMATE CHANGE ON THE CHESAPEAKE BAY

=======================================================================

                     JOINT OVERSIGHT FIELD HEARING

                               before the

                    SUBCOMMITTEE ON INSULAR AFFAIRS,
                          OCEANS AND WILDLIFE

                             joint with the

                    SUBCOMMITTEE ON NATIONAL PARKS,
                        FORESTS AND PUBLIC LANDS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

             Tuesday, June 23, 2009, in Edgewater, Maryland

                               __________

                           Serial No. 111-25

                               __________

       Printed for the use of the Committee on Natural Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
50-611 PDF                WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





                     COMMITTEE ON NATURAL RESOURCES

              NICK J. RAHALL, II, West Virginia, Chairman
          DOC HASTINGS, Washington, Ranking Republican Member

Dale E. Kildee, Michigan             Don Young, Alaska
Eni F.H. Faleomavaega, American      Elton Gallegly, California
    Samoa                            John J. Duncan, Jr., Tennessee
Neil Abercrombie, Hawaii             Jeff Flake, Arizona
Frank Pallone, Jr., New Jersey       Henry E. Brown, Jr., South 
Grace F. Napolitano, California          Carolina
Rush D. Holt, New Jersey             Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Louie Gohmert, Texas
Madeleine Z. Bordallo, Guam          Rob Bishop, Utah
Jim Costa, California                Bill Shuster, Pennsylvania
Dan Boren, Oklahoma                  Doug Lamborn, Colorado
Gregorio Sablan, Northern Marianas   Adrian Smith, Nebraska
Martin T. Heinrich, New Mexico       Robert J. Wittman, Virginia
George Miller, California            Paul C. Broun, Georgia
Edward J. Markey, Massachusetts      John Fleming, Louisiana
Peter A. DeFazio, Oregon             Mike Coffman, Colorado
Maurice D. Hinchey, New York         Jason Chaffetz, Utah
Donna M. Christensen, Virgin         Cynthia M. Lummis, Wyoming
    Islands                          Tom McClintock, California
Diana DeGette, Colorado              Bill Cassidy, Louisiana
Ron Kind, Wisconsin
Lois Capps, California
Jay Inslee, Washington
Joe Baca, California
Stephanie Herseth Sandlin, South 
    Dakota
John P. Sarbanes, Maryland
Carol Shea-Porter, New Hampshire
Niki Tsongas, Massachusetts
Frank Kratovil, Jr., Maryland
Pedro R. Pierluisi, Puerto Rico

                     James H. Zoia, Chief of Staff
                       Rick Healy, Chief Counsel
                 Todd Young, Republican Chief of Staff
                 Lisa Pittman, Republican Chief Counsel
                                 ------                                

          SUBCOMMITTEE ON INSULAR AFFAIRS, OCEANS AND WILDLIFE

                MADELEINE Z. BORDALLO, Guam, Chairwoman
     HENRY E. BROWN, JR., South Carolina, Ranking Republican Member

Dale E. Kildee, Michigan             Don Young, Alaska
Eni F.H. Faleomavaega, American      Jeff Flake, Arizona
    Samoa                            Doug Lamborn, Colorado
Neil Abercrombie, Hawaii             Robert J. Wittman, Virginia
Frank Pallone, Jr., New Jersey       John Fleming, Louisiana
Gregorio Sablan, Northern Marianas   Jason Chaffetz, Utah
Donna M. Christensen, Virgin         Bill Cassidy, Louisiana
    Islands                          Doc Hastings, Washington, ex 
Diana DeGette, Colorado                  officio
Ron Kind, Wisconsin
Lois Capps, California
Carol Shea-Porter, New Hampshire
Frank Kratovil, Jr., Maryland
Pedro R. Pierluisi, Puerto Rico
Nick J. Rahall, II, West Virginia, 
    ex officio
                                 ------                                

        SUBCOMMITTEE ON NATIONAL PARKS, FORESTS AND PUBLIC LANDS

                  RAUL M. GRIJALVA, Arizona, Chairman
              ROB BISHOP, Utah, Ranking Republican Member

 Dale E. Kildee, Michigan            Don Young, Alaska
Neil Abercrombie, Hawaii             Elton Gallegly, California
Grace F. Napolitano, California      John J. Duncan, Jr., Tennessee
Rush D. Holt, New Jersey             Jeff Flake, Arizona
Madeleine Z. Bordallo, Guam          Henry E. Brown, Jr., South 
Dan Boren, Oklahoma                      Carolina
Martin T. Heinrich, New Mexico       Louie Gohmert, Texas
Peter A. DeFazio, Oregon             Bill Shuster, Pennsylvania
Maurice D. Hinchey, New York         Robert J. Wittman, Virginia
Donna M. Christensen, Virgin         Paul C. Broun, Georgia
    Islands                          Mike Coffman, Colorado
Diana DeGette, Colorado              Cynthia M. Lummis, Wyoming
Ron Kind, Wisconsin                  Tom McClintock, California
Lois Capps, California               Doc Hastings, Washington, ex 
Jay Inslee, Washington                   officio
Stephanie Herseth Sandlin, South 
    Dakota
John P. Sarbanes, Maryland
Carol Shea-Porter, New Hampshire
Niki Tsongas, Massachusetts
Pedro R. Pierluisi, Puerto Rico
Nick J. Rahall, II, West Virginia,  ex officio






                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Tuesday, June 23, 2009...........................     1

Statement of Members:
    Bordallo, Hon. Madeleine Z., a Delegate in Congress from Guam     3
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     1
        Prepared statement of....................................     2
    Kratovil, Hon. Frank, Jr., a Representative in Congress from 
      the State of Maryland......................................     4
        Prepared statement of....................................     6
    Sarbanes, Hon. John P., a Representative in Congress from the 
      State of Maryland..........................................     4

Statement of Witnesses:
    Boesch, Donald F., Ph.D., Professor and President, University 
      of Maryland Center for Environmental Science, Cambridge, 
      Maryland...................................................    24
        Prepared statement of....................................    26
    Bojokles, Hon. Michael, Mayor, Town of North Beach, Maryland.    20
        Prepared statement of....................................    22
    Fowler, Hon. Bernie, Former State Senator, Maryland State 
      Senate.....................................................    51
        Prepared statement of....................................    54
    Hines, Anson H., Ph.D., Director, Smithsonian Environmental 
      Research Center............................................    31
        Prepared statement of....................................    33
    Leggett, Tommy, Waterman and Shellfish Farmer, Wicomico, 
      Virginia...................................................    68
        Prepared statement of....................................    69
    Moriarty, Marvin, Regional Director, Fish and Wildlife 
      Service, U.S. Department of the Interior...................     7
        Prepared statement of....................................     8
    Parnes, Stuart, President, Chesapeake Bay Maritime Museum, 
      St. Michaels, Maryland.....................................    65
        Prepared statement of....................................    67
    Stiles, William A., Jr., Executive Director, Wetlands Watch..    55
        Prepared statement of....................................    57
    Wood, Robert J., Ph.D., Director, Cooperative Oxford 
      Laboratory, National Ocean Service, National Oceanic and 
      Atmospheric Administration, U.S. Department of Commerce....    15
        Prepared statement of....................................    16
                                     


 
  OVERSIGHT FIELD HEARING ON ``THE IMPACTS OF CLIMATE CHANGE ON THE   
                           CHESAPEAKE   BAY''

                              ----------                              


                         Tuesday, June 23, 2009

                     U.S. House of Representatives

         Subcommittee on Insular Affairs, Oceans and Wildlife,

                             joint with the

         Subcommittee on National Parks, Forests & Public Lands

                     Committee on Natural Resources

                          Edgewater, Maryland

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:00 a.m., at 
the Smithsonian Environmental Research Center, 647 Contees 
Wharf Road, Edgewater, Maryland, Hon. Raul M. Grijalva 
[Chairman of the Subcommittee on National Parks, Forests and 
Public Lands] and Hon. Madeleine Z. Bordallo [Chairwoman of the 
Subcommittee on Insular Affairs, Oceans and Wildlife] co-
presiding.
    Present from the Subcommittee on National Parks, Forests 
and Public Lands: Representatives Grijalva and Sarbanes.
    Present from the Subcommittee on Insular Affairs, Oceans 
and Wildlife: Representatives Bordallo and Kratovil.

 STATEMENT OF THE HONORABLE RAUL M. GRIJALVA, A REPRESENTATIVE 
             IN CONGRESS FROM THE STATE OF ARIZONA

    Mr. Grijalva. Thank you very much. Let me call the joint 
hearing of the Subcommittee on National Parks, Forests and 
Public Lands and the Subcommittee on Insular Affairs, Oceans, 
and Wildlife to order. Thank you very much for being here. This 
oversight hearing is on the impacts of climate change on the 
Chesapeake Bay.
    I have an opening statement that I will submit for the 
record but suffice it to say that the issue of climate change 
has dominated some of the work of the Subcommittee that I have 
the privilege of chairing, the Subcommittee on National Parks, 
Forests and Public Lands. This will be our third hearing. I 
know that Chairwoman Bordallo has conducted similar hearings.
    I feel there is an important impact on the public lands, 
that there is a role for the public lands in the adaptation of 
climate change and in lessening its very, very negative 
effects. It is a reality that is shaping all of us. One of the 
points that lags behind is the shaping of public policy to 
respond to this. This is what we are looking at. Not only the 
issue of public policy but the very direct effects upon the 
people and the areas where climate change is having some of its 
more devastating effects.
    We visited an area that is primarily desert and saw what it 
is doing to those public lands and those communities. We are 
here on the Eastern Shore to talk about the Chesapeake Bay, the 
impacts of climate change, and the necessity and the urgency 
with which we need to deal with this reality.
    I want to welcome all of you. I want to thank the 
Smithsonian for their hospitality and for hosting this meeting. 
With that, let me turn to my esteemed colleague, Chairwoman 
Bordallo, from the Subcommittee on Insular Affairs for her 
opening comments. Madam Chair.
    [The prepared statement of Chairman Grijalva follows:]

        Statement of The Honorable Raul M. Grijalva, Chairman, 
        Subcommittee on National Parks, Forests and Public Lands

    I want to thank you all for coming today and thank you for warmly 
welcoming all of us this morning to this beautiful spot along side this 
most celebrated estuary.
    The Chesapeake Bay has been a home to people for thousands of 
years. Drawn by the verdant landscape and bountiful waters, many tribes 
settled along its shores. The rich land and waters also drew English 
colonists, setting the stage for this region to become the birthplace 
of our nation.
    But today we reflect upon that past knowing that the future of the 
Bay is beset by challenges: from years of pollution brought about by 
agricultural runoff and unchecked development and now by climate 
change, which is further threatening this fragile ecosystem.
    We are here to listen. To hear from you, the experts--the people 
who love, know, and depend upon this storied Bay--about what is 
happening here. And more importantly, what has to be done.
    And we look not only to the changes we are seeing to the natural 
environment, but to the cultural landscape as well.
    People of the Chesapeake already know that their land, water and 
island communities are threatened by storms and rising waters brought 
about by the changing climate. But sadly, this Bay bears witness to 
threats to the fabric of our history as well--the monuments, treasures, 
records and places that tell the stories of who we are. And the stories 
yet untold too.
    Keys to our history may disappear before they can be revealed by 
researchers who are desperately trying to save them. With storm surges, 
and rising sea levels our history could literally be washed away.
    Many of the Chesapeake's rich cultural and historical assets are 
managed by the National Park Service. For the NPS sites along the Bay, 
and in the watershed--such as Jamestown, Fort McHenry, the birthplace 
of George Washington, and our own National Mall--climate change 
challenges the very foundation of their existence.
    As the National Park Service enters into its second century of 
safeguarding and interpreting our natural and cultural treasures, in 
places along the Chesapeake Bay--and in sites around the country--the 
question, in the face of climate change, is: can the National Park 
Service uphold its mandate, to preserve and protect our nation's 
natural and cultural treasures, UNIMPAIRED, for future generations?
    I believe the impact of climate change is the biggest challenge 
that the Park Service has ever faced--both from a preservation 
standpoint, but also a financial one. I look forward to hearing from 
the Administration about what plans they have to tackle this complex 
challenge.
    And with the literal sinking of the land, comes the sinking of the 
local economies and communities as well. During the hearing, you will 
see several gripping images of the changing Chesapeake Bay generously 
provided by Mr. Dave Harp. His photo of a lone house--abandoned, and 
surrounded by water--standing stoically on Holland Island is a haunting 
illustration of just how fragile life is on the Bay.
    We will hear today from scientists and experts on the Bay who will 
show us that the Bay is already being impacted by climate change. And 
we will hear from waterman Tommy Leggett, about the reality of life on 
the Chesapeake, and the drastic changes that the people here struggle 
with daily to maintain their livelihoods. While Historian Stuart Parnes 
will attest to the fact that with the decline of these communities 
comes the loss of a unique American culture. And Mayor Bojokles will 
talk about the financial burdens of climate change on small communities 
in the region, reminding us of the economic costs of inaction.
    So, as we tackle climate change legislation in Washington DC, we 
need only look right here, into our own backyard, to see the urgent 
need for action. And to recognize the need to protect not only our 
precious natural icons and historic places, but our culture and our 
communities as well. This is not JUST an environmental issue.
    I look forward to hearing from ALL of our witnesses today. And I 
thank all of them for taking the time to travel here today to be with 
us. I want to especially thank the Smithsonian Environmental Research 
Center staff for hosting us today.
    I would now like to turn to my colleague Ms. Bordallo, Chairwoman 
of the Subcommittee on Insular Affairs, Oceans and Wildlife, for any 
opening statement she may have.
                                 ______
                                 

STATEMENT OF THE HONORABLE MADELEINE Z. BORDALLO, A DELEGATE IN 
                       CONGRESS FROM GUAM

    Ms. Bordallo. Thank you very much, Chairman Grijalva. It is 
indeed a pleasure to join you this morning in co-chairing this 
important joint Subcommittee hearing concerning climate change 
and the impacts on the Chesapeake Bay. I would like to also 
welcome my colleagues who are here.
    I would also like to acknowledge, as I said earlier, 
Congressman John Sarbanes and Congressman Frank Kratovil and 
thank both of them for their leadership and their contributions 
to the work of the Natural Resources Committee.
    I would also like to thank the Director of the Smithsonian 
Environmental Research Center, Dr. Anson Hines, and his 
outstanding staff for their gracious hospitality in hosting 
this hearing this morning. We are honored to be here and 
sincerely appreciate all of your efforts.
    Today's hearing will mark the fourth time that I have 
convened a meeting of the Subcommittee on Insular Affairs, 
Oceans and Wildlife to discuss some aspect of climate change. 
Whether the topic is increased ocean acidification, disruption 
of bird migrations or the sharp decline in pollinators, 
evidence to date suggests that climate change, or I would say 
climate disruption, represents a challenge to our civilization 
and life on this planet like nothing before it.
    In reviewing the testimony from the witnesses, it is clear 
that the Chesapeake Bay and the communities that have defined 
their existence by the historic abundance of the Bay's 
bountiful resources stand at a tenuous crossroads with little 
but uncertainty in the future.
    I represent the island territory of Guam in the western 
Pacific Ocean about as far away from the Chesapeake Bay as you 
can possibly be, but I want to say to our witnesses that I 
understand the stark reality that emerges from your 
testimonies. You see, just as Smith and Tangier Islands and 
their communities are literally washing away into a rising 
Chesapeake Bay, so too are entire low-lying island nations in 
the Pacific Basin.
    When high tides begin to flood your home, whether you are 
in Kiribati or Tangier Island, climate change quickly becomes a 
reality to be dealt with and not just a theory. With that 
thought in mind, I look forward to hearing from this morning's 
witnesses to better learn how we might act to both preserve our 
natural resources of the Chesapeake Bay, and its communities 
and culture, while we have time to limit the consequences. I 
thank you, Mr. Chairman.
    Mr. Grijalva. Thank you, Madam Chair.
    Let me now turn to my good friend and colleague, Mr. 
Sarbanes. Any comments?

 STATEMENT OF THE HONORABLE JOHN P. SARBANES, A REPRESENTATIVE 
             IN CONGRESS FROM THE STATE OF MARYLAND

    Mr. Sarbanes. Thank you, Mr. Chairman. Thank you Chairwoman 
Bordallo for calling this hearing. This is a critical 
discussion that we're going to have today. I'm looking forward 
to this wonderful panel that we have assembled, the two panels 
that are going to address the topic today.
    I want to welcome you again to Maryland. We did a field 
hearing in the last session if you remember, Patuxent National 
Wildlife Refuge, No Child Left Inside, which is, of course, 
very related to this topic in terms of raising awareness about 
the Chesapeake Bay and the environment at large. I do want to 
salute again SERC for hosting us here. This is a terrific 
facility and resource, not just for this region but for the 
country.
    The reason this kind of hearing we are having today is so 
critical is because one of the challenges we have in responding 
to climate change as a matter of public policy is that it can 
be a very abstract concept. Humans aren't particularly good 
sometimes in absorbing those kinds of abstractions and taking 
concrete steps to address them.
    The testimony today is going to illustrate very powerfully 
that there is nothing abstract or theoretical about climate 
change and climate disruption. There are very, very measurable 
effects that we are seeing every single day, particularly for 
those of us who care so deeply about the Chesapeake Bay--
regarded as one of this country's treasures--and we consider 
ourselves its prime stewards.
    The effects on the Chesapeake Bay of rising sea levels and 
other effects of climate change are things that are very 
measurable and apparent. The testimony today is going to, I 
think, really drive that home. I want to thank you again, 
Chairwoman Bordallo and Chairman Grijalva, for convening this 
very, very important hearing and I look forward to the 
testimony from the panels.
    Mr. Grijalva. Thank you. We now ask our colleague for any 
comments he may have.
    Mr. Kratovil.

       STATEMENT OF THE HONORABLE FRANK KRATOVIL, JR., A 
     REPRESENTATIVE IN CONGRESS FROM THE STATE OF MARYLAND

    Mr. Kratovil. Thank you very much. Mr. Chairman, Madam 
Chairman, thank you for holding this very important field 
hearing on the impacts of climate change on the Chesapeake Bay. 
I'm obviously also very pleased to be with my colleague, John 
Sarbanes, who many of you know has been a leader on 
environmental issues throughout the State of Maryland for quite 
some time now.
    I also want to thank the expert witnesses, many that I know 
quite well. I particularly want to recognize Senator Bernie 
Fowler, who is a close friend and has been a leader on 
environmental issues for many, many years.
    As you all know, the Chesapeake Bay is a national treasure 
and home to rich, natural habitat and wildlife. As North 
America's largest estuary, the Chesapeake Bay provides 
recreational and economic opportunities that have created a way 
of life for generations of Marylanders.
    The wetlands of Blackwater National Wildlife Refuge and the 
creeks and rivers that feed the Chesapeake provide breathtaking 
scenery and valued biodiversity. We have broken environmental 
and economic responsibility to protect this irreplaceable 
resource to ensure future generations will have the opportunity 
to enjoy all it has to offer.
    As I expect the testimony will make clear, the low-lying 
communities that dot the Chesapeake Bay are especially at risk 
due to climate change. In fact, 13 islands in the Chesapeake 
Bay have disappeared since Europeans first mapped the area. Now 
more than ever much of the Eastern Shore is vulnerable due to 
the resulting temperature increase, sea level rise, and storm 
surge events that could lead to even more erosion, flooding, 
and the eventual loss of vital lands.
    Climate change could also have lasting impacts on water 
quality and cause additional harm to an already delicate 
habitat for blue crabs, oysters, and other species. Climate 
change also poses a significant economic impact to the 
Chesapeake Bay and the State of Maryland. According to a 2006 
report by the State, tourist spending was at $11.72 billion 
statewide supporting 116,000 jobs and generating $920 million 
in state and local tax revenue.
    Much of this data can be directly attributed to the beaches 
and forest destinations on the shore that could be devastated 
by the effects of climate change. Furthermore, the commercial 
fishing industry, which generated $207 million to Maryland in 
2007 could be irreparably harmed by these changes to the 
natural habitat.
    We must undertake a smart scientific-based approach that 
carefully balances the needs of the agricultural community, 
which represents, obviously, a key piece of the heritage of the 
Eastern Shore and the very real threats of climate change to 
develop an effective strategy.
    Many Maryland farmers have taken great strides to operate 
their farms in a more sustainable manner. The agricultural 
community's critical role in conservation must be recognized 
and it must have the opportunity to participate and benefit 
from new climate change proposals moving forward.
    The Chesapeake Bay watershed is home to well over 16 
million people and a destination for thousands of others who 
enjoy vacationing, hunting, fishing, and wildlife watching in 
its incomparably beautiful surroundings. Because of this it is 
also an economic engine that provides employment opportunities 
for thousands of Marylanders.
    Unfortunately, because of the degradation of water quality 
over time, many of those opportunities have been lost. We 
cannot afford to risk further damage to this fragile habitat 
and to those who depend on it. This hearing is a vital step in 
helping us chart a course for protecting the Chesapeake Bay 
from the damages of climate change. Thank you. I'm happy to be 
with you today.
    Mr. Grijalva. Thank you, sir.
    And let me just remind the witnesses that your written 
statements and any other extraneous information that you would 
like to submit will all be made part of the record. I would 
hope that you would limit your comments to five minutes so that 
those of us on the Committee would have the opportunity to 
engage in some questions and answers.
    A point of great concern, I think, to all of us and to me 
personally is the issue of the potential loss of cultural and 
historic resources in the region and other parts that are being 
affected by climate change. I hope that you are able to comment 
on those as well.
    With that, let me now turn to Mr. Marvin Moriarty, Regional 
Director, U.S. Fish and Wildlife Service. Let me indicate that 
we invited the Department of the Interior as well to give a 
presentation. They are not here and I would hope to remind 
Interior that climate change is not agency specific, that it 
involves all of us. Hopefully their engagement will intensify 
as we go forward, not only with legislation but with additional 
hearings and reports that will emanate from both Subcommittees. 
Thank you.
    Sir.
    [The prepared statement of Mr. Kratovil follows:]

  Statement of The Honorable Frank Kratovil, Jr., a Representative in 
                  Congress from the State of Maryland

    Thank you Madame Chair Bordallo and Chairman Grijalva for holding 
this important field hearing on the impacts of climate change on the 
Chesapeake Bay. I am also pleased to be here today with my colleague 
from Maryland, Mr. Sarbanes.
    I would also like to thank today's expert witnesses, some of who 
are my constituents. I look forward to your testimony.
    The Chesapeake Bay is a national treasure and home to a rich 
natural wildlife and habitat. As North America's largest estuary, the 
Chesapeake Bay provides recreational and economic opportunities that 
have created a way of life for generations of Marylanders. The wetlands 
of Blackwater National Wildlife Refuge and the creeks and rivers that 
feed the Chesapeake provide breathtaking scenery and valued 
biodiversity. We have both an environmental and economic responsibility 
to protect this irreplaceable resource to ensure future generations 
will have the opportunity to enjoy all it has to offer.
    As I expect that your testimony will make clear, the low lying 
communities that dot the Chesapeake Bay are especially at risk due to 
climate change. In fact, thirteen islands in the Chesapeake Bay have 
disappeared since Europeans first mapped the area. Now, more than ever, 
much of the Eastern Shore is vulnerable due to the resulting 
temperature increase, sea-level rise, and storm surge events that could 
lead to even more erosion, flooding and the eventual loss of vital 
lands. Climate change could also have lasting impacts on water quality 
and cause additional harm to an already delicate habitat for blue 
crabs, oysters, and other species.
    Climate change also poses a significant economic impact to the 
Chesapeake Bay and the State of Maryland. According to a 2006 report by 
the State, tourist spending was at $11.72 billion statewide, supporting 
116,000 jobs and generating $920 million in state and local tax 
revenue. Much of this data can be directly attributed to the beaches 
and tourist destinations on the Shore that could be devastated by the 
affects of climate change. Furthermore, the commercial fishing 
industry, which generated $207 million to Maryland in 2007, could be 
irreparably harmed by these changes to the natural habitat.
    We must undertake a smart, scientific based approach that carefully 
balances the needs of agricultural community, who represent a key piece 
of the heritage of the Eastern Shore, and the very real threats of 
climate change to develop an effective strategy. Many Maryland farmers 
have taken great strides to operate their farms in a more sustainable 
manner. The agriculture community's critical role in conservation must 
be recognized and it must have the opportunity to participate and 
benefit from new climate change proposals moving forward. The 
Chesapeake Bay watershed is home to well over 16 million people and 
destination for thousands of others who enjoy vacationing, hunting, 
fishing, and wildlife watching in its incomparably beautiful 
surroundings. Because of this, it is also an economic engine that 
provides employment opportunities for thousands of Marylanders. 
Unfortunately, because of degradation of water quality over time, many 
of those opportunities have been lost. We cannot afford to risk further 
damage to this fragile habitat and to those who depend on it. This 
hearing is a vital step in helping us chart a course for protecting the 
Chesapeake Bay from the damages of climate change.
    Thank you.
                                 ______
                                 

STATEMENT OF MARVIN MORIARTY, REGIONAL DIRECTOR, U.S. FISH AND 
                        WILDLIFE SERVICE

    Mr. Moriarty. Thank you, Mr. Chairman. Chairman Grijalva, 
Chairwoman Bordallo, and members of the Subcommittees, I am 
Marvin Moriarty, Regional Director for the Northeast Region and 
acting Deputy Director for the Fish and Wildlife Service. I 
thank you for the opportunity to testify on behalf of the 
Department about the impacts of climate change on the 
Chesapeake Bay.
    Climate change is the defining conservation challenge of 
our time and it drives many of the Department's priorities. 
Because of its cultural and natural resource significance the 
Department manages 14 National Wildlife Refuge units, numerous 
National Park Service units, and maintains facilities including 
12 geological survey science centers and 13 other Fish and 
Wildlife Service offices in the Chesapeake Bay watershed.
    According to a recently released Chesapeake Bay program 
scientific and technical committee report the Bay is now 
experiencing numerous significant challenges resulting from 
climate change and is likely to experience significant changes 
throughout the 21st century including increased carbon dioxide 
concentrations in its waters, relative sea level rising, 
increasing water temperatures, and changes in precipitation 
patterns.
    The changes will result in increased erosion and runoff of 
sediments and nutrients further damaging submerged aquatic 
vegetation, benthic communities and wetlands. These changes are 
already being documented at Department facilities. For 
instance, over the last century Bay water levels rose by more 
than a foot contributing to the loss of thousands of acres of 
shoreline marshes including about 8,000 acres of wetlands at 
the Fish and Wildlife Service's Blackwater National Wildlife 
Refuge which was also accelerated by the invasion of nutria.
    Rising water levels and associated storm surges in the 
Chesapeake Bay watershed pose significant risk to historic 
structures and cultural resources managed by the National Park 
Service such as the Colonial National Historical Park and 
George Washington's birthplace monument.
    To address threats to the Chesapeake Bay resources from 
climate change the Department through the U.S. Geological 
Survey models, simulates, and monitors sea level rise to 
predict its impacts on Department lands and trust resources. 
Additionally, the survey through its climate effects network is 
developing the capability to provide climate science at scales 
such as the Chesapeake Bay watershed.
    The Department through the National Park Service is 
undertaking vulnerability studies to assess the impacts of sea 
level rise on Park Service facilities. It is also conducting 
scenario planning in pilot parks across the country to design 
appropriate adaptation projects to build resilience into park 
ecosystems.
    The Park Service has also begun strategic communication 
effort to make park staff and the public aware of the possible 
impacts to park resources by climate change.
    The Department through the Fish and Wildlife Service is 
working with others to plan, design, implement and monitor 
conservation actions at landscape scales to address species and 
habitat conservation priorities. The Service is also applying a 
new tool called the Sea Level Affecting Marshes Model, 
otherwise known as SLAMM, to help plan protection of coastal 
refuges and to communicate with the public about the impacts of 
sea level rise.
    SLAMM is currently being used to guide long-range habitat 
management planning in the Chesapeake Marshlands National 
Wildlife Refuge Complex. As you know, President Obama recently 
signed an executive order on Chesapeake Bay restoration and 
protection which ushers in a new era of shared Federal 
leadership.
    Specifically, we will work closely with the Environmental 
Protection Agency and the Department of Commerce as well as 
with the six watershed states to organize and conduct research 
and scientific assessments that support development of a 
strategy to adapt to climate change impacts. We will also 
identify and prioritize critical living resources in the Bay 
and conduct research and habitat protection activities to 
protect these resources.
    Changes in ecosystems due to human impacts and climate 
change must be better understood, monitored, and forecast so 
that all the nation's resources can be effectively protected. 
We look forward to working with you to better understand and 
mitigate these impacts in the Chesapeake Bay watershed. I thank 
you for the opportunity to testify before you today and would 
be happy to answer any questions that you or the Committee 
members may have.
    [The prepared statement of Mr. Moriarty follows:]

  Statement of Marvin Moriarty, Regional Director, Northeast Region, 
    U.S. Fish and Wildlife Service, U.S. Department of the Interior

    Chairman Grijalva, Chairwoman Bordallo, and Members of the 
Subcommittees, I am Marvin Moriarty, Regional Director for the U.S. 
Fish and Wildlife Service's Northeast Region. I am currently acting as 
the bureau's Deputy Director. Thank you for the opportunity to testify 
on behalf of the Department of the Interior about the impacts of 
climate change on the Chesapeake Bay.
    After a brief introduction, my statement will focus on the impacts 
of climate change on the Chesapeake Bay watershed that are being 
observed by the Department's bureaus working on Chesapeake Bay 
restoration, and what we are doing to anticipate and respond to these 
impacts. I also offer a brief discussion of Executive Order 13508, 
issued by President Obama on May 12, 2009, that calls for leadership 
and action by federal agencies to protect and restore the Chesapeake 
Bay.
    I am joined here today by representatives from the National Park 
Service and the U.S. Geological Survey who are here to answer any 
questions you might have with respect to their activities here in the 
Chesapeake Bay.
Introduction
    The Chesapeake Bay is the largest estuary in the United States and, 
due to the Bay's geography, water characteristics and hydrology, is one 
of the most biologically productive estuaries in the world. The 64,000 
square mile watershed that supports the Chesapeake Bay is home to a 
myriad of native species whose abundance, in the early 17th Century, 
awed Captain John Smith and fellow explorers and settlers through the 
18th and early 19th Century. The Bay is a national treasure enjoyed by 
millions of visitors each year.
    The U.S. Fish and Wildlife Service (Service) and the National Park 
Service (NPS) within the Department manage nationally significant 
federal lands, parks, wildlife refuges, monuments and museums in the 
Chesapeake Bay and its watershed. The U.S. Geological Survey (USGS) 
provides scientific information to the Department, other agencies, and 
the public to describe, monitor and understand the Earth's response to 
climate change over time. The USGS supports the mission of the Service 
and NPS by delivering accurate, impartial, and timely scientific 
information and geospatial data and assisting in biological, water and 
other natural resource management
    The scientific community studying the impacts of climate change on 
natural systems, like the Chesapeake Bay, has increasingly verified 
impacts on these treasured landscapes, including alteration of 
precipitation patterns that are affecting water supplies and impacts to 
wildlife and habitat through temperature changes.
    The Chesapeake Bay, along with its immense watershed, thousands of 
miles of tributaries, and multitude of living and nonliving resources, 
is acutely vulnerable to the impacts of climate change. A recent report 
(Pyke and others, 2008) by the Chesapeake Bay Program Scientific and 
Technical Advisory Committee stated that significant warming and sea-
level rise trends during the 20th century have been detected in the 
Chesapeake Bay. The report suggests the Bay region is likely to 
experience significant changes throughout the 21st century, including 
increased carbon dioxide concentrations in its waters; relative sea-
level rising; increasing water temperatures; and changes in 
precipitation patterns.
    The Chesapeake Bay ecosystem has already been severely degraded due 
to human population increases, resulting in poor water quality, loss of 
habitat, and declines in populations of biological communities 
(Phillips, et al., 2007). The additional impacts of climate change 
could have additional, profound derivative effects on water quantity, 
water quality, and the sustainability of numerous aquatic freshwater, 
and marine and terrestrial living resources, as well as on the quality 
of life and economic well-being of visitors to and residents of this 
iconic watershed. For example, changes in precipitation patterns and 
intensity will induce changes in streamflow and water temperature. This 
will drive changes in nutrient and sediment loads to the Bay. All of 
these changes will impact aquatic habitats in the Bay and its 
watershed.
Threats to Fish and Wildlife
    The Chesapeake Bay is a flooded river delta, fed by the freshwater 
of the Susquehanna River to the north and major rivers on the Eastern 
Shore and Western Shore of the Bay, which is mixed with ocean water 
drawn from the Atlantic. The waters range from fresh to brackish to 
ocean water, increasing opportunity for a diversity of aquatic species. 
A shallow basin, the Bay retains warmth from the sun, which has 
historically maximized its ability to support plants, fish, and 
shellfish. It supports extensive salt marshes, as well as emergent 
freshwater wetlands and over 16 species of submerged aquatic grasses, 
which provide food for waterfowl, shelter for young fish and shellfish, 
dissolved oxygen, and water clarity. Without these grasses, the Bay's 
ecosystem would be extinguished. It is believed that the Bay once 
supported over 600,000 acres of these grasses, but in 2006, only 23,941 
acres were accounted for in the annual Bay survey of submerged aquatic 
vegetation. (Virginia Institute of Marine Science).
    About 350 fish species live in the fresh and brackish waters in the 
watershed, including commercially important oysters, blue crabs, and 
clams (Jung and Houde, Science Direct 2002). The Bay, along with 
Delaware Bay, also supports the largest concentrations of migrating 
shorebirds in the western hemisphere, as well as one of the most 
important resting and wintering areas for other migratory birds. 
Millions of waterfowl come to the Bay each year, along with song birds 
and other species which feed on the rich abundance of aquatic, plant, 
and other food sources in the watershed. The plants and animals in the 
Chesapeake Bay watershed have evolved to depend on one another. The 
complex interaction between the characteristics of the water as it 
cycles through the Bay and the Bay's native species are delicate and 
key considerations to effective Bay restoration efforts.
    Climate change will bring added stress to this system, which is 
already experiencing significant threats from human activities. For 
example, an influx of nitrogen and phosphorus coming from agriculture 
and other land uses is a significant threat to this delicate balance. 
The Bay's food web has changed from an ecosystem dominated by 
zooplankton to one that is increasingly populated by phytoplankton, 
because of these excess nutrients. Increased presence of phytoplankton 
increases the prevalence of algal blooms. Algae covers the leaves of 
submerged aquatic grasses, cutting out the sunlight they need to grow.
    The Smithsonian Environmental Research Center has identified over 
200 nonnative, invasive species in the watershed. In 2001, 46 of these 
were identified as ``nuisance'' species and six (the mute swan, nutria, 
phragmites, purple loosestrife, water chestnut, and zebra mussel) were 
identified by the EPA Chesapeake Bay Program as posing the greatest 
threat to the Bay. The increase in disease affecting native aquatic 
species, such as oysters, clams, and blue crabs, are due in part to 
decreasing water quality and the introduction of exotic species, and is 
adding to what may ultimately be an irreversible change in the 
Chesapeake Bay's biological community.
    These impacts alone have driven the population of some species into 
steep decline, prompting petitions for their listing under the 
Endangered Species Act. These include the Virginia oyster, which is 
said by some fisheries biologists to be ``commercially extinct'' at 
about one percent of its historic density. Petitions have also been 
filed with the Fish and Wildlife Service for the American eel, and with 
the Service and NOAA fisheries for the Atlantic sturgeon.
    Climate change threatens to increase the significance of existing 
challenges to restoration of the Chesapeake Bay and its fish and 
wildlife populations. The warming of the Chesapeake Bay--about 2 
degrees since the 1960s--and its tributaries is contributing to the 
decline of eel grass, an important source of food for waterfowl and 
shelter for fish and shellfish. Warmer waters also support fish and 
shellfish diseases, such as Dermo and other diseases and parasites of 
shellfish, affecting migratory waterfowl which rely on these sources of 
food. In the last century, Bay water levels have risen by about a foot, 
eroding or destroying wetlands and many of the Bay's islands. The 
erosion of these islands and shorelines has removed important nesting 
habitat for colonial nesting waterbirds, like black skimmers, least 
terns, and royal terns in the Bay.
    The open, loblolly pine forests found along the marshes of the 
lower Eastern Shore of the Delmarva Peninsula are important habitat for 
the endangered Delmarva fox squirrel, and this and other forest 
communities unique to this part of the East Coast are threatened by 
sea-level rise. If plant hardiness zones, established by the U.S. 
Department of Agriculture, are moving north, some bird species may also 
move north, away from the Chesapeake Bay. The Baltimore oriole, for 
instance, is observed nesting further north and may in time leave 
Maryland altogether. At the rate of current warming, the red spruce 
forests of the Shenandoah National Park could be replaced by southern 
pines and oaks in the next 30 to 80 years, greatly affecting the 
species living there (EPA, Climate Change and Virginia, 1998).
Impacts on National Wildlife Refuges
    Climate change also threatens to increase challenges faced by 
National Wildlife Refuges in the Chesapeake Bay watershed. Among the 
many threats to fish and wildlife, the most profound in coastal 
habitats is sea level rise. At the Blackwater National Wildlife Refuge, 
which is part of the Chesapeake Marshlands National Wildlife Refuge 
Complex, thousands of acres of shoreline marshes have eroded away, 
subsided or been overcome by sea level rise, including about 8,000 
acres of wetlands at the Blackwater National Wildlife Refuge 
(Chesapeake Marshlands NWR CCP, 2006). Invasive species, such as 
nutria, have also severely damaged these wetlands. Sea level rise 
related to climate change may inundate these wetlands; a recent USGS 
study that modeled sea level rise at Blackwater forecasts that most of 
the refuge will be in open water in approximately 50 years. These 
marshes are used by millions of waterfowl, shorebirds, bald eagles, and 
other bird species, and refuge managers are working to restore them 
where practicable and feasible while securing habitats further upland 
to plan for future marsh habitat needs.
    The other refuges in the Chesapeake Marshlands National Wildlife 
Refuge Complex are Eastern Neck National Wildlife Refuge, Martin 
National Wildlife Refuge, and Susquehanna National Wildlife Refuge. 
These and the other refuges in the Chesapeake Bay watershed, including 
Eastern Virginia Rivers National Wildlife Refuge Complex, Patuxent 
National Research Refuge, and Potomac River National Wildlife Refuge 
Complex and all of these protected areas are facing climate change 
related challenges.
Impacts on National Park Units
    Climate change is a far-reaching and consequential challenge to the 
National Park Service (NPS) mission and its ability to leave America's 
natural and cultural heritage unimpaired for future generations.
    Rising water levels and associated storm-surge tides in the 
Chesapeake Bay watershed pose significant potential risk to the 
associated historic and cultural landscape. Bank erosion results in the 
loss of land and the associated cultural properties, and also 
indirectly impacts the natural resources of the area. For example, at 
Fort McHenry National Monument and Historic Shrine, foundations of 
historic structures at risk include the 1814 and 1912 Water Battery 
fortifications and the Married Soldiers' Quarters and Gunshed. The 
2,900 linear feet of seawall, constructed in 1816-1897, and 2,000 
linear feet of adjacent seawall trail (also a contributing feature and 
high-priority asset) are especially vulnerable. The bank erosion and 
rising water levels at George Washington's Birthplace National Historic 
Site have meant the loss of native sea grass beds, the nurseries for 
many of the fish, crabs, and especially oysters that are critical to 
the health of the bay, in addition to being the prey base for breeding 
birds such as bald eagles and osprey.
    Historic structures and landscapes are affected by static water 
inundation, higher ground water tables, saturated soils, and damage 
from tidal water surges resulting from major storm events. The proposed 
Harriet Tubman National Historical Park and the surrounding nationally 
significant landscape, located in Caroline, Dorchester and Talbot 
Counties, Maryland, is vulnerable to these threats, and could result in 
the loss of historic sites.
    Unlike plants and animals that are capable of adapting to new 
circumstances through migration, cultural resources are typically fixed 
in place on the landscape. Most cannot be moved without considerable 
cost and with the threat of incurring severe damage and loss of 
integrity. In addition, cultural resources are unique; they do not 
reproduce when conditions improve and once they are lost, they are lost 
forever. The combination of being geographically fixed and unique 
limits the range of appropriate responses in dealing with the effects 
of climate change on cultural resources.
    Rising waters in the Chesapeake Bay watershed, which, it is noted 
below, is predicted to increase during the next century in the Bay 
region, will likely have significant consequences for units of the 
National Trail System and NPS partners in the region due to their 
geographic location--many NPS and partner resources in the watershed 
are located along or near the shoreline of the Chesapeake Bay or its 
tributaries--and low elevations, which increases their susceptibility 
to inundation due to relative sea level rise and storm surge. 
Increasing sea levels will threaten the landscapes, archeological 
sites, places important to Native American communities, and other 
resources significant to the Captain John Smith Chesapeake National 
Historic Trail. From the north of the trail at Garrett Island to the 
south at Historic Jamestowne, trail resources and public access sites 
will be impacted, as will the Star-Spangled Banner National Historic 
Trail and the NPS partners that make up the Chesapeake Bay Gateways and 
Watertrails Network.
    Among the greatest areas of uncertainty for future scenarios of the 
natural environment of Assateague Island National Seashore is frequency 
and intensity of storm surges and the rate at which sea level rise is 
occurring. Whether storms become more frequent is less well understood. 
Should storms become more frequent, it is expected that erosional 
processes associated with storm events would challenge the system's 
ability to ``keep pace'' and it may not recover as well as the current 
dynamics allow. Hence, the dune system may become less stable under 
climate change projections that project more storms. Driven by 
increasing rates of sea level rise, more intense and possibly more 
frequent storms, the island is subject to an increased likelihood for 
erosion, overwash, inlet breaching, shoreline retreat, and island 
narrowing. This could in turn impact the spawning habitat for blue 
crabs and migratory overwintering sites for shorebirds and marine 
mammals such as right whales. Should the highest rates of projected sea 
level rise occur, the island may exceed stability thresholds, resulting 
in rapid migration landward, segmentation, and possibly disintegration.
    Significant loss of salt marsh will decrease primary productivity 
and reduce habitat availability for both terrestrial and aquatic 
species; some of which are important to regional commercial fisheries. 
Habitat diversity is expected to decrease with a trend towards plant 
species and communities able to tolerate greater and more frequent 
disturbances from stressors such as sediment movement and saltwater 
inundation. Those community types requiring more stable conditions, 
such as the island's maritime forests, are likely to decline.
    The effects of climate change could threaten to challenge the 
ability of the NPS to provide recreational access and opportunities for 
Assateague's visitors in traditional ways, too. Rapid rates of shore 
retreat and storm driven overwash will make fixed location 
infrastructure such as roads, parking lots and visitor-use facilities 
increasingly more difficult and costly to maintain. Some adaptive 
measures currently being demonstrated at Assateague include low-impact 
road and parking lot construction techniques and mobile visitor-use 
facilities that can be easily removed from harm's way prior to storms.
    Colonial National Historical Park includes two of the nation's most 
significant historic sites, Historic Jamestowne and Yorktown 
Battlefield, as well as the Colonial Parkway. They are located on the 
James and York Rivers, tributaries of the Chesapeake Bay. Over the 
years, damage from rising sea levels, erosion, and an increase in 
violent storms have done extensive damage to buildings such as the 
park's visitor center, bridges on the tour roads, roadways and 
archeological sites along the routes, campsites and historic buildings 
(Moore House). For example, the storm surge associated with Hurricane 
Isabel caused extensive damage to the collection at the visitor center, 
requiring $3.5 million to recover, stabilize and preserve the 
artifacts. Wind-driven wave forces also cause moderate to severe 
shoreline erosion, as does boat traffic and rising sea levels.
    As discussed above, parks are already experiencing some dramatic 
impacts that may be the result of a changing climate. While some 
impacts are already measurable, the long-range effects of climate 
disruption on park natural and cultural resources, infrastructure, and 
visitor experience are just beginning to be understood.
Executive Order: Chesapeake Bay Protection and Restoration and 
        Departmental Initiatives
    On May 12, 2009, President Barack Obama signed Executive Order 
13508, launching a ``new era'' of shared federal leadership and action 
to protect and restore the Chesapeake Bay. The order pronounces that 
the Bay is a ``national treasure'' and calls for the development of a 
Federal Leadership Committee, made up of relevant agencies including 
the Department of the Interior and led by the U.S. Environmental 
Protection Agency. The Committee is to manage the development of a new 
strategy to restore the Bay, assigning specific tasks to each of the 
major federal agencies involved and to coordinate restoration 
activities, including data management and reporting. The Executive 
Order specifically calls on the Committee to ``assess the impacts of a 
changing climate on the Chesapeake Bay and develop a strategy for 
adapting natural resource programs and public infrastructure to the 
impacts of a changing climate on water quality and living resources of 
the Chesapeake Bay watershed.'' The Department of the Interior and the 
Department of Commerce share the lead on this task and will provide a 
report and recommendations to the President addressing it by the end of 
the summer.
    The Department of the Interior, through its bureaus, is a national 
leader in climate science and in developing a framework for effectively 
addressing the impacts of climate change on all of our trust resources, 
including those in the Chesapeake Bay watershed. The U.S. Geological 
Survey has expertise in geological, hydrological, and biological 
science that is needed to better understand the impacts related to 
climate change. Relying on data and information from the U.S. 
Geological Survey and their own research and monitoring data, the U.S. 
Fish and Wildlife Service and the National Park Service can identify 
and test potential adaptation and management strategies for managing 
our natural resources and vital ecosystems in the face of these 
changes. Research and monitoring in all three bureaus provides data and 
information that guides the Department's land management decisions and 
local and regional adaption strategies to address climate impacts in 
the Chesapeake Bay watershed.
    To effectively respond to the Executive Order, the Department is:
    <bullet>  Continuing research on relative sea-level rise, long-term 
changes in climate, and near-term changes in land use on the Bay 
estuary and National Wildlife Refuges and other DOI land and water 
resources.
    <bullet>  Beginning study of the impacts of climate change on 
streamflow in the Bay watershed and potential changes in nutrient and 
sediment loads to the Bay.
    <bullet>  Identifying additional opportunities to address the 
impacts of climate change on fish and wildlife populations and their 
habitats, and establishing associated monitoring programs, through the 
National Climate Change and Wildlife Science Center and through 
implementation of the USGS Climate Effects Network.
    <bullet>  Conducting research with U.S. Forest Service and other 
partners on the potential changes in forest conditions and their 
ability to provide water quality and habitat benefits.
    <bullet>  Conducting these activities based on the strong 
foundation of existing USGS research and monitoring in the Bay and its 
watershed.
    <bullet>  Continuing to work closely with the U.S. Environmental 
Protection Agency through the Chesapeake Bay Program.
    The USGS has provided critical projections of the impacts of sea-
level rise on vital marshes in the Blackwater National Wildlife Refuge 
(BNWR). The rate of sea-level rise is predicted to increase two- to 
four-fold during the next century in the Bay region. To determine what 
impact this sea-level change would have on wetland resources, and to 
improve land-use planning within the immediate vicinity of the BNWR for 
the next century, USGS scientists developed a digital elevation model 
(DEM) showing BNWR land surfaces data collected in March 2002 (Larsen 
et. al., 2004). DEM simulations using current sea-level rise rates 
reveal that high marsh will convert to low marsh and low marsh will 
continue to convert to open water for the next century, assuming 2002 
surface elevations remain unchanged. Marsh loss rates will be higher, 
and the area impacted greater, for predicted future rates of sea-level 
rise. The Service has used these results to plan wetland mitigation 
projects.
    The USGS has demonstrated that rapid climatic and sea-level change 
influences water quality, temperature, and biota in the Chesapeake Bay. 
Research by USGS scientists and colleagues has focused on 
reconstruction of dissolved oxygen trends in the Chesapeake Bay during 
the past 2,500 years (Cronin and Vann, 2003; Willard and others, 2003). 
Data gathered from this study, together with earlier research, clearly 
indicate much more severe and extensive zones of oxygen depletion in 
the Chesapeake Bay and its tributaries during the past four decades 
than at any time in the past 500-2,500 years. The findings were used to 
help set new dissolved oxygen standards for the Chesapeake Bay.
    The Fish and Wildlife Service has a long and distinguished history 
of supporting Service trust species and their habitats in the 
Chesapeake Bay. These trust species include threatened and endangered 
species, interjurisdictional fish, and migratory birds. In Fiscal Year 
2007, 27 Service offices spent over $11 million contributing to the 
conservation and management of these trust species and their habitats. 
Service offices have worked collectively to: (1) Identify 11 priority 
fish and wildlife species, ranging from oysters and blue crabs to 
striped bass, black ducks, bog turtles and Delmarva fox squirrel; (2) 
identify priority habitats; and (3) in cases where the science is 
available, set species population goals necessary to achieve 
sustainable biological outcomes. The Service is now well positioned, 
through improved governance, shared performance measures for priority 
species, and shared performance measures for habitat conservation on 
and off Service lands, to contribute effectively to the goals and 
objectives of the Executive Order.
    Because sea level rise is an immediate threat to our coastal 
resources, including the fish and wildlife in the Chesapeake Bay, the 
U.S. Fish and Wildlife Service is applying a model to help us plan for 
the future and communicate directly with the public about the impacts 
of sea level rise. The Sea Level Affecting Marshes Model (SLAMM)-View 
is a web-based application that displays map pairs of an area, each 
depicting different sea levels. The strength of this tool is its 
ability to visually show the modeling of sea level rise predictions, 
allowing people to see the impacts in a more intuitive way. SLAMM is 
guiding long-range habitat management planning in the Chesapeake 
Marshlands National Wildlife Refuge Complex. The model helps managers 
determine where to protect uplands and to restore wetlands for the fish 
and wildlife protected on these coastal areas.
    The Service's approach to addressing climate change focuses on 
monitoring, modeling, and addressing habitat and species populations 
changes at the landscape level, with conservation and management 
strategies that take into account inputs from landscapes that support 
native species. Considered as a whole, these actions--under the broad 
categories of adaptation, mitigation, and education and communication--
will allow the Service to address the most pressing near-term climate 
change challenges to fish and wildlife. At the same time, these steps 
will help us lay a strong foundation for the Service's long-term 
response to climate change. These actions include: (1) increasing 
regional climate science and monitoring expertise, (2) acquiring 
biological planning and conservation design expertise, (3) conducting 
species and habitat vulnerability assessments, and (4) incorporating 
consideration of climate change and its impacts into all Service 
activities and decisions.
    The Service is also working closely with a range of partners, 
including NOAA, the U.S. Forest Service and other federal agencies, 
state fish and wildlife agencies, local governments, academia, 
nonprofit conservation groups and other private stakeholders to help 
biologists and managers understand, model, and effectively address both 
the short and long-term impacts of climate change on fish and wildlife 
resources. The Service is developing Landscape Conservation 
Cooperatives, for instance, which will serve as regional hubs for 
collecting and disseminating relevant information to support responsive 
conservation and identifying priority research within the region. The 
Service's landscape conservation approach to anticipating and 
addressing the impacts of climate change on fish and wildlife will be 
applied to the Chesapeake Bay region and will be integrated into the 
agency's planning, programs and activities toward Chesapeake Bay 
restoration.
    Addressing climate change and its impacts on fish and wildlife is a 
priority for the Service. Consequently, the Service plans to deploy its 
resources, creativity, and energy in a long-term campaign to reduce the 
bureau's emissions of greenhouse gases and safeguard the fish and 
wildlife, and their habitats, over which it has management 
responsibility.
    The NPS has hired a full-time climate change coordinator, 
established a service-wide steering committee, and is developing a 
comprehensive framework for a strategic response to global climate 
change. The response includes the development of a service-wide climate 
change response office, implementation of additional climate change 
monitoring, and development and implementation of bio-regional 
adaptation units and strategies. Vulnerability studies related to sea 
level rise and scenario planning are underway in pilot parks across the 
country and adaptation projects are being formulated to build 
resilience in park ecosystems. In addition, the NPS has begun a 
strategic communication effort to make park staff and the public aware 
of the possible impacts to park resources by climate change.
    As a major element of NPS response, scenario planning is currently 
being developed for use as a long-range planning tool for incorporating 
climate change into a range of park management processes and documents, 
including General Management Plans, Adaptation Plans, and Resource 
Stewardship Strategies. Scenario planning offers a tool for developing 
a science-based decision-making framework in the face of an uncertain 
future. Climate change scenario planning involves exploring qualitative 
as well as quantitative models in order to envision future outcomes 
under a variety of different decisions, policies, or societal pathways. 
In this way, park managers are able to evaluate potential management 
actions and implement those actions that will be most effective in 
protecting cultural resources and facilities and enhancing ecosystem 
resilience into the future.
Conclusion
    There is a growing consensus that changes in the natural and human 
systems related to the effects of climate change must be better 
understood, monitored, and forecast so that all of the nation's 
resources can be effectively managed and protected. The Department is 
in an important position to evaluate and develop proactive strategies 
for the impacts that we are observing and cataloging on the natural, 
historical, and cultural resources in the Chesapeake Bay and its 
watershed. We look forward to working with you to better understand and 
mitigate these impacts.
    Thank you for the opportunity to testify before you today. I would 
be happy to answer any questions that you or the committee members 
might have.
References:
Cronin, T.M., and Vann, C.D., 2003, The sedimentary record of climatic 
        and anthropogenic influence on the Patuxent estuary and 
        Chesapeake Bay ecosystems: Estuaries, v. 26, no.2, p. 196-209.
Cronin, T., Willard, D., Karlsen, A., Ishman, S., Verardo, S., 
        McGeehin, J., Kerhin, R., Holmes, C., Colman, S., and 
        Zimmerman, A., 2000, Climatic variability in the eastern United 
        States over the past millennium from Chesapeake Bay sediments: 
        Geology, v. 28, no. 1, p. 3-6.
Larsen, C., Clark, I., Guntenspergen, G.R., Cahoon, D.R., Caruso, V., 
        Hupp, C., and Yanosky, T., 2004, The Blackwater NWR inundation 
        model. Rising sea level on a low-lying coast: Land use planning 
        for wetlands: U.S. Geological Survey Open File Report 04-1302,
Phillips, S.W., Ed, 2007, Synthesis of U.S. Geological Survey science 
        for the Chesapeake Bay ecosystem and implications for 
        environmental management: U.S. Geological Survey Circular 1316, 
        63p.
Pyke, C. R., R. G. Najjar, M. B. Adams, D. Breitburg, M. Kemp, C. 
        Hershner, R. Howarth, M. Mulholland, M. Paolisso, D. Secor, K. 
        Sellner, D. Wardrop, and R. Wood. 2008. Climate Change and the 
        Chesapeake Bay: State-of-the-Science Review and 
        Recommendations. A Report from the Chesapeake Bay Program 
        Science and Technical Advisory Committee (STAC), Annapolis, MD. 
        59 pp.
USFWS, 2006, Chesapeake Marshlands National Wildlife Refuge Complex 
        Comprehensive Plan, 192
Willard, D.A., Cronin, T.M., and Verardo, S., 2003, Late-Holocene 
        climate and ecosystem history from Chesapeake Bay sediment 
        cores, USA: The Holocene, v. 13, no. 2, p. 201-214.
                                 ______
                                 
    Mr. Grijalva. Thank you very much, sir.
    Let me now ask Dr. Robert Wood, Director of the Cooperative 
Oxford Laboratory for your comments, sir.

          STATEMENT OF ROBERT WOOD, PH.D., DIRECTOR, 
               NOAA COOPERATIVE OXFORD LABORATORY

    Dr. Wood. Good morning, Chairman Grijalva, Chairwoman 
Bordallo, Mr. Sarbanes and Mr. Kratovil. Thank you for inviting 
me to testify before you today. I'm Robert Wood, Director of 
the Cooperative Oxford Lab. This NOAA administered lab brings 
together the combined missions and resources of the Maryland 
Department of Natural Resources, NOAA, and the U.S. Coast Guard 
in assessing the trends and factors affecting the ecosystem 
health of the Chesapeake Bay.
    I also recently served as co-author of the Chesapeake Bay 
Program Scientific and Technical Advisory Committee reported 
entitled, ``Climate Change and the Chesapeake Bay: State-of-
the-Science Review and Recommendations.'' Many of the points I 
will make in this testimony are covered in greater detail both 
in that report and in my written testimony which I have 
submitted for the record.
    Change in the global climate will have significant 
ramifications for the Bay's regional climate and will in turn 
affect the Bay's organisms, their habitats and, therefore, 
valuable ecosystem services the Bay provides to its coastal 
communities and to the nation.
    However, we cannot provide a detailed forecast for when or 
exactly how the Bay may change. There are three primary reasons 
for this. First, there are uncertainties exactly how the Bay's 
regional climate will respond to global climate changes. 
Second, our knowledge of the Bay's ecosystem dynamics is 
incomplete. Third, the net effect of future climate change on 
ecosystems will depend on upon how humans prepare for, mitigate 
and respond to these changes.
    Despite these challenges, it is critically important to use 
the best available science to answer the question of what are 
some important changes that might occur to alter the Chesapeake 
Bay and affect its coastal communities. Although global climate 
models are relatively close in agreement, differences emerge 
when comparing their forecast at smaller regional scales. This 
impacts our ability to precisely predict how the Bay's climate 
will change.
    However, climate change models agree that atmosphere, 
carbon dioxide, temperature, and sea level will increase over 
time. Further, climate models suggest winter and spring stream 
flow, summertime heat waves, and precipitation intensity are 
all likely to increase in the future. It should be noted that 
relative sea level rise and rise of the Bay water has already 
been well documented.
    Ecosystem models predict that future climate changes will 
likely alter the biogeochemistry of the Bay through changes in 
nutrient, sediment, and salinity levels. Because the Chesapeake 
Bay currently straddles the boundaries of temperate and 
subtropical climate boundaries, it is currently subject to 
pronounced climate variability. Therefore, it is true that 
native Bay plants and animals here have already developed 
strategies to cope with strong fluctuations and temperature.
    However, over time warming, higher sea level and changes in 
salinity and circulation, especially if they occur rapidly, are 
expected to exceed the capability of some Bay organisms to 
adjust. Such changes would have far-reaching effects on a wide 
variety of important processes, organisms, and habitats through 
the Bay ecosystem.
    While the exact response of the Bay to future climate 
change remains unresolved, some changes are more likely than 
others. Nine likely changes include:
    (1)  A rise in sea level increasing the likelihood of 
coastal flooding, submergence of estuarine wetlands, and 
shoreline erosion.
    (2)  An increase of harmful algal blooms.
    (3)  Larger, more prevalent low-oxygen zones, also known as 
dead zones, limiting the available habitat for many important 
Bay species like oysters and striped bass.
    (4)  Reduced prevalence of eelgrass, the dominant submerged 
aquatic vegetation in the Bay and also an important habitat for 
the living resources in the Bay.
    (5)  Changes in the shifts in the seasonal timing of 
migration and reproduction.
    (6)  Food web shifts.
    (7)  Perhaps an increase in invasive species because the 
warming will likely also alter the relative abundance of 
individual fish and shellfish species in the Bay which, in 
turn, could alter predator-prey dynamics.
    (8)  Increase in invasive species could also occur because 
changes in the Bay salinity and temperature are likely to 
enhance the probability that species not currently found in the 
Bay may gain a foothold.
    (9)  And an increase in disease is possible because 
increased runoff, increased nutrient loading events and warming 
together are likely to increase exposure of humans, fish, and 
shellfish to disease-causing micro-organisms in the Bay.
    This testimony has focused on changes that scientists have 
the most confidence in projecting. However, our insights are 
limited by our current understanding of the processes that 
shape the contemporary Bay. It is entirely possible the changes 
in climate may lead to changes in ecosystem dynamics that we 
cannot now predict.
    Given the potential alterations of the Bay ecosystem there 
is great need for enhanced ecosystem research and observation. 
Further, because human response to these changes will help 
determine their overall impacts on the ecosystem and its 
coastal communities, it is imperative to identify changes in 
human behavior both within the watershed and on the water that 
will help restore a resilient Chesapeake Bay and protect the 
surrounding community. Thank you.
    [The prepared statement of Dr. Wood follows:]

  Statement of Dr. Robert J. Wood, Director of the Cooperative Oxford 
 Laboratory, National Ocean Service, National Oceanic and Atmospheric 
              Administration, U.S. Department of Commerce

INTRODUCTION
    Good morning, Chairwoman Bordallo and members of the Committee. I 
am Robert Wood, Director of the Cooperative Oxford Laboratory, a 
cooperative scientific research laboratory, administered by the 
National Oceanic and Atmospheric Administration (NOAA). The Cooperative 
Oxford Laboratory brings together the combined missions and resources 
of the Maryland Department of Natural Resources, NOAA, and the U.S. 
Coast Guard in assessing the trends and factors affecting the ecosystem 
health of Chesapeake Bay. I also recently served as a co-author on the 
Chesapeake Bay Program's Scientific and Technical Advisory Committee 
report entitled, Climate Change and the Chesapeake Bay: State-of-the-
Science Review and Recommendations. Many of the points I will make in 
this testimony are covered in greater detail in that report, and I have 
submitted a copy of that report with my testimony for the record.
    Thank you for inviting me to testify on the consequences of climate 
change for the Chesapeake Bay. I will provide background on the topic, 
address some potential consequences of climate change within the Bay, 
and discuss current and upcoming federal government action.
LOCAL-SCALE CLIMATE CHANGE IN CHESAPEAKE BAY
    By the end of this century, based on a range of carbon dioxide 
(CO<INF>2</INF>) emissions scenarios, global carbon CO<INF>2</INF> 
concentrations will be 50 to 160 percent higher than they are today. 
CO<INF>2</INF> is one of a number of ``radiatively active'' (a.k.a. 
``greenhouse'') atmospheric gases (methane, for example is another) 
that traps heat within the earth's atmosphere. Accordingly, there is 
scientific consensus that the trend in increasing atmospheric 
CO<INF>2</INF> will warm the planet, influence global atmospheric and 
oceanic circulation, and alter the hydrological cycle (evaporation, 
precipitation, river flow, and related processes). These changes in the 
global climate will have ramifications for the Bay's regional climate 
and will, in turn, affect the Bay's organisms, their habitats, and 
therefore, the valuable and important ecosystem services that the Bay 
provides to coastal communities and the nation as a whole. However, we 
cannot provide a detailed forecast for when and exactly how the Bay may 
change. There are uncertainties in exactly how the Bay's regional 
climate will respond to global changes. In addition, the net effect of 
future climate change scenarios will depend upon how humans prepare for 
and respond to these changes, as well as how organisms respond.
CHANGES THAT MAY OCCUR
    In order to prepare for changes in organisms, habitats and 
services, it is first important to understand how the Bay is likely to 
change in order to determine how those resources are likely to respond. 
Scientists typically approach this problem by linking studies of how 
the Bay's ecosystem (including humans) has responded to historic and 
contemporary climate variability and change, including sea level rise. 
Often this means that scientists use coupled atmosphere-ocean models to 
provide a projection of future climate conditions. Using a variety of 
methods, scientists translate these projections into potential changes 
that may occur within the waters and watershed of the Bay. Then, using 
specialized studies that focus on critical physical, chemical, and 
biological processes, scientists can evaluate how these changes may 
relate to the Bay's ability to sustainably deliver ecosystem goods and 
services, including safe recreational opportunities, productive 
fisheries, and safe commercial navigation.
What are some important changes that might occur to alter Chesapeake 
        Bay and affect its coastal communities?
Projected Climate Changes
    Although the climate models typically used to project future global 
climate change scenarios are in relatively close agreement, differences 
emerge when comparing their forecasts at smaller, regional scales. Our 
inability to precisely predict how the Bay's climate will change is 
impacted by differences in the projections of these models for the 
Chesapeake Bay region, especially with respect to storminess, 
precipitation, and streamflow. However, it seems likely that winter and 
spring streamflow will increase, and that summertime heat waves and 
precipitation intensity are likely to increase. The models also agree 
that atmospheric CO<INF>2</INF>, water temperature and sea level will 
all increase over time. In fact, long term relative sea level rise and 
warming of Bay waters has already been well documented.
Likely Ecosystem Responses
    Being a coastal estuary, the Bay's ecosystem is fundamentally 
shaped by the dynamic mixing of freshwater river flow and runoff from 
its watershed with oceanic waters. This means that plants, animals, 
sediments, and contaminants carried within these two differing sources 
of water also mix. Because the Chesapeake is a shallow estuary, its 
volume is relatively small compared to the volume of freshwater that 
enters the Bay as runoff from its large watershed. Accordingly, the 
Chesapeake is highly responsive to changes in precipitation and 
temperature.
    Model projections predict climate changes will likely alter the 
biogeochemistry of the Bay through changes in nutrient, sediment, and 
salinity levels. Because the Chesapeake Bay currently straddles the 
boundaries of temperate mid-latitude and sub-tropical climate 
boundaries, it is currently subject to pronounced climate variability. 
As such, the plants and animals that occupy the Bay have already 
developed some strategies to cope with an environment that is subject 
to large changes in salinity and temperature. Therefore, determining 
exactly when changes will exceed what we have come to accept as 
``natural variability'' of the Bay is difficult. However, over time, 
warming, higher sea level, and changes in salinity and circulation are 
expected to have far-reaching impacts on a wide variety of important 
processes, organisms, and habitats throughout the Bay ecosystem, 
including erosion rates, phytoplankton, submerged aquatic vegetation, 
wetlands, bacteria, zooplankton, fish, and shellfish.
    While the exact response of the Bay ecosystem to future climate 
changes remains unresolved, some changes are more likely than others. 
Likely changes include:
    (1)  Sea Level Rise--sea level within the Bay will rise (and its 
variability will increase), thereby increasing the likelihood of 
coastal flooding, submergence of estuarine wetlands, and shoreline 
erosion;
    (2)  Harmful algal blooms--warming and higher levels of atmospheric 
CO<INF>2</INF> are conditions that are favored by algae species that 
are harmful for humans, fish, and shellfish;
    (3)  Dead zones--warming and increased winter-spring stream flow 
will reduce the amount of dissolved oxygen in the Bay, limiting the 
available habitat for many important Bay species like oysters and 
striped bass;
    (4)  Seagrasses--warming will reduce the prevalence of eelgrass, 
the dominant submerged aquatic vegetation in the Bay;
    (5)  Shifts in Species Ranges--warming would likely shift the range 
of species in the Bay, favoring expanding ranges and abundances of 
plants and animals that are able to tolerate warmer temperatures. For 
species whose southernmost distribution limits occur within the 
Chesapeake, like the soft clam Mya arenaria, warming waters could 
dramatically reduce their occurrence or eliminate their presence from 
the Bay;
    (6)  Changes in the seasonal timing of migration and reproduction--
warming will influence the growth rate, age of sexual maturity, and 
timing of spawning for many Bay organisms. Production of some species, 
especially spring spawning fish and shellfish could be inhibited by 
resulting mismatches that could occur between the age-sensitive dietary 
needs of developing fish and shellfish and the abundance of their prey;
    (7)  Food Web Shifts--warming will likely alter the relative 
abundance of fish and shellfish species in the Bay, which, in turn, 
could lead to large shifts in the Bay's overall food web as predator 
and prey dynamics shift;
    (8)  Invasive Species--changes in Bay salinity and temperature are 
likely to enhance the probability that invasive species may gain a 
foothold within the Bay (because some species will be able to expand 
their range, see (5)) and further disturb the ecosystem; and
    (9)  Diseases--warming and increased nutrient loading events are 
likely to increase the abundance of pathogenic bacteria capable of 
causing disease in fish, shellfish, and humans.
So What does this all mean? The Striped Bass Example
    Although charting the course of the Chesapeake's response to future 
climate changes is difficult, we can better resolve the question at 
hand by simply asking, how are the most probable effects of climate 
change likely to affect key Bay species? The striped bass is one of the 
most ecologically and economically important species of the Bay and 
coastal area. To illustrate, let us analyze the potential effects on 
this particular species.
    Striped bass spawn each spring in the upper tidal reaches of the 
Bay and its tributaries. Young striped bass depend upon the shallow 
shoreline areas for shelter and access to abundant prey. As sea levels 
rise, shoreline residents are likely to take protective measures to 
save their land from erosion. Armoring shorelines with sea walls and 
similar structures would replace valuable marshland habitats with an 
unvegetated stony shoreline that is unlikely to offer the necessary 
resources for the fish.
    As sea levels rise, it is also likely that late winter and early 
spring conditions will be wetter and warmer. It has been established 
that cool, high flow conditions are associated with years of high 
striped bass production. While river flow is likely to be enhanced, 
warm conditions could cause shifts in the zooplankton community, 
thereby depriving the young fish of their preferred zooplankton prey 
species. In addition, the occurrence of large blooms of algae that may 
be inedible or even harmful to striped bass could further compromise 
production of these fish.
    Warmer conditions could also cause disruptive shifts to occur in 
the Bay food web. In the past, striped bass spawning has occurred 
around the same time as the spring phytoplankton bloom. If the spring 
bloom does not occur at the same time spawning occurs, due to these 
climate changes, the traditional food of very young striped bass may 
not be available in the appropriate amount. Reduced food availability 
at early life stages would be expected to dramatically affect survival 
of these young fish and therefore could reduce striped bass production 
and abundance in the Bay.
    In the main stem and lower tributaries of the Bay, important 
habitat for larger juvenile and adult striped bass is also likely to be 
reduced. As warmer, nutrient rich, turbid waters reduce seagrasses due 
the combined effects of shading and physiological stress, juvenile and 
adult striped bass will lose valuable foraging habitat. Seagrass beds 
are very productive habitats for juvenile blue crabs and small forage 
fish.
    With warm and wet springtime conditions, phytoplankton may reach 
such high levels that many of the organisms could sink into deep waters 
before they could be eaten by other organisms. In the deeper waters in 
the main stem of the Bay, this mass of phytoplankton would be consumed 
by bacteria, and as a result, oxygen in these deep waters would be 
consumed faster than it could be replenished. The resulting low-oxygen 
zones (or dead zones) created would prevent juvenile and adult striped 
bass from occupying these areas. With these same projected climate 
changes, the Bay's surface waters could become too warm to allow for 
effective foraging by striped bass on important surface-feeding prey 
like Atlantic menhaden. This combination of warm surface waters and low 
oxygen deep waters would create a ``habitat squeeze'' that could force 
striped bass into a relatively narrow depth zone where prey may not be 
readily available. Another threat could emerge as these fish, stressed 
by prolonged periods of warm, low oxygen waters, may also be exposed to 
an increased abundance of pathogenic bacteria, which would likely cause 
disease to increase in the Bay's striped bass population.
    Unfortunately, the processes and pressures described above are 
already observable in today's Bay. Relative sea level rise (including 
land subsidence) and population growth over past decades has 
accelerated the development of sea walls and other hardened shorelines 
and has eliminated some of the Bay's productive shoreline habitats. In 
addition, land use practices and development have led to enhanced 
runoff and nutrient enriched waters, especially in years when the 
weather is warm and wet. Climate changes, especially if coupled with 
human responses that may exacerbate, rather than mitigate, stress on 
the ecosystem may lead to an undesirable ``drift'' in the average 
conditions in the Bay so that, for example, years of high stress on the 
striped bass, which now occur intermittently, could become the average 
condition in future years.
NOAA's Role in Assessing and Adapting to Climate Change
    NOAA, through development and delivery of climate information and 
services, implementation of a global observing system, and focused 
research and modeling to understand key climate processes, works to 
help society understand, plan for, and respond to climate variability 
and change. The NOAA climate mission is an end-to-end endeavor focused 
on providing a predictive understanding of the global climate system to 
allow the public to incorporate the information and products into their 
decision-making. Across the agency, scientists and technical experts 
are assisting local communities in studying, predicting, and responding 
to these potential changes. Just this month, the U.S. Global Change 
Research Program, which NOAA is a part of, released a new report titled 
Global Climate Change Impacts in the United States, which addresses the 
broad impacts of climate change in the U.S. and in regions such as the 
Chesapeake Bay.
    NOAA and partners work to restore the natural buffers (e.g., near-
shore oyster reefs and seagrass beds) that reduce wave damage and 
protect coastal property from erosion. Protection and restoration of 
these coastal resources can help protect coastal communities against 
the onslaught of coastal hazards, sea level rise, and other effects of 
climate change, and will enhance the ecosystem's resilience. NOAA also 
works with communities to restore eroding shorelines with natural 
vegetation rather than sea walls and other hardened shorelines which 
present barriers to the migration of habitat inland as sea level rises.
    NOAA has a wide range of programs and tools to assist localities in 
planning for climate change. NOAA Sea Grant engages a network of the 
Chesapeake Bay area's top universities in conducting scientific 
research, education, training and extension projects designed to foster 
science-based decisions about the use and conservation of aquatic 
resources. Sea Grant's extension and education activities help inform 
policy, law and regulation, and management practices for industry and 
government agencies. The Chesapeake Inundation Prediction System can 
predict street-level inundation from coastal storms and sea level rise 
to assist local planners. NOAA's Chesapeake Network for Educating 
Municipal Officials helps communities to foster well-planned growth, 
preserve water quality, and protect natural areas in the Chesapeake 
watershed. Chesapeake Bay National Estuarine Research Reserve System's 
Coastal Training Program links local planners with new tools and 
available expertise. Through a series of workshops, planners and other 
officials are invited to participate in forums such as how to plan for 
climate change impacts, and adaptation and shoreline management.
Executive Order 13508, Chesapeake Bay Protection and Restoration
    On May 12, 2009, President Obama issued Executive Order (EO) 13508, 
Chesapeake Bay Protection and Restoration, calling for a greater 
federal role and accountability for Bay protection and restoration. The 
EO requires seven reports to be completed within 120 days (i.e., by 
September 15, 2009) and a coordinated federal strategy to be 
disseminated for public review at 180 days (i.e., by November 13, 
2009). NOAA is helping to co-lead the production of 3 of these 7 
reports with our interagency partners.
    As part of the reports on climate change, the EO requires agencies 
to ``develop a strategy for adapting--to the impacts of a changing 
climate on water quality and living resources of the Chesapeake Bay 
watershed.'' Efforts to address these changes will be integrated into 
all of the reports called for in the EO, as well as the overarching 
federal strategy for the protection and restoration of the Chesapeake 
Bay. The reports will build on existing capabilities and planning 
efforts, such as those related to the impacts of sea level rise and 
storm surge on coastal communities, predictive modeling of inundation 
and sea level rise, community resilience assessments and adaptive 
strategies, research on the impacts of climate change on living 
resources, and development of innovative practical applications (such 
as living shorelines) to protect coastal communities and resources.
CONCLUSION
    This testimony has focused on those changes that scientists have 
the most confidence in projecting. However, it is important to note 
that our insights are limited by our current understanding of the 
processes that shape the contemporary Bay, under contemporary or 
historic climatic conditions. Even if we were blessed with a perfect 
understanding of today's Bay, it is entirely possible that changes in 
climate may lead to changes in ecosystem dynamics that we cannot 
predict.
    Given the looming specter of climate change-induced alterations of 
the Bay ecosystem, there is great need for enhanced ecosystem research 
and observation designed to identify and better predict the nature and 
magnitude of these changes. Further, because the human response to 
these changes will help determine their overall impact on the ecosystem 
and its coastal communities, it is also imperative to identify changes 
in human behavior, both within the watershed and on the water, that 
will help restore a resilient Chesapeake Bay and protect the 
surrounding communities.
                                 ______
                                 
    Mr. Grijalva. Thank you.
    Let me now introduce The Honorable Michael Bojokles, Mayor, 
Town of North Beach.
    Mr. Mayor, your comments.

         STATEMENT OF THE HONORABLE MICHAEL BOJOKLES, 
                   MAYOR, TOWN OF NORTH BEACH

    Mr. Bojokles. Good morning and thank you for this 
opportunity.
    My name is Michael Bojokles, Mayor of the Town of North 
Beach. We are about 20 miles south of where we sit today. The 
Chesapeake Bay is North America's largest estuary with over 
11,000 miles of shoreline and its watershed encompassing six 
states and Washington, D.C. It is a national treasure that 
belongs to each and every one of us.
    North Beach is a small municipality located on the Western 
shore of the Chesapeake Bay in Southern Maryland. With a 
population of 2,000 we are less than an hour away from Capitol 
Hill. We take pride in our stewardship of the Bay and work very 
hard in managing our water front. Along with a small public 
beach we also enjoy a 535 foot fishing pier and a half mile-
long boardwalk that runs the length of town. We are also doing 
our part to improve water quality within the Bay watershed by 
growing oysters underneath our fishing pier. Once mature the 
oysters are then transported to reefs in rivers throughout 
Southern Maryland.
    There are only a few remaining public beaches along the 
entire shore of the Chesapeake Bay and we are one of them. 
Public access is very important as many of the access points 
along the Bay have disappeared or are private. Keeping North 
Beach public is absolutely necessary for the enjoyment of all. 
Rising sea levels along the Bay have made it quite difficult to 
preserve what little beach we have left. In the last century, 
we have lost close to 1,000 feet of shoreline. The average 
annual rate of erosion is over five feet per year and 
increasing.
    Beach erosion is causing additional problems along our 
water front. I am concerned that erosion will start to 
undermine the boardwalk superstructure and the adjoining street 
that runs along the waterfront. Private homes and businesses 
will be affected by increased incidence of flooding and 
decreasing property values.
    In 2002, North Beach--along with the Maryland Department of 
Natural Resources--constructed offshore breakwaters to help 
curb erosion along our beach. While this has helped, it has 
certainly not eliminated erosion. I estimate within a decade at 
the beach at the current rate of erosion will be gone or the 
next strong nor'easter will definitely take it away.
    With an annual budget of $2.2 million and limited resources 
North Beach cannot battle this problem alone. The economy of 
North Beach is dependent on the Bay and its natural resources. 
Incorporated in 1910 the beach created the town. A hundred 
years later we are on the verge of losing what we have. 
Tourists and dollars are the lifeblood of our local businesses.
    Breakwaters and bulkheads are not the answer. Beach 
replenishment is the only way to save our beach. We need help 
and we need it today. The annual cost of replenishment is 
between $25,00 and $50,000. This is not a large amount of money 
compared to the value of losing our beach and continuing to 
have public access to this precious natural resource.
    Again, with limited financial resources North Beach cannot 
manage this alone. We need awareness, assistance, commitment 
and cooperation from all levels of government to help us build 
a coast-smart community is our goal moving into the next decade 
and beyond.
    One area that needs to be researched and discussed is that, 
with today's environmental controls, being stewards of our 
waterfront is extremely prohibitive. I currently have an 
administrative staff of three people and could easily create a 
full-time job for someone just to travel through the maze of 
bureaucracy. Being an elected official, I am accountable for 
what I do and I do not do.
    There are times when accountability does not exist with 
those who are in charge of this process. At this time we are in 
need of five different permits to do work along our waterfront. 
This would include beach replenishment, storm water out-fall 
maintenance, breakwater stabilization and rehabilitation, boat 
slip dredging and tidal tributary maintenance. An additional 
project that goes along with tidal tributary maintenance is 
wetland restoration.
    We have a tidal tributary at the north end of town that is 
the only source of tidal flushing for a 440-acre wetland.
    The tributary silts in with sand which prevents tidal 
flushing of the wetland causing a slow death of a crucial 
environmental gem. The town's public works department has been 
cleaning this channel since the mid-1980s as regular 
maintenance. Now permits are needed for offsite disposal. A 
common sense approach is needed for some of these maintenance 
items.
    The process is daunting for us. Working with the different 
agencies can sometimes be frustrating and confusing. Getting a 
status of permit applications can be impossible, no 
accountability or cooperation. This process takes so long and 
sometimes the original staff member who is assigned to help us 
has either retired or moved on and no one knows what the status 
is.
    I recommend that the process be streamlined in some way, 
either through a clearinghouse of some kind or a tracking 
system. In North Beach, we are developing our own tracking 
system for permits. When a permit applicant calls the town 
hall, we will be able to give them a status of where the permit 
is in the process, what needs to be done next, and when the 
permit will be issued.
    North Beach is the jewel of the Chesapeake and it is our 
mission to pass it on to our children and our children's 
children. It will take the effort of all of us here today to 
make this happen. We must act today. Through fiscal 
responsibility and assistance, commitment and cooperation we 
can restore our beach for all to enjoy for the decades to come. 
Thank you.
    [The prepared statement of Mr. Bojokles follows:]

          Statement of The Honorable Michael Bojokles, Mayor, 
                          Town of North Beach

    The Chesapeake Bay is North America's largest estuary with over 
11,000 miles of shoreline and its watershed encompassing six states and 
Washington DC. It is a national treasure that belongs to each and every 
one of us.
    North Beach is a small municipality located on the Western shore of 
the Chesapeake Bay in Southern Maryland. With a population of 2000, we 
are less than an hour away from Capitol Hill. We take pride in our 
stewardship of the Bay and work very hard in managing our waterfront. 
Along with a small public beach we also enjoy a 535 foot fishing pier 
and a half mile-long boardwalk that runs the length of town. We are 
also doing our part to improve water quality within the Bay Watershed 
by growing oysters in baskets underneath our fishing pier. Once mature, 
the oysters are then transported to reefs in rivers throughout Southern 
Maryland.
    There are only a few remaining public beaches along the entire 
shore of the Chesapeake Bay and North Beach is one of them. Public 
access is very important as many of the access points along the Bay 
have disappeared or are private. Keeping North Beach public is 
absolutely necessary for the enjoyment of all. Rising sea levels along 
the Bay have made it quite difficult to preserve what little beach we 
have left. Since 1847, we have lost close to 1000 feet of shoreline. 
The average annual rate of erosion is over 5 feet per year, and 
increasing.
    Beach erosion is causing additional problems along our waterfront. 
I am concerned that erosion will start to undermine the boardwalk 
superstructure and the adjoining street that runs along the waterfront. 
Private homes and businesses will be affected by increased incidences 
of flooding and decreasing property values.
    In 2002, North Beach, along with the Maryland Department of Natural 
Resources constructed off shore breakwaters to help curb erosion along 
our beach. While this has helped it has certainly not eliminated 
erosion. I estimate within a decade with the current rate of erosion we 
will lose our beach. With an annual budget of $2.2 million, and limited 
resources, North Beach, cannot battle this problem alone. The economy 
of North Beach is dependent on the bay, and its natural resources. 
Incorporated in 1910 the beach created the town. Now 100 years later, 
we are on the verge of losing what we have. Tourism dollars are the 
lifeblood of our local businesses.
    Breakwaters and bulkheads are not the answer; beach replenishment 
is the only way to save our beach. We need help, and we need it today. 
The annual cost of replenishment is between $25,000 and $50,000. This 
is not a large amount of money compared to the value of losing our 
beach and continuing to have public access to this precious natural 
resource. Again, with limited financial resources North Beach, cannot 
manage this alone. We need awareness, assistance, commitment and 
cooperation from all levels of government. Building a coast-smart 
community is our goal moving into the next decade and beyond.
    One area that needs to be researched and discussed is the 
permitting process. With today's environmental controls being stewards 
of our waterfront is extremely prohibitive. I currently have an 
administrative staff of three people and could easily create a full-
time job for someone just to travel through the maze of bureaucracy. 
Being an elected public official, I am accountable for what I do and do 
not do. There are times when accountability does not exist with those 
who are in charge of this process. At this time, we are in need of five 
different permits to do work along our waterfront. This would include 
beach replenishment, storm water outfall maintenance, breakwater 
stabilization and rehabilitation, boat slip dredging and tidal 
tributary maintenance. An additional project that goes along with tidal 
tributary maintenance is wetland restoration.
    Storm water outfall maintenance: this outfall empties out into the 
Chesapeake Bay and needs regular monthly cleaning of sand buildup to 
prevent flooding. In the past maintenance on this outfall was quite 
simple. We would take a backhoe and scoop the sand out from in front of 
the outfall and throw it onto the beach. This would take the public 
works department about an hour to do once a month. Now things are quite 
different. What used to be regular maintenance is now considered 
dredging. The sand that is taken out must be loaded onto watertight 
dump trucks and disposed of at an approved disposal site after 
obtaining a permit. This is not a common sense approach and is very 
costly to the town.
    Beach replenishment: the permit application for this work is now 
into its third year. The process to obtain this permit is taking way 
too long. The bureaucracy involved in obtaining this permit is 
frustrating. No less than seven different state and federal agencies 
must sign off on this permit application. We made this application in 
my first year in office in 2006 and I'm hoping to have it in my hands 
before my term is over four years later. In the meantime we watch as 
our beach gets thinner and thinner disappearing into the Chesapeake 
Bay.
    Tidal tributary maintenance: there is a tidal tributary at the 
north end of town that is the only source of tidal flushing for a 440 
acre wetland. This tributary silts in with sand which prevents tidal 
flushing of the wetland causing a slow death of a crucial environmental 
gem. Clearing this channel also reduces flooding of residential areas 
on the north side of town. The town's public works department has been 
cleaning this channel since the mid-1980s as regular maintenance. The 
sand that was removed was just simply put back onto the beach. Now 
permits are needed with an off-site disposal site. Again, a common 
sense approach is needed.
    Wetland restoration: a feasibility study for this project was 
started by the Army Corps of Engineers and discontinued in 2001 due to 
the lack of funding. Upon taking office in 2006, I have worked side-by-
side with our federal delegation in trying to resurrect this project. 
To date we have not been able to obtain funding to restart the 
feasibility study. This wetland is one of the few natural areas 
remaining along the shoreline near North Beach and represents critical 
aquatic habitat for 73 different species of breeding birds. This 
wetland represents one of the most substantial black duck breeding 
habitats in Calvert County and the Western shore of the Chesapeake Bay. 
This particular wetland is also amongst the largest contiguous segments 
of tidal marsh on the western shore providing the necessary acreage to 
support the breeding population of this species. The clogged drainage 
channel effectively serves as a fish blockage and limits access by 
species such as striped bass, yellow perch, summer flounder, winter 
flounder, shad, alewife and blueback herring. The whole marsh is 
experiencing degradation from many factors. This loss must be seen in 
conjunction with the overall loss of wetlands on the Chesapeake Bay, 
where, based on studies by the EPA's Chesapeake Bay Program, an 
estimated 75 percent of the bay wetlands have been lost in the past 
century. One solution to restoration that has been proposed is to 
create additional channels to allow tidal flushing at more points. If 
no action is taken to reclaim this area, the wetland will continue to 
degrade. The town of North Beach has made wetland conservation a key 
issue, and without restoration activities, the citizens of North Beach 
and the state of Maryland will be denied the positive environmental, 
educational, recreational, and economic benefits that could be realized 
by improved habitat quality. In addition, it is likely that nuisance 
flooding will continue and the wetland will slowly decrease in size and 
quality.
    As explained in the examples above the process is daunting. Working 
with the different agencies can sometimes be frustrating and confusing. 
Getting a status of permit applications can be impossible. No 
accountability or cooperation. The process takes so long that sometimes 
the original staff member who was assigned to help you has either 
retired or moved on and no one quite knows what the status is. I 
recommend that the process be streamlined in some way either through a 
clearinghouse of some kind or a tracking system. In North Beach we are 
developing our own tracking system for permits. When a permit applicant 
calls Town Hall we will be able to give them a status of where the 
permit is in the process what needs to be done next and when the permit 
will be issued.
    North Beach is the ``Jewel of the Chesapeake'' and it is our 
mission to pass it on to our children and our children's children. It 
will take the effort of all of us here today to make this happen. But 
we must act now. Through fiscal responsibility and assistance, 
commitment and cooperation we can restore our beach for all to enjoy 
for decades to come.
                                 ______
                                 
    Mr. Grijalva. Thank you, Mayor.
    Dr. Donald Boesch, President, Center for Environmental 
Science. Thank you, sir.

  STATEMENT OF DONALD F. BOESCH, PH.D., PRESIDENT, CENTER FOR 
                     ENVIRONMENTAL SCIENCE

    Dr. Boesch. Yes. Chairman Grijalva and Chairwoman Bordallo, 
it is a pleasure to be here with you and the other members of 
the Committee, our excellent Maryland Representatives on the 
Committee. I would like to talk about the effects on the 
Chesapeake Bay. A lot of it has been covered but I want to 
point you to these two very important reports from which I'll 
draw my testimony.
    First is the report that we produced last year called 
``Global Warming and the Free State,'' which is a comprehensive 
assessment of the climate change impacts on Maryland that we 
did for Governor O'Malley's Climate Change Commission, which he 
established and reported out last year.
    Just last week the White House released this report that I 
was an author for, Global Climate Change Impacts in the United 
States, which talked about impacts throughout the United 
States. As Mr. Sarbanes indicated, what we tried to do in both 
of these reports is to basically bring it home to where people 
live and care about. We talked about the kinds of impacts that 
people are experiencing now and will be experiencing into the 
future in this country. Hopefully you use these reports and I 
will use them to summarize my testimony.
    As pointed out, climate change is something not just in the 
Chesapeake Bay's future but it's here today. We have seen major 
changes already. We have seen, for example, long-term 
temperature records of Bay water of this century have shown 
that the Bay is warmed about 2+ Fahrenheit since the 1960s. 
It's a trend which seems to be continuing.
    Depending upon our emissions trajectory--what we do about 
emitting heat-trapping gases--we may see in this region an 
average air temperature increase of 5+ to 9+ Fahrenheit that 
sort of translates and affects the Bay's temperature. As 
pointed out by the previous witness, this will affect the kinds 
of organisms that will live here both in terms of the species 
that are so critically important for the Bay.
    Field grass was mentioned, a submerged grass which provides 
critical habitat for crabs and fish. It's at the southern end 
of its range and as the Bay warms it is likely to be lost from 
the Bay. As also pointed out, the warming of the Bay opens the 
door to these hitchhikers, these invasive species which come in 
on our ships. I'm sure Dr. Hines will talk about this since he 
is at the center of research on that subject.
    It is also one of this country's most sensitive regions 
with respect to sea level rise. Think of the recent centuries 
here in which Europeans have lived along the shores of the Bay 
and had relative sea level rise because the land has been 
sinking slowly, about a millimeter and a half a year. That 
caused the change of the shoreline and the landscape and loss 
of some of the islands.
    In the last century, we've seen a doubling of that rate of 
sea level rise because, of course, the ocean is warming and the 
ice is melting and building up the volume of the ocean, adding 
this human component on the impact of relative sea level rise. 
As we project that based upon the best science we have now and 
emerging science, we see a contrast that depends on what we do, 
as was pointed out.
    If we have business as usual and do not deal with the 
growth of our greenhouse gas emissions, the models suggest that 
we will actually may well experience something in excess of 
four feet of sea level rise this century in this region. If we 
actually take steps to reduce those emissions quickly, we can 
probably go back to something in the neighborhood of two feet, 
still double what we had last century but not nearly as serious 
as what we see in the future that has enormous consequences to 
our natural resources and Blackwater Refuge and all of our 
other tidal marshes that were mentioned are ery much in 
jeopardy.
    Not only that, so are the places where people live. Then 
add on top of that sea level rise and storm surge, such as we 
experienced here in Hurricane Isabel a few years ago where we 
had nine feet of storm surge. We will see, of course, that 
build up and have an even greater effect.
    The stakes are indeed very large and it requires that we 
take action in a number of respects. It needs to be factored 
into the way we manage and restore the Chesapeake Bay but, in 
addition to that, you folks needs to take action in Congress. 
In Maryland, as a result of the Governor's commission, we 
passed legislation this last session that is going to be set as 
the state goal to reducing our greenhouse gas emissions by 25 
percent by the year 2020.
    We need to do more than that and it requires several 
actions, including the legislation before you, the cap-and-
trade legislation. You must in some fashion pass it soon, 
hopefully this year, in order to make a difference not only 
within this country but internationally.
    There are many implications for the Chesapeake Bay in order 
to avoid this serious climate change. One of them is taking 
those actions quickly. The other, of course, is adapting to the 
changes that take place. We have under the commission a plan of 
action to deal with adapting the relative sea level rise but we 
need, of course, more information about how our climate is 
actually changing.
    We need to have the best observations and the best 
assessments, scientific assessments, possible to inform those 
decisions. In that regard, I am very pleased about the 
legislation that Chairwoman Bordallo has submitted on the 
National Climate Enterprise Act to create a climate change 
service headed by NOAA. It also very broadly would involve 
other Federal agencies, who not only would contribute to this 
climate information database that countries urgently need, but 
also use it in their decisionmaking. Thank you for the 
opportunity.
    [The prepared statement of Dr. Boesch follows:]

Statement of Dr. Donald F. Boesch, Professor and President, University 
   of Maryland Center for Environmental Science, Cambridge, Maryland

    Chairman Grijalva and Chairwoman Bordallo and members of the 
subcommittees, I am Donald F. Boesch and am pleased to appear before 
you today to address the impacts of climate change on the Chesapeake 
Bay, likely future effects, and what can be done to mitigate and adapt 
to these impacts.
    I have conducted or directed research on the Chesapeake Bay for 30 
years and have, specific to the topic of this hearing, been engaged in 
several relevant assessments of the impacts of climate change. Notably, 
these include: the report Global Warming and the Free State: 
Comprehensive Assessment of the Impacts of Climate Change in Maryland, 
done as a component of the Action Plan of the Maryland Commission on 
Climate Change; a National Research Council report Ecological Impacts 
of Climate Change, released earlier this year; and the report issued 
just last week by the White House, Global Climate Change Impacts in the 
United States. By the way, this last national assessment used the same 
model projection methodology that we used in the Maryland assessment. I 
am also a member of the Scientific and Technical Advisory Committee of 
the Chesapeake Bay Program which last year released the report Climate 
Change and the Chesapeake Bay. My testimony will draw on these reports. 
Finally, I should note that I am a member of National Academies 
Committee on America's Climate Choices, mandated by Congressional 
appropriations language and scheduled to release its wide-ranging 
report early next year.
A Warming Bay
    Global climate change is not just something in the Chesapeake Bay's 
future. Evidence is building that it has already resulted in changes in 
the Bay environment over the last several decades. Based on long-term 
records from the piers at the Chesapeake's two historic marine 
laboratories--extending back to 1938 at my Center's Chesapeake 
Biological Laboratory on Solomons Island, Maryland, and to 1948 at the 
Virginia Institute of Marine Science at Gloucester Point--it is clear 
that the Bay has been warming (Exhibit 1). While annual Bay water 
temperatures have varied in relation to large-scale climate cycles, 
there has been a superimposed warming trend of 2+F since the 1960s. 
This is, by the way, consistent with the observed increases in air 
temperature over much of the Bay region during that same time period.
    Because of the close connection of monthly average air temperature 
and the temperature of Bay waters, the models used to project future 
climate conditions as a function of increasing greenhouse gases provide 
some insight into further changes in temperature in the Bay. Depending 
on the emission scenarios, these models suggest a 5 to 9+F increase in 
annual mean temperature by the end of this century. These increases in 
air temperature may be modulated somewhat as water temperatures 
respond, but even if we act today to dramatically reduce greenhouse gas 
emissions around the world, the Chesapeake Bay is still very likely to 
experience significant additional warming.
    The much warmer waters during the summer and much milder 
temperatures during the winter would have substantial consequences for 
the organisms that live in the Bay and how this ecosystem works. 
Species that are already stressed by high summer temperatures, such as 
the eelgrass that provides important habitats in the lower Bay, may be 
greatly reduced or eliminated. Milder winter temperatures are likely to 
open the back door to invaders from warm temperate areas around the 
world who hitchhike into the Bay in ships' ballast waters. With earlier 
spring warming the critical timing of spawning of species such as 
striped bass and blue crabs will adjust, potentially out of phase with 
other processes, such as food production, that are critical to the 
success of their young.
Inundation
    The Chesapeake Bay region is one of the areas of the country most 
sensitive to the effects of sea-level rise because of its 8,000 miles 
of shoreline and extensive, low lying areas, particularly on the 
Eastern Shore (Exhibit 2). Sea level has been rising in the Bay for a 
long time, initially as a result of the melting of glaciers at the end 
of the last ice age. In fact the Bay itself is a series of drowned 
river valleys, inundated by the rise in the ocean levels of over 300 
feet 7,000 to 12,000 years ago. Sea level has been rather stable in 
recent centuries, however, rising only slowly as a result of the 
sinking of the land--a slow subsidence of the Earth's crust that had 
bulged upward under the weight of glaciers to the north. Still this has 
been enough to cause the abandonment and, in some cases, disappearance 
of several islands that had human habitation in the 19th and early 20th 
centuries.
    During the 20th century the Bay level rose a little over one foot 
relative to the land over most areas of the Bay (Exhibit 3). Accurate 
tide gauge records at six locations in the Bay showed this relative 
sea-level rise to range from 2.7 mm per year in Washington, DC to 4.5 
mm per year in Hampton Roads, Virginia, with the difference apparently 
related to differences in subsidence rates. The rise in the surface 
level of the ocean during the 20th century averaged 1.7 mm per year, 
but, based on satellite measurements, was observed to have increased to 
3.1 mm per year around the turn of the century.
    The Intergovernmental Panel on Climate Change projected average 
global rise in sea level through the 21st century for different 
greenhouse gas emission scenarios. If one adds to their rates the 
average regional subsidence rates for the Chesapeake Bay of 1.8 mm per 
year, the projections equate to relative sea level rises by the 2090-
2100 time period of 1.2 to 1.8 feet assuming emissions are eventually 
reduced and 1.4 to 2.5 feet if emissions continue to grow. However, 
there are several reasons to believe that these estimates might be too 
low. First, as mentioned earlier, satellite evidence indicates that the 
rise of the global ocean level during 1993-2003 was already much faster 
than the low emissions estimate. Secondly, the IPCC projections 
excluded acceleration of the melting of polar ice sheets and evidence 
is mounting that the melting of the Greenland ice sheet has 
accelerated. Recently published empirical projections suggest that 
relative sea level rise--including the effects of regional subsidence--
could range from 2.1 to 4.8 feet by the end of this century.
    While there remains uncertainty, not only as related to behavior of 
the climate, but also of the level of accumulated greenhouse gases, it 
appears likely that relative sea level in the Chesapeake Bay will rise 
at least twice as much during this century than it did in the previous 
century and could rise three or more times as much. This rise would 
probably be measured in several feet, rather than the catastrophic sea 
level rise of 20 feet or more associated with the complete melting of 
Greenland as depicted in some popular animations. Still, it is 
important to keep in mind that sea level would not simply reach a 
plateau in 2100 but will continue to rise under almost any emission 
assumption. Furthermore, a rise in Bay water level of just a foot or 
two will place into jeopardy extensive intertidal wetlands, many of 
which are already showing deterioration due to inundation, and 
additional low lying islands. Sea level rise will have profound, but 
poorly understood effects on the Bay itself. For example, the deepening 
of the Bay will allow saline ocean water to extend farther up the 
estuary. Already, this effect seems to be evident in the slight 
increase in salinity when one factors out the effects of freshwater 
inflow variations and hydrodynamic models project shifts in salinity 
significant enough to allow oyster diseases to penetrate deeper into 
the estuary.
    But the effects will be felt in the built environment as well, as 
roads, utilities, sewerage and drainage systems are threatened with 
inundation and erosion of developed shorelines and saltwater intrusion 
into aquifers progress, not only on the Eastern Shore and the imperiled 
communities on Smith and Tangier Islands, but also in part of the 
cities of Hampton Roads, Baltimore, Annapolis, Alexandria and the 
Nation's Capital itself.
    These effects will be experienced not just through the slow 
encroachment of mean sea level but during the extremes, when storm 
surges build on top of the inexorably slowly rising Bay. For example, 
in 2003 Hurricane Isabel resulted in storm surges up to 9 feet, 
typically exceeding the maximum recorded levels of a 1933 hurricane, 
which had a very similar trajectory and intensity, by about one foot. 
This is the approximate increase in relative sea level over that 70 
year interlude. Add to this the potential for increased frequency and 
intensity of tropical cyclones as result of warmer ocean waters and 
there emerges the considerable likelihood of significantly increased 
vulnerability of the Chesapeake Bay's coastal communities and 
environments as a result of global climate change.
What Happens on Land Matters
    As a large, but shallow estuary with limited exchange with the 
ocean, the Chesapeake Bay is particularly affected by what drains into 
it from its 64,000 square mile watershed. Greatly increased inputs of 
sediments and nitrogen and phosphorus nutrients as a result of land 
uses, agricultural inputs and atmospheric fallout are the root cause of 
the deterioration of the Bay during the latter half of the 20th 
century. And, reducing those nutrient and sediment inputs are the main 
focus of the Chesapeake Bay restoration program.
    Climate change could affect the runoff of nutrients and sediments 
in a number of ways that interact, making prediction of future 
conditions somewhat difficult. The wild card is how climate change will 
affect precipitation and ultimately river runoff. Model projections for 
precipitation in the Mid-Atlantic region do not have the same level of 
consistency as those for temperature. However, there is considerable 
agreement for increased precipitation during the winter and spring. 
This would likely mean the flushing out of more nutrients through river 
flow to the Bay during the critical January-May time period, 
exacerbating water quality problems in the Bay, particularly summertime 
oxygen depletion of the deep waters of the Bay or the so-called ``dead 
zone.'' On the other hand, models have less agreement in summer 
precipitation, with most predicting little or no overall increase but 
with most rain delivered during intense events that punctuate dry 
spells. Keeping in mind that warmer temperatures mean more evaporation 
and plant transpiration this would suggest significantly less river 
discharge during the summer, which could further allow the salt-water 
intrusion into the Bay discussed in the context of sea-level rise. 
Compounding these physical phenomena are the human responses, 
particularly in agriculture, to changing energy costs, temperature, 
soil moisture and water availability. These, as well as the still 
needed pollution abatement practices, will affect the inputs of 
nutrients in the first place.
Restoring the Chesapeake
    Substantial public investments have been made and individual 
actions taken to restore the Chesapeake Bay. Approximately $5 billion 
has been spent on that effort since 1995 and it has been estimated that 
an additional $15 billion will be required to achieve the water quality 
objectives of the Chesapeake 2000 Agreement. While some of the changes 
in the regional climate that are anticipated over the remaining century 
might actually result in improvements in environmental quality, the 
tally sheet of reasonable expectations is heavily tilted toward the 
detrimental in terms of ecosystem recovery. For example, higher winter-
spring runoff will require even more efforts to control non-point 
source pollution in order to receive the same water quality goal for 
the Bay. The loss of tidal wetlands will reduce their natural cleansing 
capabilities, and so on.
    There are two corollary implications for Bay restoration. First, 
the impacts of climate change must be factored into restoration goals 
and actions. No longer should this be put off as too hypothetical, too 
political or too daunting. Second, mitigating the causes of climate 
change to avoid dangerous extreme changes should become part of the Bay 
restoration agenda.
Seeking Common Solutions
    Integrating climate change mitigation and adaptation with 
Chesapeake Bay restoration requires the search for common solutions. If 
considered with an open mind, there are opportunities and savings 
rather than additional costs to be realized. The Maryland Commission on 
Climate Change established by Governor Martin O'Malley recommended a 
Plan of Action for mitigating and adapting to climate change. This led 
to the adoption of a state statute setting the goal of a 25% reduction 
in Maryland's net greenhouse gas emissions by 2020. The Commission 
found that as practical strategies to reduce the emissions of 
greenhouse gases are developed there can be significant net economic 
benefits, although initial investments are usually required to achieve 
them. Energy conservation and emphasizing transportation options that 
get many of the single-occupancy vehicles off the roads both favor 
smart growth and reduce impacts to the Bay. At the same time, we need 
to avoid apparent solutions to the fossil fuel dependence that could 
result in additional degradation of the Bay. In that vein, the rapid 
increase in growing corn, which has high fertilizer requirements and 
concomitant nutrient losses, to produce ethanol is particularly 
troublesome, particularly when, on careful inspection, this seems to 
produce few if any net reductions in greenhouse gas emissions.
Sound Scientific Guidance
    To accomplish this integrated approach to Bay restoration and 
climate change mitigation and adaptation will require innovative and 
rigorous science to understand both the synergistic as well as the 
antagonistic interconnections. While the Chesapeake Bay has a robust 
scientific community actively engaged in supporting Bay restoration, 
there is a critical need to build capacity in research, monitoring and 
assessment related to the consequences of regional climate change. This 
is largely because the federal science agencies have not invested much 
in this area. In a 2007 review of the U.S. Climate Change Science 
Program, the National Research Council concluded that:
    Discovery science and understanding of the climate system are 
proceeding well, but use of that knowledge to support decision making 
and to manage risks and opportunities of climate change is proceeding 
slowly.
    <bullet>  Progress in understanding and predicting climate change 
has improved more at global, continental, and ocean basin scales than 
at regional and local scales.
    <bullet>  Our understanding of the impact of climate changes on 
human well-being and vulnerabilities is much less developed than our 
understanding of the natural climate system.
    The Chesapeake Bay Program's Scientific and Technical Advisory 
Committee has prepared a review and agenda to support the practical 
understanding of regional climate change that could serve as a 
blueprint for the needed federal investments. However, we are not in 
this predicament alone--other regions of the country face similarly 
daunting challenges in assessing and responding to their climate 
future.
    Since I first became involved in assessing impacts of climate 
change about ten years ago, we as a nation have done far too little to 
reduce the extent of climate change and begin to adapt to its impacts. 
This was a critical period of time when one considers the pace of 
climate change and the immediacy of decisions that are required. I urge 
Congress to make up for this lost time by adopting legislation to 
reduce our greenhouse gas emissions and establish a national climate 
services enterprise to support the studies of regional climate dynamics 
and ecosystem and social responses that are needed to manage our future 
wisely.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 ______
                                 
    Mr. Grijalva. Thank you, Doctor.
    Let me know ask Dr. Anson Hines, Director, Smithsonian 
Environmental Research Center.
    Dr. Hines, thank you for your hospitality here at the 
Center and your comments, sir.

   STATEMENT OF ANSON H. HINES, PH.D., DIRECTOR, SMITHSONIAN 
                 ENVIRONMENTAL RESEARCH CENTER.

    Dr. Hines. Thank you, Mr. Chairman, Madam Chairwoman 
Bordallo and members of the distinguished Committee. I've 
worked here in the Chesapeake Bay and conducted research for 30 
years and have been the director leading programs here for the 
last 22 years. I am very pleased to host the field hearings on 
impacts of climate change on the Chesapeake Bay.
    From its inception in 1965 SERC was established to track 
and understand the effects of climate change on coastal 
ecosystems of the Chesapeake Bay. SERC's primary study system 
now encompasses 2,650 acres of land and 16 miles of shoreline 
on a sub-estuary of the Chesapeake Bay. These resources include 
unique archeological resources spanning the human history of 
utilization of these natural resources as well. From its 
beginning we focused on ecosystem responses to what ecologists 
call forcing factors of the weather, the warm climate.
    For more than four decades now SERC scientists have been 
developing unique long-term dataset models and experiments to 
try to understand the effects of climate change that would 
impact the Chesapeake Bay and the surrounding region. Without 
that long-term sustained effort we would not be able to really 
identify and assess the changes that are occurring in the 
environment that are so pervasive today.
    In the 45 years since SERC began, we have seen a 2.5 degree 
rise in temperature in the Bay, warmer winters, hotter summers, 
a 15 percent increase in carbon dioxide concentration at this 
site, a four-inch rise in sea level, and fluctuating patterns 
of rainfall and storms. While these factors track the global 
trends in climate change that we read about daily in our 
literature and the newspapers, the responses of ecosystems like 
Chesapeake Bay are not very certain.
    The reason is that the mechanisms of ecological response to 
these forcing factors are not adequately understood, especially 
when we consider the complex interactions of many other human 
activities overlaid on climate change, factors such as land use 
change, fishery management, shipping and ballast water and 
pollution controls. Our goal here at SERC is to understand the 
mechanisms of these ecosystem responses to reduce that 
uncertainty.
    Let me just mention briefly two or three examples of SERC's 
climate change research. The first example is the world's 
longest running experiment on the effects of rising 
CO<INF>2</INF> on natural plant communities which is being 
conducted for the past 24 years on the salt marsh here on the 
Rhode River. SERC scientists are using experimental chambers to 
test the effect of doubling of CO<INF>2</INF> concentrations in 
the atmosphere which are predicted in this century.
    Those tests are reflected in the responses of two dominant 
plant species here. One, a sedge, has responded very positively 
with increased growth rates in response to rising 
CO<INF>2</INF>. The other, a salt marsh hay, shows no 
significant response. This rising CO<INF>2</INF> could have 
effects on shifting species composition of salt marshes and 
probably other plant communities. This long-term experiment is 
also yielding unique insight into effects of rainfall, 
nutrients, and rising sea level.
    The second, we've been tracking forest dynamics for 30 
years, mapping tens of thousands of trees and 50 different 
species. Some of these species, especially tulip poplar and 
sweet gum, are responding vigorously to rising CO<INF>2</INF> 
and temperatures, while others like oaks are showing a 
decrease. These have big consequences for the carbon balance of 
the watershed and the effects of water balance on the watershed 
as well since evapotranspiration of trees can send as much as 
60 or 70 percent of rainfall back into the atmosphere.
    Third, and last, I would mention invasive species. Dr. 
Boesch mentioned SERC as the national center for the study of 
marine invasive species and home of the National Ballast 
Information Clearinghouse, which tracks ballast water 
discharges by all commercial ships. SERC's national database 
documents more than 160 species invading the Chesapeake Bay, 
and our research indicates that warming temperatures in winter 
and early spring can facilitate invasions from the South into 
the Mid-Atlantic region.
    In conclusion, I would say that while climate change is 
already upon Chesapeake Bay and the rate of change is 
accelerating globally, ecosystem responses to climatic factors 
are highly uncertain and much more environmental research is 
needed to understand and predict those changes. The Smithsonian 
Institution will utilize its substantial scientific 
capabilities for monitoring, understanding, and predicting 
those effects.
    Second, environmental research should include the key long-
term data analyses that SERC and other research communities of 
the Bay program have developed to interpret that change and are 
critical to our predictions of the future. Last, the immense 
scale and complexity of the climate change problem requires 
team work and partnerships at many levels of scientific and 
management organization.
    SERC and other parts of the Smithsonian intend to continue 
to play a major role in collaboration with academic 
institutions, state and Federal government partners and non-
government organizations to address these critical needs. Thank 
you very much.
    [The prepared statement of Dr. Hines follows:]

                Statement of Anson H. Hines, Director, 
               Smithsonian Environmental Research Center

Introduction
    Thank you Chairwoman Bordallo and Chairman Grijalva and 
distinguished members of the Subcommittees for the opportunity to 
provide testimony today. My name is Anson Hines. I am the Director at 
the Smithsonian Environmental Research Center located here in 
Edgewater, Maryland. I hold an advanced degree in Zoology. I have led 
Smithsonian's environmental research programs on Chesapeake Bay for 
more than 22 years and have served on the Smithsonian's steering 
committee for its Marine Science Network of coastal research facilities 
that extend from Chesapeake Bay to Florida, Belize and Panama for 15 
years. I have conducted intensive long-term research on the ecosystems, 
species composition and population dynamics of estuarine organisms in 
Chesapeake Bay for 30 years. I am very pleased that the Smithsonian 
Environmental Research Center is hosting the joint subcommittees' field 
hearing on impacts of climate change on Chesapeake Bay.
    The greatest challenges to our environment today are in the coastal 
zone where 70 percent of the world's population lives, works, and 
plays. The ecosystems at the land-sea interface are also among the most 
biologically productive, and their health and sustainability is 
critical for the survival of both ocean and terrestrial environments, 
and the wide range of services they provide. These are the ecosystems 
that will be the most affected by climate change in the United States. 
There can be no better focus for impacts of climate change in the 
coastal zone than the Chesapeake Bay, the nation's largest and 
historically most productive estuary.
    The Smithsonian Environmental Research Center (SERC) is one of the 
world's leading research centers for environmental studies of the 
coastal zone. The Smithsonian Institution established SERC in 1965 to 
track and understand effects of human interactions in coastal 
ecosystems, using Chesapeake Bay as its primary study system and a 
model for the nation. SERC science and education focus on key 
environmental issues facing this nation and the world. SERC works with 
government agencies, academic institutions, and the public to 
incorporate rigorous science into resource management and stewardship 
decisions.
    My purpose today is to summarize the main themes and results of 
SERC's world-class research on climate change. From its inception, SERC 
was established to track and understand the effects of climate change 
on coastal ecosystems of Chesapeake Bay. SERC's primary study system 
now encompasses 2,650 acres of land and 16 miles of shoreline 
surrounding a subestuary of the Bay, providing a unique opportunity for 
intensive monitoring and controlled experiments on linked ecosystems of 
watershed and estuary. From its beginning, this research has focused on 
analyses and long-term measures of the ecosystem responses to what 
ecologists call ``forcing factors'' of weather--the seasonal and annual 
fluctuations in temperature, rainfall, and storm events. For more than 
four decades, SERC scientists have been developing unique long-term 
data sets, models, and experiments on ecosystem responses to climate 
change that extend out to the large Chesapeake region. I cannot 
emphasize enough the importance of the Smithsonian's commitment to 
long-term research. Without this sustained effort and these unique data 
sets, we would not be able to identify and assess changes occurring in 
the environment. Moreover, SERC's commitment to understanding the 
mechanisms of complex--often interactive--ecosystem responses allows us 
to provide sound advice to resource management and policy.
Atmospheric Change, Climate Change and Environmental Change
    Since SERC began its long-term studies on Chesapeake Bay, our 
scientists have measured many environmental changes associated with 
climate change in studies conducted over time periods of 20 to 40 
years. These variables are the ``forcing factors'' of the environment 
that drive the ecological responses in the Bay's ecosystems.
    Much of the rise in atmospheric CO<INF>2</INF> has occurred in the 
past half century, which is the time period since SERC was established. 
SERC monitoring at Chesapeake Bay show that the concentration of 
atmospheric CO<INF>2</INF> has risen by 40 parts per million (ppm) or 
14% since 1987, when it was measured at 340 ppm and it is now about 387 
ppm.
    Due to changes in composition of gases in the upper atmosphere, 
characteristics of solar radiation--particularly the ultraviolet (UVB) 
portion--reaching the surface of the Earth have changed. As part of a 
national and international monitoring network, SERC scientists have 
developed the longest running data set in the world for this portion of 
the sun's energy, and these data show that the UVB level (as average 
midday sunburn radiation) at Chesapeake Bay has increased by 15% in the 
past 36 years.
    During SERC's 45-year history of research on Chesapeake Bay, we 
have witnessed much warmer temperatures, with a record number of hot 
summers and also milder winters. Water temperature of the Bay has 
increased by about 2.5oF (1.3oC). Most of these temperature changes 
have occurred in the past two decades.
    Patterns of rainfall are much more varied and lack clear trends, 
but climate models generally predict greater rainfall overall for the 
Chesapeake Bay watershed, with precipitation likely to be more episodic 
and dispersed among drought periods. These changes could have large 
impacts on watershed discharges into the Bay. SERC scientists have 
documented the frequency and intensity of storm events and of droughts 
at its long-term study site on the Rhode River subestuary and watershed 
in relation to the broader regional variations in precipitation and 
consequences of the Bay's water balance and water quality. These 
records include a full spectrum of storm intensity from Hurricane Agnes 
in 1972 and Isabel in 2003 to localized thunderstorms.
    Sea level has risen approximately four inches (10 cm) over the 
course of SERC's long-term research. The present rate of rise at 3mm 
per year appears to be accelerating globally and may be exacerbated in 
the Chesapeake region by coastal subsidence and by changes in off-shore 
currents that can push water up into the Bay. Rising sea level may have 
major impacts on the marshes and other shoreline ecosystems of the Bay.
    Chemical changes in the Bay are occurring as a result of, and 
interacting with, climate change. Clearly, the large problem of 
nutrient loading (nitrogen and phosphorus) running off the watershed 
and into the Bay is not only a problem of managing land use, but it is 
also related to the quantity and timing of precipitation effects on 
stream discharges. One third of all anthropogenic CO<INF>2</INF> 
emitted into the atmosphere has been absorbed by the oceans, reducing 
pH by about 0.1 of a unit and significantly altering their carbonate 
chemistry. There is widespread concern that these changes are altering 
marine habitats severely, but little or no attention has been given to 
the biota of brackish and fresh waters, which have less pH buffering 
capacity than the ocean. The amount of mercury falling from the 
atmosphere into ecosystems has tripled over the past 200 years as a 
result of burning of fossil fuels since the Industrial Revolution.
Responses of Chesapeake Ecosystems to Climate Changes
    The pervasive and accelerating rates of these climate changes are 
becoming ever more evident. However, responses of the Bay's and the 
Earth's biological systems to these forcing factors are a major source 
of uncertainty in predicting effects of climate change. The complex and 
interactive aspects of the Bay's responses to climate change require 
detailed studies of mechanisms of ecosystem controls across the coastal 
landscape.
    Salt Marshes. Salt marshes and other wetlands are important 
ecosystems providing nursery habitats for fish and shellfish and other 
animals, sources of carbon into the Bay's food web, modifiers of water 
quality, and regulators of key chemical compounds including nitrogen, 
sulphur, carbon dioxide, methane, and mercury in the Bay. Salt marshes 
are also relevant models for the responses of plant communities to 
rising atmospheric CO<INF>2</INF>, because they are include common 
species that are representative of the two major biochemical pathways 
of photosynthesis in plants. Termed C3 and C4, the two types of plants 
are hypothesized to respond differently to rising CO<INF>2</INF>.
    For 24 years (1985-2009) SERC scientists have conducted the worlds' 
longest running experiment on effects of rising CO<INF>2</INF> 
concentrations on natural plant communities at a salt marsh ecosystem 
of Chesapeake Bay. Funding from the Department of Energy allowed these 
scientists to test the effect of doubling of CO<INF>2</INF> levels on 
two major plant species of the marsh. The experiment showed that growth 
and biomass production of marsh communities dominated by one species--
Scirpus olyneyi, a sedge representative of C3 plants--is markedly 
enhanced by rising CO<INF>2</INF>. By contrast, marsh communities 
dominated by another species--Spartina patens, a salt marsh hay 
representive of C4 species--shows no significant response. These 
results suggest that rising CO<INF>2</INF> could cause shifts in 
species composition of salt marshes and probably other plant 
communities, with decreasing grasses (C4) and increasing sedges (C3) 
species. SERC's long-term marsh experiment shows changes in species 
composition in response to the interactions of both more modest rises 
in CO<INF>2</INF> and variations in other factors.
    This long-term experiment yielded unique insights into the effects 
of environmental variability on CO<INF>2</INF> impacts, especially the 
importance of rainfall affecting water availability and salt stress in 
the marsh. Because rising CO<INF>2</INF> enhances water-use efficiency 
of plants, low rainfall and drought markedly enhances the effects of 
CO<INF>2</INF> impacts on plants. Importantly, this unique on-going 
experiment allows SERC scientists to track the long-term ecosystem 
responses to the complete array of climate change variables with 
controls for the effects of rising CO<INF>2</INF>.
    The salt marsh project has been supplemented in recent years by 
funding from the National Science Foundation and U.S. Geological Survey 
to SERC scientists to address carbon storage in peat of marsh soils of 
Chesapeake Bay. This aspect of the project is focused on interactive 
effects of nutrient (nitrogen) enrichment and rising sea level--two key 
confounding factors in coastal systems. Initial results indicate that 
carbon sequestration enhanced by rising CO<INF>2</INF> resulting in 
peat accumulation in salt marshes is keeping up with sea level rise in 
Chesapeake Bay. However, increased nitrogen loading--a major problem 
for the Bay--can inhibit or divert below-ground carbon storage, 
preventing peat accumulation from keeping up with sea level rise. This 
confounding effect of nutrient pollution and rising CO<INF>2</INF>, 
coupled with the probability of acceleration in sea level rise, could 
cause inundation of the Bay's salt marshes and other wetland, with 
serious losses of ecosystem function for the health of the Bay.
    Forests. Forest ecosystems play crucial roles in regulating water 
run off in the Chesapeake watershed. They also play a major role in 
carbon sequestration that mitigates the CO<INF>2</INF> inputs into the 
atmosphere from fossil fuels. For the past 30 years, SERC scientists 
have been tracking long-term changes in species survival and growth in 
carefully mapped plots of tens of thousands of trees at the Rhode River 
site, which has the highest biodiversity of tree species in the region. 
Tracking 50 species, this research allows SERC forests scientists to 
measure and model tree growth in response to climate variation. Some 
species are responding vigorously to CO<INF>2</INF> and temperature, 
especially tulip poplar and sweet gum, while other species such as oaks 
appear to be declining in growth rates. This suggests that climate 
change will promote significant changes in species composition of 
forests of the watershed, which will in turn affect rates of carbon 
sequestration, leaf litter decomposition and nutrient cycling. Forests 
also have major effects on water processing and transfers across the 
landscape, because evapotranspiration by trees can send as much as 60-
70% of rainfall back into the atmosphere, reducing run-off and 
modifying rising temperatures. Thus, forests play a key role in 
regulating stream discharges and nutrient pollution into the Bay.
    Additionally, SERC and other science research units of the 
Smithsonian are engaged in partnerships linked to national and global 
networks for tracking forest responses to climate change. SERC's 
detailed forest studies are now being integrated into both the emerging 
National Ecological Observatory Network (NEON) of the National Science 
Foundation and the Smithsonian Institution Global Ecological 
Observatory (SIGEO) initiative. SIGEO is a multi-institutional global 
network of 34 forest research plots. NEON has proposed that the 
Smithsonian's Conservation and Research Center in Front Royal, 
Virginia, serve as the permanent monitoring site for the mid-Atlantic 
``domain'' (region) of the nation; and SERC has been proposed as one of 
the initial ``re-locatable sites'' for the region. NEON seeks to 
provide additional research infrastructure and instrumentation to track 
long-term environmental change within and among regions of the country 
in response to climate change and other factors. SIGEO will link these 
Chesapeake forest studies to a network of mapped forests in the tropics 
around the world and to several additional mapped forests in the 
temperate zone of North America. SERC scientists will be using these 
networks to set up instrumentation that measures the ecosystem fluxes 
of carbon dioxide, water, and energy through forests in response to 
climate change and forestry management. Variation in these fluxes, and 
the factors that control them in forests, account for much of the 
uncertainty of climate change predictions in the Chesapeake Bay 
watershed, with important ramifications for Bay waters proper.
Chesapeake Watershed Dynamics: Stream Discharges
    As climate change affects the quantity and timing of precipitation, 
it will affect watershed dynamics and stream discharges that are 
critical to managing water quality and health of Chesapeake Bay. SERC's 
watershed studies measure and model stream discharges of water, 
sediment and nutrients as a function of precipitation, land use, and 
geological features. SERC's watershed models have significantly 
improved predictions of nutrient loading into the Bay. One of the 
important uncertainties of watershed dynamics is understanding the 
effects of variation in evapotranspiration by forests on stream 
discharges. SERC's expanding analysis of factors affecting water 
balance in forests will contribute new insights in this area. Long-term 
measures of storm events on the Rhode River watershed also provide 
measures of sediment transfers and fluxes of toxic chemicals such as 
mercury. SERC data, like data from other regions, clearly show that 
these large storm events caused major disturbance and influxes of 
water-borne sediment and chemicals. This means predictions of increased 
frequency and intensity of storms associated with climate change will 
have negative impacts on Chesapeake Bay.
Bay Water Quality, Plankton Production, and Oxygen Levels
    Watershed discharges of nutrients into the Bay affect water quality 
and fuel phytoplankton production, which in turn affect oxygen levels. 
SERC researchers have tracked the sources of nutrient discharges that 
stimulate plankton dynamics and harmful algal blooms in the Rhode River 
as a model system for the upper Bay. These studies suggest that the 
spring plankton bloom may be occurring earlier with advanced seasonal 
discharges from the Susquehanna River. SERC's long-term research shows 
that summer-time turbidity is increasing in the Rhode River and upper 
Bay, much of which appears related to re-suspension of sediments rather 
than to plankton blooms. This indicates that factors other than 
watershed discharges also affect water quality, adding further 
uncertainty about the effects of climate change and watershed discharge 
into the Bay. The seasonal timing and intensity of plankton production 
affects light penetration into the Bay's waters, and SERC research and 
models show how these factors affect light needed for growth and 
restoration of submerged aquatic vegetation, which forms important 
habitat that has declined drastically during the past 40 years.
Fishery Production
    Climate change can have both positive and negative affects on 
fishery species of the Bay. SERC scientists have conducted extensive 
studies of blue crabs, as the major fishery in Chesapeake Bay. As a 
species of tropical origin, blue crabs are likely to be favored by 
warming. SERC research on the life history and demography of blue crabs 
indicate that their reproductive output will increase, growth will 
speed up, and time to reach maturity will shorten as the warm season 
lengthens in Chesapeake Bay. SERC research indicates that mortality of 
small juvenile and adult female crabs during harsh winters may be 
reduced by climate warming that makes for milder winters. While this 
will have positive effects on population dynamics, a number of other 
factors may have negative effects on blue crabs. For example, rising 
temperatures cause losses of sea grass beds in the lower Bay, which is 
important habitat for newly settling juvenile crabs. SERC research 
shows that warming temperatures will also increase predation rates on 
juvenile crabs, and may increase the abundance and species of crab 
predators from southern latitudes.
    Oysters require calcium carbonate for shell growth, and restoration 
of this ecologically and economically valuable species may be affected 
by acidification of Bay waters due to rising CO<INF>2</INF>, just as 
ocean acidification may have adverse impacts on coral reefs. Current 
research by SERC scientists show that acidification of estuarine water 
has negative impacts on shell growth of larval oysters as higher levels 
of CO<INF>2</INF> cause shifts in the chemical balance of carbonate 
deposition calcium in their shells. Larvae of native oysters 
(Crassostrea virginica) experienced a 16% decrease in shell area and a 
42% reduction in calcium content when comparing treatments of 
CO<INF>2</INF> levels projected from pre-industrial time periods and 
the end of 21st century.
Invasive Species
    SERC is a national center for study of marine invasive species and 
the home of the National Ballast Information Clearinghouse, which 
tracks ballast water discharges by all commercial ships arriving to all 
U.S. ports--the major source of introduced species in coastal waters. 
SERC researchers are analyzing the patterns of invasions in Chesapeake 
Bay in comparison to other parts of the U.S. coastal system. SERC's 
national data base documents more than 160 invasive species in 
Chesapeake Bay. Increasing temperatures can facilitate invasive species 
spreading from the south into the mid-Atlantic region. SERC research 
shows that such range expansions often result from warmer winter 
temperatures and earlier springs, rather than from hotter summers. 
Other invasive species such as the southern marsh reed Phragmites 
australis are spreading very rapidly across Chesapeake salt marshes, 
appear to respond very positively to rising CO<INF>2</INF>, and are 
likely to out-compete the native plants that are already under stress 
from rising sea level and nitrogen pollution. Terrestrial invasive 
species also affect the Bay's responses to climate change. For example, 
SERC research on earthworms--most are invasive species introduced long 
ago from Europe--have major effects on carbon processing and 
sequestration of leaf litter in forest soils. These effects facilitate 
shifts in species composition of trees in the forests, again with 
important consequences for water movement through the watershed. SERC's 
research show that still other species, such as mitten crabs and 
snakehead fish from Asia, may become established and spread in the 
region through complex factors interacting with climate and a range of 
other disturbance factors.
Complex Interactions: Mercury in Seafood as an Example
    The environmental forcing factors of climate change interact with 
many effects of other human activities that are impacting Chesapeake 
ecosystems (such as land-use change, fishery management, shipping and 
ballast water, pollution controls). These interactions are likely to 
have complex and indirect consequences for Chesapeake Bay that may be 
just as important as the direct effects of climate change. This 
complexity contributes much of the uncertainty in predictions about 
ecosystem responses to climate change. These complex interactions are a 
major focus of SERC's research on the mechanisms of ecosystem responses 
to climate change.
    For example, new SERC research and elsewhere indicates that mercury 
is a major toxic contaminant that can accumulate in seafood. Mercury is 
an atmospheric pollutant that often results from burning of coal in 
power plants, and is transferred into the food chain by a series of 
steps. As mercury falls from the atmosphere into coastal ecosystems, it 
is converted into methylmercury by bacteria that reside in wet, low-
oxygen soils and sediments. This bacteria-processed methylmercury is 
what is picked up by organisms and concentrated up the food chain into 
seafood. Recent and on-going SERC research shows that once mercury 
falls into salt marshes and other wetlands, it is transformed and 
released into the Bay's food web. New SERC research and elsewhere 
indicates that methylmercury is also forming in coastal groundwater, 
which is released into the Bay in wet spring periods, which are 
predicted by the Science and Technology Advisory Committee of the 
Chesapeake Bay Program to be enhanced by climate change in the mid-
Atlantic region. Thus, SERC research on mercury contamination 
illustrates how climate change may indirectly affect the environment 
and human health.
Conclusions
1.  While climate change is already upon the Chesapeake Bay, and the 
rate of change is accelerating globally, the responses of ecosystems to 
the changing environmental forcing factors are highly uncertain. Much 
of this uncertainty is due to the complex ecological interactions with 
many other factors that are changing simultaneously across the coastal 
landscape with population increase. To reduce this uncertainty, much 
more environmental research is urgently needed to determine the 
mechanisms of ecosystem response to climate change. The Smithsonian 
Institution will utilize its substantial scientific capabilities 
towards monitoring, understanding and predicting effects of climate 
change in Chesapeake Bay.
2.  Environmental research should utilize the key long-term data and 
analyses that are already in place and are critical to interpreting 
future change. The Smithsonian's commitment to environmental research 
on Chesapeake Bay clearly shows the value of these data, and the 
importance of the scientific efforts needed to sustain them.
3.  The immense scale and complexity of the climate change problems 
require teamwork and partnerships at many levels of scientific and 
management organization. The Smithsonian Environmental Research Center 
intends to continue to play a major role in collaboration with academic 
institutions, State and Federal governmental partners, and non-
governmental organizations to address these critical needs.
    Thank you for the opportunity to testify today and I look forward 
to answering any questions you may have.
                                 ______
                                 
    Mr. Grijalva. Thank you.
    We will now ask if Chairwoman Bordallo has some questions. 
Thank you.
    Ms. Bordallo. Thank you, Mr. Chairman. I do have a few 
questions. First for Mr. Moriarty. How is the sea level rise 
affecting refuges within the Chesapeake Marshlands National 
Wildlife Refuge complex, especially at the Blackwater and the 
Susquehanna National Wildlife Refuge?
    Mr. Moriarty. Chairwoman Bordallo, let me first apologize 
for the apparent miscommunication by the Department about my 
role here for the hearing. I hope my testimony showed that I am 
actually representing all three agencies and I have 
representatives from each of the agencies here with me in case 
I'm not able to answer the question thoroughly so I apologize 
for that.
    Ms. Bordallo. So you are in the hot seat today.
    Mr. Moriarty. I am. Thank you. And how is the sea level 
rise affecting these marshes. Primarily as the water level 
rises we are seeing loss of wetlands due to increased erosive 
forces on the edges of the wetlands. In the case of the 
Blackwater National Wildlife Refuge, we do have an additional 
factor going on there with the nutria that is an invasive 
species in the Bay.
    The nutria is cutting channels into the marsh. As a result, 
the channels are allowing more erosive forces to occur within 
the marsh and it erodes more quickly. Hopefully we have that 
problem solved on the refuge per se although we still have to 
work on eradicating the nutria and the rest of the Delmarva 
Peninsula so it doesn't form as a source for additional impact 
to the refuge. But the water level is rising and increasing the 
erosive forces that are occurring on the wetlands and those 
wetlands are gradually going away.
    Ms. Bordallo. So it has an effect on the refuge.
    Mr. Moriarty. Very much so.
    Ms. Bordallo. I have another question for you. What is the 
most important far-reaching strategy that National Wildlife 
Refuges associated with the Chesapeake Bay can employ in light 
of the complexity of issues that we face as our climate 
changes?
    Mr. Moriarty. Thank you for that question. I think that is 
a very good question because it's one that speaks to the need 
for looking at the system as a larger whole rather than each 
refuge responding to it individually and what they think they 
know best. It's best that they all get together and look at the 
Chesapeake Bay watershed and the landscape that they exist in, 
what are all the forces that are working there.
    So that is why we work very closely with the U.S. 
Geological Survey and the National Park Service to look at the 
systems as a whole at a landscape scale. We bring in the 
science that the U.S. Geological Survey provides. We bring any 
answers to questions that the Park Service is able to provide 
to its ecosystem approach, and we integrate them into our 
planning for the future.
    Right now we are at the very beginning stages of that but 
we're still learning all of these impacts about climate change 
on our Bay. This conversation, however, will be to the design 
of approaches toward implementation of protective measures for 
the refuges or adaptation measures for the refuges as sea level 
rises.
    It will also lead to implementation of those measures and 
then we'll be monitoring them with the Geological Survey to 
assure whether they work or not and if another approach would 
need to be taken. I would say the best approach is to look at 
it more holistically at the landscape scale and design your way 
forward from there.
    Ms. Bordallo. Thank you very much.
    Dr. Wood, I have a couple of questions for you. What kind 
of services is NOAA providing in the Chesapeake Bay region to 
help communities adapt to climate change and what types of 
services can NOAA provide?
    Dr. Wood. Thank you, Chairwoman Bordallo.
    NOAA offers a wide range of tool, policy, advice and 
training to states and local communities. NOAA works with the 
states through a number of programs including the Chesapeake 
Network for Education and Municipal Officials, otherwise known 
as CNEMO. CNEMO provides education and training to these 
officials to help community planners understand and communicate 
the challenges of climate change to its citizens.
    NOAA helps provide core capabilities, technological and 
science capabilities including LIDAR mapping. LIDAR is a 
technology like radar but uses light instead. LIDAR is capable 
of very high detail, high resolution topographical mapping of 
shorelines. Using LIDAR you can map the changes in the 
shorelines and understand where erosion rates are the worst and 
where sea level rise could pose the most significant problems.
    Combining this with geographic information system 
technology that NOAA has, we can layer those threat maps, if 
you will, on top of layers of other maps that map out where 
resources that are very valuable, for example, habitats or hard 
structures, highways that are low-lying areas and are subject 
to threat by sea level rise and coastal storm inundation.
    NOAA is also partnering with the community to develop a 
Chesapeake Inundation Prediction System. This system is an 
interesting map-based system which allows individual users--
it's a web-based system--you can access it through the web--to 
chart storm surge. For example, if a tropical cyclone was 
coming to the Bay, a tropical storm or hurricane, where sea 
level rise might strike the communities, they actually get 
resolution on a block-by-block location of their community and 
they can, again, overlay that with resources they might need in 
case of emergencies to better prepare them for climate changes.
    Ms. Bordallo. In addition to that, how is the Coastal Zone 
Management Program helping to support efforts?
    Dr. Wood. The coastal states and the Chesapeake Bay 
watershed have elevated climate change assessment and planning 
to a very high priority. CZMA funds have been used by state 
coastal programs to ensure adaptation planning conducted both 
at the state and local levels. Activities include formulation 
of new policies and programs, assistance to localities, and 
land acquisition. Wherever possible, new programs are providing 
technological support to these state and local programs.
    Ms. Bordallo. Thank you very much. Dr. Boesch, I have a 
question for you. You recommend that the Congress adopt 
legislation to reduce greenhouse gas emissions and to establish 
a national climate enterprise to support the studies of 
regional climate dynamics and ecosystems and social responses.
    I want to thank you for raising my legislation H.R. 2685 
that would authorize a national climate enterprise. Would my 
bill provide a framework for Federal and nonFederal 
coordination to fulfill all of your recommendations for better 
science and better information on the impacts of climate 
change?
    Mr. Kratovil. Just a one-word answer, please.
    Dr. Boesch. Yes, Chairman Bordallo, but let me tell you 
why. As you know, there are many proposals out there.
    Ms. Bordallo. Yes.
    Dr. Boesch. The administration also wants a National 
Climate Service. I have read your legislation and many other 
dozens assigned to the community. I think it has a number of 
advantages over alternatives. They include a mechanism, a 
framework to involve inner agencies, obviously with no one to 
lead but involving the other agencies in a very meaningful way 
and a very high level.
    Second, reliance on the capacity that we have already built 
within this country for regional impact assessment so we bring 
those together. We think this can be done and your legislation, 
I think, does that very well and hope that it will pass and be 
included in the comprehensive legislation.
    Ms. Bordallo. So, as a word to my colleagues, I guess my 
legislation is pretty good.
    Mr. Kratovil. The message was subtle.
    Ms. Bordallo. Dr. Hines, I noted with interest when you 
mentioned that rising CO<INF>2</INF> could cause shifts in the 
plant species compositions of salt marshes and probably other 
plant community around the Chesapeake Bay. What are the 
implications of our efforts to restore and recover wetland 
habitats today?
    Dr. Hines. Well, we've seen clear responses of major plants 
here at this site to increased CO<INF>2</INF> on an 
experimental basis. We've also been looking at the interaction 
with rising sea level and rainfall water availability. What we 
can see in wetlands, for example, is that the increased growth 
of these salt marsh plants is being stored in the root system 
of the plants in the peat system of these marshes. At the 
moment in the most recent years the rate of that accumulation 
of peat here at this site is actually just keeping up with sea 
level rise.
    If sea level rise increases, it may have serious impacts 
and overwhelm the ability of those plants to respond to that 
inundation problem. But those plants represent the true basic 
processes, biochemical processes of photosynthesis in the plant 
kingdom, so it suggests that the complex interactions among 
plant species will depend on those biochemical pathways and how 
the two different mechanisms respond.
    One is favored and one remains the same. It's an indication 
of how complex these responses will be and how difficult it is 
to project exactly what will happen at this point and it is the 
reason why we are conducting the research here.
    Ms. Bordallo. Thank you. Thank you very much, Dr.
    I have a question for the Mayor. Mayor, I am very 
sympathetic to your situation, you know. I hope someday this 
doesn't happen to the U.S. territory of Guam, the issues that 
you brought up about the need for beach renourishment in your 
town. However, considering that increased sea level and greater 
frequency of severe storms is projected to increase erosion 
rates across the Chesapeake Bay, does beach renourishment make 
practical sense over the long term?
    Mr. Bojokles. It may not and that is a good question. Time 
will tell us what we need to do there. I think not doing 
something is not a good idea either.
    Ms. Bordallo. Well, that's true.
    Mr. Bojokles. Yeah. I think in our case we have lost over 
1,000--since the early 1900s, we've lost a thousand feet of 
depth in the shoreline. So now we are down in areas along the 
beachfront. It could be 50 feet, 30 feet, depending on the 
tides of the day. I think smarter people than me can tell you 
that bulkheading and these sorts of efforts don't work either, 
so I don't think there is a solution.
    Ms. Bordallo. Do you have any idea what the cost is?
    Mr. Bojokles. For us we have estimated the cost and we 
actually budget for it every year which is about $25,000 to 
$50,000 a year depending on how much Mother Nature takes away 
from us on an annual basis.
    Ms. Bordallo. Right.
    Mr. Bojokles. We usually try to do that work in early 
spring or late winter when the tides are very, very low. The 
problem I'm having now is more of--a funding issue is not for 
me today. It's more of----
    Ms. Bordallo. It's a long term.
    Mr. Bojokles. It's the process to get the permits needed to 
be able to do this. The permit that we have applied for to do 
the beach replenishment program is in year three. I was elected 
in 2006 and I'm thinking now I'll be lucky to have that permit 
in my hands before my term is over.
    Ms. Bordallo. I read that in your testimony.
    Mr. Bojokles. That is just as frustrating as it can be 
because we sit there every day and watch it erode every day and 
it gets thinner and thinner.
    Ms. Bordallo. We have frustrating moments in Congress, too.
    Would anyone else like to comment on that? Yes.
    Mr. Moriarty. If I might, Chairwoman Bordallo. I think the 
town of North Beach is in a very difficult situation and I 
really appreciate their view toward hardening of shorelines 
because that really isn't the answer. They are in a particular 
difficult situation because where you find the source of 
material to provide the beach erosion is an issue. Are you 
taking it from some other place that it might have to be going.
    Ms. Bordallo. That's right.
    Mr. Moriarty. So the difficulty will get greater and 
greater every year. I think that is going to raise some very, 
very difficult questions for the town as it goes forward.
    Ms. Bordallo. Anyone else? Yes.
    Dr. Boesch. Not exactly on that issue but related to this 
problem of the things washing away. Much mention was made of 
our salt marshes and how they seem to be disappearing. I think 
it is important for you folks to understand it's not a simple 
matter. It's not intuitively obvious the way these work.
    I think Dr. Hines mentioned that salt marshes can build 
their own soil so they have the potential to keep up with 
rising sea levels, you know, to grow upward by laying down peat 
from the plant material produced and also by trapping 
sediments, fine sediments, silts and clays. The problem we are 
experiencing is that they are not building soil fast enough to 
keep up in some places like Blackwater with the rise in sea 
level.
    We have another issue which has long been considered a 
problem in the Chesapeake Bay which is really a resource 
management issue. We spend lots of effort, the Federal 
government spends effort, dredging our channels, taking the 
sediment from the bottom of the Bay and placing it somewhere so 
we have some options to use this resource, not a waste product, 
the sediments that we dredge from the Bay to maintain our 
shipping channels to nourish those wetlands, to allow them to 
continue to survive over time.
    That is another issue. I think the Blackwater refuge is 
interested and active in considering that and I think we need 
to think more widely of how to use our resources in a 
comprehensive way to deal with this problem.
    Ms. Bordallo. Thank you. We also have this problem in the 
Pacific Islands. You know, a lot of erosion. In Guam, in fact, 
we had almost a fourth of a park entirely washed away after a 
typhoon so I sympathize with you and certainly I hope you get 
those permits before the end of your term.
    Thank you, Mr. Chairman.
    Mr. Grijalva. Thank you.
    Mr. Moriarty, this is part question and part comment, I 
think. The National Park Service units are under a very 
important mandate and that is to preserve and protect our 
nation's cultural and natural resources unimpaired for future 
generations. Based on the predictions we've heard not only here 
but in other places, climate change is threatening that mandate 
and in a very serious way. What will it take for the National 
Park Service to be able to meet its mandate? What kind of 
resources? What kind of policy if you could explain.
    Mr. Moriarty. Let me first say that opposed to natural 
resources like fish and wildlife and plants, aquacultural 
resources don't move very well, and they don't reproduce so 
they are where they are, by and large. They are the only ones 
we do have. The question then becomes, how do we protect them 
in light of these rising storm surges and other rising water 
levels that increase foundation damage and damage to artifacts 
kept in basements and things like that? That is a very tough 
question for the Park Service to answer and they are devoting 
their resources to that answer right now.
    If I might, I would like to turn it over to Mr. Carl 
Zimmerman who is the natural resources manager at Assateague 
National Seashore for some additional information on that.
    Mr. Grijalva. OK. If you wouldn't mind, sir, just your name 
for the record.
    Mr. Zimmerman. Certainly. My name is Carl Zimmerman. I am a 
resource manager at Assateague Island National Seashore.
    Mr. Grijalva. Thank you.
    Mr. Zimmerman. Not to contradict but I do have 
responsibilities for both the natural and the cultural 
resources at Assateague Island. The initial discussion there is 
certainly true. We face some significant challenges and the 
National Park Service is trying to protect this nation and 
their special places.
    The cultural resources in particular are particularly 
vulnerable because, as noted, they are fixed in place. They 
cannot move in those circumstances. They are unique. Once lost 
they cannot be recovered. Basically the National Park Service 
is pursuing a three-prong strategy in response to sea level 
rise. The first of those is mitigation, attempting to manage 
our own house and reduce our own emissions of greenhouse gases 
and be as sustainable as we possibly can in park operations.
    The second prong is adaptation and that is directed in 
three primary areas. First, toward the natural systems that are 
managed by the National Park Service. Second, toward cultural 
resources. Third, toward our infrastructure. Many of the parks 
and areas here in the Chesapeake Bay provide a good example of 
that. They are located along the water's edge and are 
vulnerable, making it increasingly difficult to maintain access 
to some of these resources by the visiting public.
    The third prong of our overall response strategy is 
communication and that is both internal and external. The 
National Park Service has what I think is a unique opportunity 
to communicate with the public with 275 million visitors a year 
all of whom are coming to places that are particularly 
meaningful for them. We have a great opportunity to speak with 
them in terms that others do not when speaking to the public 
about some place that they love when we can articulate the 
concerns and the specific issues and threats of individual 
units.
    Mr. Grijalva. If I may, a specific question, Jamestown just 
celebrated 400 years last year and excavation has continued 
since the '90s there. Has the Park Service done a risk analysis 
of George Washington's birthplace--that particular area? If so, 
is there a mitigation plan associated with it?
    Mr. Zimmerman. The direct answer to your first two 
questions is no, we have not done risk or vulnerability 
assessments at those two areas. We are, however, in the process 
of developing a strategy, a framework strategy, for addressing 
cultural resource impacts in the parks. There are really 
several components of that which are being developed, and I 
caution you to note that this is a work in progress.
    Mr. Grijalva. I know.
    Mr. Zimmerman. First, the components were being cranked up 
on a service-wide basis to develop comprehensive maps in a GIS 
environment, the physical location of all of our assets, all 
our cultural resources. Second is looking at it from a 
physiographic region perspective to try to identify the threats 
by physiographic regions on those resources and combining the 
two to develop a threat assessment methodology. In other words, 
what resources are in areas that are very vulnerable.
    The second part of that is to develop specific criteria to 
evaluate the opportunities for intervention. Potential criteria 
will likely be things like severity of threat, the significance 
of the resource, its uniqueness, the relationship of the 
resource to the park purpose. Last, feasibility of 
intervention. I expect very much that we will end up in a 
triage situation where we will have to make hard decisions 
about what gets----
    Mr. Grijalva. Do you have the authority now under current 
law to deal with the situation in the question that I asked you 
or is that authority needed?
    Mr. Zimmerman. I believe that we do have the authorities 
that are needed. It is a matter of developing a prioritized 
list of those resources. We have opportunities to intervene and 
then seeking the resource to do that both internally and 
collaboratively with our partners.
    Mr. Grijalva. That particular asset resource that you are 
addressing now, does it have the priority within the 
department----
    Mr. Zimmerman. I believe that----
    Mr. Grijalva.--given the authority?
    Mr. Zimmerman. The service is vigorously approaching this 
question of how to protect its cultural resources.
    Mr. Grijalva. Thank you.
    Mr. Zimmerman. Certainly.
    Mr. Grijalva. Dr. Boesch, we've heard testimony in other 
hearings that a healthy ecosystem is much more resilient and 
can better adapt to climate change than one that is under 
stress. First of all, do you concur with that assessment? 
Doesn't that mean to some extent that ongoing restoration 
efforts have greater importance and urgency now given the 
discussion we're having?
    Dr. Boesch. Yes. I think that is a fair characterization. 
Take the Chesapeake Bay and our effort to try to restore it. 
There are fundamental problems that are causing widespread 
degradation in the Bay and the loss of its characteristics, its 
ecological characteristics, that are so important, as the 
excessive amount of nutrients that are running off into the 
land or being discharged into the Bay.
    As climate changes, there are a number of things that are 
likely to change to make that problem worse. For example, 
models suggest that we will experience more rainfall in the 
winter and spring to wash the nutrients, the fertilizers and so 
on, off the land into the Bay.
    It means that we need to emphasize taking care of these 
problems early before it becomes very difficult or impossible 
to deal with. That is just one example but it means there is 
some sense of urgency in destroying the ecosystem so they can 
to the degree possible withstand and adapt to the changes that 
are before us with changing climate.
    Mr. Grijalva. Thank you. Dr. Wood, your testimony 
highlights a number of areas in which NOAA is assisting local 
and landowners and planners and communities to adapt to climate 
change. Are there critical areas in which NOAA or its partners 
need more resources for those efforts? Do we need more 
resources to do more?
    Dr. Wood. Thank you, Chairman Grijalva. That is a very 
insightful question. I can't ask--I can't answer on a very 
specific note because as a scientific expert I'm not prepared 
in some of these policy matters and can give you an answer for 
the record.
    However, I will say as your insightful question indicated 
and Don Boesch's solid answer provided, it is very important to 
continue our efforts to restore the Chesapeake Bay and also to 
support the local community efforts at the state and local 
levels, the people who know their localities best and those 
assets they want to preserve the most. It's very important to 
continue to fund programs that provide those training and 
technical opportunities that can help facilitate the best 
decisions being made to safeguard our resources.
    Mr. Grijalva. Thank you. Mr. Sarbanes.
    Mr. Sarbanes. Thank you, Mr. Chairman. I want to apologize. 
I'm probably going to have to scoot after I ask questions 
because we've got a healthcare hearing going on. I'm 
particularly distressed at this because I wanted to hear Bernie 
Fowler on the next panel but I'll get the notes from folks.
    I have a random assortment of questions. Many of the topics 
I wanted to address have been touched on but I wanted to come 
back, Don, to this question about how much harder the job of 
restoring the Chesapeake Bay that we are already embarked on is 
going to be as a result of climate change? Many of us are 
excited because we feel like there is a new level of commitment 
to cleaning up the Bay and also that we have at our fingertips 
much better data and information to allow us to do that, 
particularly sort of at the tributary level, farming, citizens 
to take ownership of that responsibility right in their own 
backyard.
    We are all gung ho about that. The President has signaled a 
high level of commitment to the health of the Chesapeake Bay 
and we are kind of ready to go and then here comes climate 
change to complicate the whole situation.
    I don't know if you can quantify it but maybe you can 
roughly. How much extra burden is climate change placing on 
this kind of original responsibility we have undertaken to 
clean up the Bay through the various means that have been 
outlined over time? Tackle that one more time because I'm 
particularly intrigued by that issue.
    Dr. Boesch. Sure. A very challenging question. Let's see if 
I can try to address it shortly but positively. The Bay that we 
want to achieve isn't the Bay we can achieve. Let's put it this 
way--isn't Senator Fowler's Bay because the world is changing 
and the climate is changing but we can achieve some of the 
characteristics, some of the vitality of that ecosystem in a 
changing world understanding that the target is always going to 
be moving to some degree and outside of our direct control.
    This notion of achieving tipping points where the ecosystem 
restores itself to the point that it can regulate itself and 
restore its basic positive qualities and its productivity is 
something that we are now trying to direct the goals here for 
Maryland's restoration efforts.
    Rather than a challenge, I actually see climate change as 
providing an opportunity to deal with Bay restoration. Why is 
that so? Well, if we think about the changes that we have to 
put in place that deal with climate change, energy 
conservation, a reduced footprint on the landscape, smarter 
growth, better transportation systems, all of those kinds of 
things can actually be positive forces to correct some of the 
problems that are causing problems within this Bay's watershed. 
We really need to look how these work together.
    A good example would be when you are considering 
legislation now on climate change we need to think about how we 
can have win/wins so that, for example, if we also try to deal 
with the problems of agriculture on the landscape, can they be 
part of the climate change solution with respect to carbon 
capture sequestration? Can they get credits and benefits for 
that at the same time they are doing practices that help reduce 
nutrient runoff in the Bay. That is just one example of the 
kind of accountability that we need to seek for as we try to 
solve both of these challenges together.
    Mr. Sarbanes. I guess what you are saying is that here we 
are trying to deal with the Bay, clean up the Bay, institute 
best practices at all levels with respect to the Bay under this 
threshold charge we have to try to restore its health. Then 
here comes climate change to raise our awareness to another 
level and begin to push the public policy that will put a 
larger framework in place and will lead to the kinds of 
practices and actions that will also benefit the Bay.
    That is kind of a positive slant that you can put on that. 
Of course, that is premised on the notion that we will take 
those larger framework actions with respect to climate change. 
As you have all pointed out, that legislation is moving along 
right now having set some targets on emissions and many other 
goals that hopefully are going to have a positive effect.
    Again, try to provide some quantification here for a 
moment. The mayor spoke about needing to replenish the 
beachfront there at the cost of $25,000 to $50,000 a year. 
Let's say climate change got no worse from this point forward. 
How many years more of each replenishment recognizing, as you 
all have, that may not be the ultimate answer but let's just go 
with that for a moment.
    I mean, do you assume for your model that he's going to 
have to be replenishing that beach based on what is going on 
right now for 20 years, 30 years, 50 years, or do we get a 
tipping point sooner rather than later based on the actions 
that we take?
    Dr. Boesch. Sea level rise is a very challenging force in 
that regard because it is a slow responder so even if we 
tomorrow stopped increasing the greenhouse gas emissions, even 
reduced them to the 80 percent reduction targets that we are 
talking about down the road, sea level would continue to rise 
as a result of the inertia from the change in the system, 
picking up heat, the ice is melting, so on.
    It's going to be with us. The point I make is that we have 
a choice to make. We can deal with the problem and reduce our 
emissions and probably have something like twice as much sea 
level rise as we had last century this century or we cannot 
deal with the problem and have four times as much sea level 
rise as we had last century. My best effort to try to 
characterize the nature of the differences and how dealing with 
sea level and dealing with greenhouse gas emissions will affect 
the challenges we have to face.
    Obviously I think the mayor would have a far different 
problem. You're not still going to be in office in 2090 but 
your successor if he sees that very dramatic rise in sea level, 
you cannot maintain a beach in a static position under those 
circumstances.
    Mr. Sarbanes. Thank you. I don't have anymore questions. I 
have used for myself as a way of understanding this the 
metaphor or analogy, I guess, of a levee that we are worried 
about breaching. I guess I understand that even after the rain 
stops the river can continue to rise for a period of time 
before it stabilizes and begins to recede.
    That is the lens I kind of use when I think about the 
climate change, what we don't know. Would you agree with this 
that we don't know yet whether the levee will be breached? In 
other words, whether we have gone past when this climate change 
is to the point of no return?
    Dr. Boesch. The climate is changed. The forces that cause 
climate change that are acting in place basically do not allow 
us to return to some past. The best we can hope for is to 
stabilize the change so that it won't change so much in the 
future. This is particularly challenging for sea level rise 
because those are long-term responses.
    If by the end of this century we have not stabilized the 
greenhouse gas concentrations, the scientific evidence suggest 
that we will probably be approaching an unstoppable meltdown of 
the polar ice sheets. Then we will be looking at not in this 
century but in subsequent centuries a sea level rise of 20 to 
30 feet. At that point we can't do anything about it to stop 
it. It's already over the hill and it's melting down and we 
can't turn back the clock.
    It's that kind of a levee level that we are talking about. 
Most of the scientific assessments suggest that we have to try 
to control the greenhouse gas concentrations so that we don't 
exceed an average increase in world temperature of about 2 
degrees Celsius so that is the target that you folks are 
considering in Congress in terms of trying to reach something 
like an 80 percent reduction of our emissions by 2050 are all 
conditioned to.
    If we don't do it, don't do it in the first half of this 
century, it's too late. In terms of those kinds of levee 
breeches, that is what we need to think of, 2050 reducing it by 
something like 70 to 80 percent or face a future which is much 
more drastic than the one we have outlined in the subsequent 
centuries.
    Mr. Sarbanes. Thank you.
    Mr. Grijalva. Mr. Kratovil, questions?
    Mr. Kratovil. Yes. Thank you. I wanted to start off with a 
more general question, Dr. Boesch. You mentioned that you are 
hoping that at some point in this year we may get to this 
energy bill. It appears we may get to this energy bill this 
week. As you may know, I'm on the Ag and on the Natural 
Resources Committee which gives me a very unique perspective to 
hear about the benefits and criticisms of a lot of this 
legislation moving forward on environmental issues.
    My question is I'm wondering whether each of you have 
reviewed the energy bill as proposed and, if not, if you 
haven't specifically reviewed it, in terms of what you do know 
about it what your overall impression of it is in terms of 
dealing with the issues that you so much care about. Two, what 
do you see as the primary strengths or weaknesses with the 
legislation in dealing with climate change. That goes to all of 
you.
    Dr. Boesch. Well, I don't know if anyone has read the 
energy bill. I haven't read it but I have kept abreast of the 
coverage and the debates about the bill. I'm not an expert on a 
lot of the economic policies or energy generation policies. Let 
me just speak to some of the things that I know about.
    If this is going to be successful, it's going to have to 
be--we are going to have to have a bill that allows us and 
provides incentives for conserving energy in an enormous way. 
That is the low-hanging fruit. There is an enormous opportunity 
by just conserving our energy use.
    Second, it has to provide an ability incentives for 
switching to renewable sources of energy. In the long run, we 
need to think about whether we can capture carbon from burning 
fossil fuel. That is a long-term R&D challenge. We need to find 
incentives to reduce renewal energies.
    The third part, which I think people don't necessarily 
understand which is very important, is land use. Of course, the 
landscape is involved in the dynamics of carbon dioxide as Dr. 
Hines mentioned. Plants take up CO<INF>2</INF>. They sequester 
it in their roots and trees and soil and the like so we need to 
have a bill which makes sure that we are managing land uses in 
a way that maximizes the opportunity for capturing carbon.
    As I mentioned in my answer to the question earlier, for 
example, I think part of the debate with respect to the 
Committee on Agriculture is this issue for Agriculture to 
participate in this part of the program with respect to carbon 
sequestration in soils, for example. I think we need to find 
ways to do it.
    I think it needs to be married with the other kinds of 
challenges, just as I mentioned earlier in dealing with the 
Bay. If we have a problem with dealing with agricultural non-
point source pollution and if we have some practices that can 
actually prove that problem and also allow us to capture more 
carbon in the soil, we ought to provide incentives for that 
rather than not allow that because of some rules that don't 
include those sort of practices just for an example, Mr. 
Kratovil.
    Mr. Kratovil. Thank you.
    Anybody else?
    Mr. Moriarty. The Department of the Interior is releasing a 
statement of policy on the bill today. However, I am not able 
to speak about it until it's out.
    Mr. Kratovil. Fair enough.
    Mr. Moriarty. We can e-mail that to you right away if you 
would like.
    Dr. Wood. Again, as a scientific expert on climate change I 
am not an expert on that bill but I can say that the 
administration supports cap-and-trade and clean energy policies 
that can continue to make a difference here.
    Mr. Kratovil. Dr. Boesch, one of the concerns that was 
raised to me by some of the Maryland folks was given sort of 
Maryland's leadership in many ways on a lot of these issues 
given the nature of Maryland and the Bay and so forth concerns 
that the National standards may not be as tough as Maryland. 
Any concerns in that regard?
    Dr. Boesch. I am not aware of any such specific concerns. 
Maryland has taken action under the Governor's climate change 
commission and has enacted several pieces of legislation that 
would, for example, require clean cars, California standard 
cars that EPA is going to reverse the decision made in the 
previous administration that will allow that to take hold.
    We are participating in the regional greenhouse gas 
initiative for a cap-and-trade program for electricity 
generation in the Northeast already. I think that will continue 
and be built on. In addition to that, of course, there is the 
legislation that would set a state policy on reduction of 
greenhouse gas emissions by 25 percent by the year 2020.
    That is just the down payment on the long-term goal. To 
meet the long-term goal it can't be done without Federal 
assistance and Federal involvement over the long-run. I don't 
see any real problem with what I have seen in the Federal 
legislation that would diminish the efforts here in Maryland. 
In fact, quite the contrary. I think it would give us 
additional incentives and opportunity to meet the state goals.
    Mr. Kratovil. What role do you see that Ag can play in 
dealing with the climate change issue? Specifically what can 
the Ag industry be doing to help with this problem?
    Dr. Boesch. I think what I mentioned was to see how well 
they can play in capturing carbon. We have a general problem in 
this country of diminishing quality of soils because of the way 
we farm and that has reduced the carbon resources of those 
sediments. We can turn that around and provide incentives for 
practices that do it related to tillage and a number of other 
practices, but also the kinds of crops that are grown.
    Second, there is the big issue, of course, of biofuels and 
the role agriculture will play in producing alternative sources 
of energy. I think the challenge there is to do that in a way 
that is full cost accounting of how we produce the biofuels. I 
think you are aware of the criticisms of corn-based ethanol of 
not really benefitting in terms of greenhouse gas emissions 
having a lot of side effects.
    I think if we think about other kinds of biofuels and 
develop the R&D to use those, Agriculture could play a very 
important part.
    Mr. Kratovil. Based on that you think it would be 
significant to allow Ag to participate in that offset program?
    Dr. Boesch. I do, particularly when we are accomplishing 
some regional goals like restoring the Bay and also 
sequestering carbon. I mean, it's a win/win situation.
    Mr. Kratovil. OK. Let me go back to a question that was 
already asked dealing with Blackwater and the problems we are 
seeing at Blackwater. Specifically what are we looking at in 
terms of mitigation of the consequences of that?
    Mr. Moriarty. In terms of mitigation, we are looking at--
with the Corps of Engineers there is a very serious look at how 
we can use the dredge that was mentioned earlier to augment the 
self-building of the marsh. How that has formalized I am not 
fully aware. I could ask Leo Miranda, my field supervisor from 
the Chesapeake Bay field office if he could fill us in on that.
    Mr. Miranda. Yes, Leo Miranda, Chesapeake Bay Field Office. 
Together with the Army Corps of Engineers and the U.S. 
Geological Survey and other agencies we have been in 
discussions how to mitigate for sea level rising in Blackwater 
National Water Refuge, the restoration of Barren Island and 
also some areas within the mainland refuge itself are being 
right now discussed and designed to try to mitigate for those.
    The other thing that we are trying to accomplish through 
this partnership is to restore private lands around the 
Blackwater National Wildlife Refuge to basically in a strategic 
way to mitigate for sea level rise and plant change issues.
    Mr. Kratovil. And the measures that you have taken at 
Poplar Island, as an example, have those been successful in 
your view?
    Mr. Miranda. We have learned a lot from Poplar on how to 
establish and protect these sites. Looking into the future we 
are looking at more like these and using win/win situations.
    Mr. Kratovil. One more just to follow up to Congressman 
Sarbanes' question. He asked generally the continuing impact of 
global warming on our efforts to restore the Bay. Let me take 
that a little more specifically. Specifically how does that 
impact our ability to specifically restore our oyster and crab 
populations?
    Dr. Hines. Well, the issues are trying to manage the 
fisheries and restoration of these systems. The whole Bay 
ecosystem is responsible for that productivity so the 
increasing emphasis on an integrated ecosystem management 
approach rather than trying to manage individual species by 
species fisheries is a much more scientifically sustainable 
approach but there are complications of that.
    In the case of crabs, the increase in salinity and increase 
in warming temperatures may favor crabs, for example, since it 
is a species that evolved in tropical systems. On the other 
hand, it may also impact some of the habitats that we know 
crabs need, such as eelgrass systems in the lower Bay which are 
at the southern end of their range and are harmed by hot summer 
temperatures.
    It's a complicated system and the multiple stressors that 
we see in the system are confounded by the magnitude and rate 
of climate change to make it difficult for scientists to 
predict exactly what will happen for any single species. As a 
whole, we need to be taking a much more integrated approach 
trying to manage the multiple species of fisheries and the 
supporting species with them if we are going to be successful. 
If we continue on the path that we have been doing species by 
species, it's clear that we will not succeed and the history is 
not a very good one in the Chesapeake Bay or elsewhere.
    Dr. Wood. I think that is an important question because 
after 25 years of efforts to restore the Chesapeake Bay we 
realize that there is still frustration regarding a perceived 
lack of impact to the degree that people would like to see. One 
of the problems in demonstrating impact is that climate 
variability from year to year masks some of the changes we can 
make in best management practices in that the amount of 
nutrients that is contributed during a wet year, for example, 
is much higher than anything we can change incrementally from 
year to year.
    Climate change is predicted to bring higher spring and late 
winter runoff events to the Bay. That is likely to contribute 
to more nutrients in terms of the effect on the Bay. We will be 
concerned as scientists and most people on this panel will 
probably agree that might exacerbate the problem we see in low 
oxygen or dead zones.
    Of course, since those are low oxygen zones at the bottom 
of the Bay they keep fish like striped bass from being able to 
access the cool waters they prefer and the resources, the worms 
and things, that they would otherwise feed on. Oysters since 
they can't move, of course, are predisposed to problems of 
death as low oxygen zones invade their habitats.
    Last, the work that we conducted with partnerships with the 
University of Maryland and others show that especially stream 
runoff events can contribute to the over abundance of disease-
causing microorganisms in the Bay that affect both shellfish 
and humans so we would be concerned about that, too, in the 
context of continued efforts to restore the Bay.
    Dr. Hines. Thank you.
    Mr. Grijalva. Thank you and let me thank the panel. Thank 
you, gentlemen. It was very informative and very helpful. Thank 
you very much.
    Let me know invite our next panel up, please.
    Gentlemen, thank you very much and welcome. Let me begin 
with The Honorable Bernie Fowler, former Maryland State 
Senator. Welcome and looking forward to your comments.

           STATEMENT OF THE HONORABLE BERNIE FOWLER, 
          FORMER STATE SENATOR, MARYLAND STATE SENATE

    Mr. Fowler. Thank you very much, Mr. Chairman and Madam 
Chairman. I am truly honored and delighted to be here today. 
It's very infrequent that I get an opportunity to talk with 
some of the most powerful people in the world so I feel very 
humbled today and very honored to do so.
    I want to say up front I am not an expert on global 
warming. What knowledge I have is common sense and listening 
very attentive to the scientific community, some of them very 
dear friends of mine.
    May I say something informative before I go forward. Madam 
Chair, I had the very wonderful opportunity to visit Guam 
during the years of 1944 and '45. It was a little bit of a 
tenuous time but I can tell you that we enjoyed every moment 
which was too infrequent when we got back for a few days 
liberty on the beaches of Guam. Those are great memories that I 
shall always remember. We thank you indeed for your interest.
    Most of my childhood and adult life has actually been spent 
either on or around the Patuxent River and the Chesapeake Bay. 
The Patuxent River--I'll use that quite a bit in my testimony--
is really a microcosm of the Chesapeake Bay. We have all of the 
diversities in the Patuxent River that you will find in the 
Chesapeake Bay, the agricultural, the suburban, urban, 
residential runoff, power plants, 10 major waste water 
treatment plants, probably another 20 minor plants. What 
happens in the Patuxent River is really a mirror of what is 
happening in the Chesapeake Bay.
    I remember the Great Depression. I'll give my age away, 
which I am not ashamed to admit. I was born in 1924 and the 
depression started in 1929 and lasted in Southern Maryland 
until about 1937, 1938. The Patuxent River at that time we were 
very, very dependent on it actually to supply the food and the 
income that we needed to sustain our way of life.
    I well remember those years.
    I also remember the abundance of aquatic life. On the 
island that I lived on we had about 150 homes and there were 
about 60 oyster boats, we called them work boats, that went 
over there every day during the oyster season. We had 12 
commercial seine crews with four people in a crew. The fish 
were very abundant then and it was a very stable way of making 
a living.
    It was not uncommon for a family to catch eight to 10 dozen 
or so softshell crabs a day. In fact, we had one lady, her name 
was Dixie Buck, and she was the champion crabber in the area. 
She caught sometimes as high as 25 dozen softshell crabs in a 
day. That's crabbing both tides. She was great at it. As an 
aside, the price for softshell crabs then was 12 cents a dozen, 
one penny a piece. Quite a contrast from what they are today.
    All of that is gone now. Dixie is gone and most of our 
seafood is gone. That way of life has pretty well been 
demolished. There are only a few watermen left because it's 
very, very difficult to earn a living on the water. It's almost 
impossible to do that. They have gone on to look for other ways 
to make a living and feed their family.
    Early on we were ignorant. We didn't quite know what we 
were doing. The old adage in those days was that if you had 
something you wanted to get rid of, you just threw it in the 
river, and it would go out in the Bay and go out in the ocean 
and that would be the end of it. That was folly. We know 
differently now. We are no longer ignorant.
    We know pretty much what is wrong with the Chesapeake Bay, 
the big ticket items. I'm sure you are probably as familiar 
with them as I am. The big piece of the pie is the stormwater 
runoff which includes residential, urban, suburban, 
agriculture, commercial runoff which carries off a lot of the 
nutrients and toxicity that really has been the demise of the 
Bay.
    The other part of the pie, or one of the other parts of the 
pie, is a waste water treatment plant. In 1950, we had no waste 
water treatment plants going in the Patuxent River. Today as we 
speak there are 60 million gallons going into that river every 
day. While we have come a long way in terms of technology in 
treating that waste, we are still a long way from reducing the 
poundage of the tonnage that is going into that river.
    What is happening in that river is happening in most rivers 
around. You remember that the Chesapeake Bay is really the 
recipient to six jurisdictions all together and each one of 
them has a very emerging way of contributing to the demise of 
the Chesapeake Bay.
    Global warming has been covered very well and I certainly 
have great regard, respect, and admiration for the folks that 
testified here. I have known Don Boesch for a number of years 
and what he tells you, you can take it to the bank. He is very 
well informed about it, a man of great intellect. He also is a 
man with a great heart and dedication to the cause of trying to 
clean up the Chesapeake Bay.
    We have a costly operation ahead. I don't have to tell you 
that. It won't come easy. It's going to be very expensive but 
to me it's absolutely a necessity. Not just from the standpoint 
of the abundance of seafood that it is able to provide but also 
the human health.
    My granddaughter teaches elementary school in Southern Anne 
Arundel. She and I talked a few nights ago about this. I asked 
her, I said, ``Do any of the kids in your class have any 
inhalation problems?'' She said, ``Granddaddy, I have cabinets 
on my wall that hold the atomizers of 40 percent of the 
children in my class that have either asthma or inhalation 
problems, bronchitis or something.''
    These old eyes have seen it all. We are at a point in time 
what are we doing? What are we actually doing? I'm not being 
cynical about this. I'm certainly not trying to lay the blame 
on any one particular person but we have taken a resource that 
was so productive and so healthy and so expected. We thought it 
would last forever but it didn't. Now we are going to have to 
work--and work very, very hard--to see if we can salvage the 
Chesapeake Bay from the jaws of death because it is heading for 
death row. I can tell you that right now.
    The testimony this morning on climate warming certainly 
didn't give me a great deal of encouragement. I long ago agreed 
there was one thing I would not allow to happen in my life. I 
will not falter in my optimism. I will not falter in my hope 
because for a country as rich as we are, with the kind of 
intelligence that we have leading our nation, there is no 
reason for me to give up.
    Someone wrote one time and I don't know who it was. I quote 
these things all the time. I don't have the foggiest notion who 
wrote it but it goes like this. ``The darkest part of the night 
is just before the dawn.'' This is, in my opinion, the dawn of 
new hope. We have a president who during his campaign I heard 
him say that, ``When I'm elected President of the United 
States, we are going to clean the Chesapeake Bay up.'' As 
recently as three weeks ago, he signed an executive order 
putting in action the kind of things he said during the 
campaign.
    We also have with him my dear friend and just a great 
public servant Steny Hoyer, the majority leader. You all know 
him well. He lives on the Patuxent River. Coupled with that we 
have a Governor in Maryland now, Martin O'Malley, who is 
absolutely committed. I hear him talk all the time. I watch his 
actions. I think in his heart and in his mind and in his soul 
he wants to get something done.
    The Governor over in Virginia has also joined forces with 
him. We've got a long ways to go but you have to look on the 
horizon now at the kind of stars that are shining out there and 
the change that we hope to have. Don't let global warming dry 
up your hope and scare you off. We know what we need to do to 
clean up the Chesapeake Bay. I mentioned the big ticket items. 
We have to crack down on storm water. We've got to crack down 
on waste water treatment plants. We've got to crack down on air 
deposition. They are the three big targets that we need to make 
a change in the Patuxent River and the Chesapeake Bay.
    I think the eyes of the world are watching us and if we are 
unable to succeed here we may fail everywhere else on the 
planet. That would be a very sad ending and would be a national 
disgrace and we are not going to let that happen. You are not 
going to let that happen. We are going to support you all the 
way.
    I will close by saying that it is my hope and prayer that 
things will begin to happen, and I respect and appreciate what 
you are trying to do. Years ago, when I would be down a little 
bit because I got a bad editorial because I was out in front on 
the Chesapeake Bay back in 1970, when people were tee-heeing 
me, one of my supporters used to tell me, ``Commissioner 
Fowler, please keep on keeping on.'' We knew there was a 
difference. We knew things were happening. So I want to tell 
you today, ``Keep on keeping on.'' God bless you and I wish you 
the very best of success. We can stand some at this time. Thank 
you all very much.
    [The prepared statement of Mr. Fowler follows:]

       Statement of Bernie Fowler, Former Maryland State Senator

    Mr. Chairman, Madame Chair, thank you very much for deciding to 
have this hearing about climate change and the Chesapeake Bay and for 
making me a part of it.
    Most of my childhood and adult life has been spent on or around the 
Patuxent River and the Chesapeake Bay. My home was located in Broomes 
Island in Calvert County Maryland, a peninsula county that juts out in 
the water like a banana with the Chesapeake Bay on one side and the 
Patuxent River on the other.
    I well remember the Great Depression in the late 1920's and 1930's 
and how dependent we were on the Patuxent River to provide much of our 
food and income for the bare necessities to sustain our way of life. 
Broomes Island was a community of approximately one hundred and fifty 
homes and 90% of the residents were in the water industry. We had no 
electricity or indoor plumbing but we were happy and seldom in want.
    The Patuxent River is the largest estuary located totally in the 
state of Maryland and the abundance of crabs, fish, oysters, and soft 
shell clams was astonishing. We had approximately sixty work boats from 
``the island'' that tonged oysters daily during the regular season with 
two men catching 15-20 bushels of oysters each day. There were twelve 
commercial seine crew(4 men) netting fish for the market. Baited trot 
lines were very common and crabbers could catch 6-8 barrels of crabs in 
one day. Ten dozen softshell crabs in one day was not unusual. In fact 
we had a lady whose name was Dixie Buck who could net as many as twenty 
five dozen soft shell in a day crabbing both tides. This was occurring 
as recent as the early 1960's. Dixie Buck is gone and so is our 
seafood.
    That's all gone now. The harvest has dwindled to almost nothing and 
so have the waterman. They can no longer make a decent living as they 
have taken other jobs.
    There are only a few watermen left in the watershed because at 
present it is difficult to earn a living out of the Chesapeake Bay. Sad 
but true, a watershed that exported seafood all around the United 
States of America is now importing crabs and crabmeat from as far away 
as China and South America. In my opinion this is outrageous and a 
national disgrace.
    The Chesapeake Bay was one of the most productive estuaries in the 
world giving bountifully of her aquatic life, a great protein factory 
is all but gone. What a shame that we as the richest nation in the 
world is making only minimal progress in improving our water quality as 
we watch this giant heading slowly towards death row. Why has this 
happened?
    Early on we were ignorant and did not understand that the nutrients 
and toxic material would strangle our Chesapeake Bay. Ignorance is no 
longer an excuse. We know what is wrong. Urban, suburban, residential 
and agriculture runoff transporting nitrogen, phosphorous and toxic 
material into the watershed waste water treatment plants dumping 
hundreds of millions of gallons a day with the same reputation 
mimicking storm water runoff. Air deposition emanating from vehicular 
traffic and fossil fueled power plants are also partners in the demise 
of the Chesapeake Bay. Individual septic systems (quite numerous) in 
the watershed are also part of the cause.
    Lastly global warning is looming and will not be advantageous to 
water quality in the bay. Additionally, I am advised by my scientific 
friends that an increase in water temperature by 2 degrees or greater 
in the spawning estuaries may abort the entire spawn of striped bass. 
Sounds scary? It is! More frequent storm activity coupled with an 
increase in rainfall will add to the damage already occurring.
    We know what to do. It is costly but necessary to rescue the 
Chesapeake Bay and her tributaries from the jaws of death and bring her 
back to an estuary that will match the water quality of the 1950's. We 
will then enjoy our Chesapeake Bay and once again provide wholesome 
seafood without concern for consumption.
    This is my hope, this is my prayer.
    I am deeply grateful for this opportunity and greatly admire and 
respect what you are trying to do and wish you an abundance of success 
in your quest to do what is just, fair and critically necessary.
    Thank you.
                                 ______
                                 
    Mr. Grijalva. Mr. Skip Stiles, Executive Director of 
Wetlands Watch. Thank you, sir.

  STATEMENT OF SKIP STILES, EXECUTIVE DIRECTOR, WETLANDS WATCH

    Mr. Stiles. Thank you. And thank you for inviting me to 
testify today. I am William A. Stiles, Jr., Skip Stiles to the 
rest of my family. I am Executive Director of Wetlands Watch. 
We are a small nonprofit working out of Norfolk. I also was a 
member of the Virginia Commission on Climate Change which 
issued its report in January of this year.
    Wetlands Watch began working on climate change in late 2006 
when we became aware of what was then predicted to be a minimum 
of two feet of sea level rise in our region. In the Bay where 
the tide range is .3 feet to 3 feet, if you run a couple of 
feet of sea level on top of it you've got some problems.
    We tried to find out where the best estimates of the 
impacts were and found out there really weren't any good impact 
estimates then even though all of the states had agreed to look 
at climate change and its impact on the wetlands as part of the 
Chesapeake Bay 2000 agreement. So we set out on our own to try 
to find out. We ran into a number of hurdles.
    The State of Virginia does not have high resolution LIDAR 
maps as was mentioned by the previous panel. These maps are 
what you really need to try to find a couple of feet of sea 
level rise. A few localities in Virginia have it but unlike 
Maryland and North Carolina, Virginia has not mapped any of its 
coastal plain in LIDAR in a comprehensive fashion.
    Its natural resource inventories are out of date. The tidal 
wetlands inventory is 30 years old and consists of some data 
points that were taken from some tracings off of old 
topographic maps. We took a lot of bad data and a little bit of 
good bourbon and came up with an estimate that Virginia was 
going to lose between 50 and 80 percent of its tidal wetlands 
with two feet of sea level rise.
    Subsequently, people smarter than us and apparently with 
better data have come up--I won't comment on the quality of 
their bourbon--have come up with figures that are within that 
ballpark. We wrote to Governor Kaine in May of 2007 with these 
findings asking that the state take action. Governor Kaine 
subsequently in 2008 appointed a Commission on Climate Change. 
In that commission report, we laid out an adaptation strategy.
    There are only a few of the 30 or so states that have 
commissions on climate change that have laid out adaptation 
strategies. We had one and it was a fairly comprehensive look 
at all of the departments and agencies within the state. 
Relative to Chairman Grijalva's statement, one of the mandates 
was for the State Department of Historic Resources to look at 
all the historic resources in the State of Virginia and begin 
to look at what impacts would be had on those facilities with 
what we saw as a climate change endpoint that we laid out in 
the report.
    At that time, the endpoints were estimated at 2.3 feet of 
sea level rise with 3 degrees Centigrade temperature increase 
and 11 percent increase in storm intensity. We had hoped that 
part of an adaptation strategy that we could get a list of 
those and a whole lot of other resources and begin an 
adaptation strategy in Virginia.
    Unfortunately, Virginia has taken no action on those 
adaptation recommendations. In the face of increasing estimates 
of impacts on the State of Virginia, this inaction is 
inexcusable. Virginia will probably take it about as far as 
anyone along the Mid-Atlantic and we are just now starting to 
recognize the severity of the problem.
    Wetlands Watch is not waiting for the state or Federal 
government to act began working at the local level with local 
governments to see if we could put adaptation strategies in 
place at a local level. We began to assemble a tool kit of 
state and Federal programs that would be of use. We began to 
identify some impediments to adaptation strategies in both 
state and Federal statute.
    In the course of this work, as we have wandered up and down 
mostly the western shore of Virginia in the tidal region, we 
found a number of things going on at the local level that cause 
us to pause. I think it illustrates the fact that local 
governments in Virginia are being left on their own to cope 
with sea level rise and they are making a lot of decisions 
today that are probably going to cost us in the long run.
    Most of the land-use decisions in the Bay are made at the 
local level. Eighty-five percent of the shoreline is privately 
owned. Nearly all of the shoreline decisions were made at the 
local level. As was mentioned by the last panel, the wetland 
can't keep up vertically. It tried to move inland. It colonizes 
the land behind it. If it runs into a bulkhead or shopping 
center or subdivision, it drowns in place. This is what led to 
our higher-end estimates of 80 percent wetland loss.
    Right now, there are a number of examples I pointed to in 
my testimony where local governments are wandering around on 
their own on what we characterize as an increasingly dangerous 
terrain--sort of stumbling around blind and alone trying to 
find their way. There are counties with limited budgets being 
asked to raise roads with no maps, no set of line elevations, 
no inundation predictions. These are very costly endeavors.
    Gloucester County is being asked to raise a half-mile road 
10 inches because the residents were complaining about the 
increased flooding. $320,000 was the bill. The county doesn't 
know whether that is the right road to raise, how long a time 
they get out of 10 inches of elevation of that road or how many 
other roads there are in the county that need that same work.
    Around the corner from me where I live in Norfolk, FEMA, 
state and local governments just spent hundreds of thousands of 
dollars elevating structures after Hurricane Isabel. Now the 
road in front of those houses is largely unusable twice a month 
because of the tides. People in that neighborhood move their 
cars on a full moon if the high tide is going to occur in the 
morning or they've got to put their boots on to go get to their 
car.
    Now the city has to elevate that street. How high? How long 
a gain do they get? Again, there is very little information in 
Virginia especially. This makes the task of restoring the 
Chesapeake Bay even more difficult because these decisions are 
being made bit by bit across the Bay and they are going to 
complicate things in the future.
    There are plans out there. The climate change strategies in 
Virginia and Maryland are good plans. There was a plan at the 
back of the recent report that came out on sea level rise in 
the Mid-Atlantic so there are plans out there. All it takes is 
political will and a little bit of funding.
    If I could digress for just a moment, Chairwoman Bordallo, 
your bill on climate enterprise I read. It's a very good bill. 
I used to be legislative director of the House Science 
Committee so I know what happens with jurisdictional battles 
between my old committee and your current committee but I think 
that your legislation is a very good piece of legislation.
    I think the interagency approach is very good. I think that 
it's inclusion of stakeholders in the setting of the 
information that comes out is excellent. I'm one of those 
stakeholders. I can use better climate information. So can all 
the local governments. I think this climate enterprise is a 
much needed piece of legislation. With that I'll close. Thank 
you.
    [The prepared statement of Mr. Stiles follows:]

                 Statement of William A. Stiles, Jr., 
                   Executive Director, Wetlands Watch

    Chairman Grijalva, Chairwoman Bordallo, Ranking Members Bishop and 
Brown, members of the subcommittees. I appreciate the opportunity to 
appear before you today. My name is William A. Stiles, Jr. and I am the 
executive director of Wetlands Watch, an environmental group based in 
Norfolk, Virginia, working statewide to protect and conserve wetlands. 
I am also vice president of the Virginia Conservation Network, a 
statewide coalition of over 120 conservation groups in Virginia. Our 
group is a member of the newly formed Choose Clean Water Campaign in 
the Chesapeake Bay. Finally, I was a member of the Virginia Commission 
on Climate Change that met during 2008 and produced its final report in 
January of this year.
    I feel somewhat out of place on this side of the microphone, having 
spent 22 years as a staffer in the House of Representatives, often 
working on hearings similar to this one. Today I toil at the other end 
of the policy continuum, at the local government level in Virginia, 
working on community-level adaptation strategies to address sea level 
rise.
    Wetlands Watch's work on climate change began in 2007 when we 
became aware of estimates for a 2-foot relative sea level rise in the 
mid-Atlantic region of the United States over the next century. We were 
concerned about the potential impact of this accelerated rate of sea 
level rise on the coastal ecosystem and started looking for some 
factual analysis of how this change would affect the coastal 
environment of the Chesapeake Bay.
    We hoped to find some data coming from the Chesapeake Bay 2000 
Agreement, wherein the signatory governments committed to look at 
climate change impacts on wetlands when they agreed to: ``Evaluate the 
potential impact of climate change on the Chesapeake Bay watershed, 
particularly with respect to its wetlands, and consider potential 
management options.''
    We discovered that Virginia had done no evaluations, nor could we 
find any of the signatory governments to the Chesapeake Bay 2000 
Agreement who met this commitment.
    We saw that in the Coastal Zone Management Act (CZMA) there is a 
provision at U.S.C. 33 Sec. 1451(l) mandating sea level rise planning: 
``Because global warming may result in a substantial sea level rise 
with serious adverse effects in the coastal zone, coastal states must 
anticipate and plan for such an occurrence.''
    Again we found no activity in Virginia resulting from the CZMA 
mandate. Without available state or federal analyses, we had to 
undertake our own evaluation of climate change impacts on the coastal 
ecosystem, with the help of the Virginia Institute of Marine Sciences 
(VIMS) and others.
    As we tried to estimate these impacts, we were immediately 
frustrated by the lack of data in Virginia. Unlike Maryland and North 
Carolina, Virginia does not have digital LIDAR (light detection and 
ranging) maps to provide precise vertical elevations allowing 
inundation modeling to be done on flat coastal landscapes. This forces 
smaller, rural counties and towns in Virginia struggle with maps of 
fairly coarse resolution. In addition, Virginia's natural resources 
inventories are spotty at best: VIMS's tidal wetland inventory is 30 
years old, plotted on hand-drawn tracings from topographic maps.
    Tidal ranges in the Chesapeake Bay run from .3 to 3 feet, meaning a 
sea level rise of two feet could have significant impacts upon wetlands 
in the intertidal zone, adjacent beds of submerged aquatic vegetation 
(SAV), mudflats, and primary dunes along the Chesapeake Bay and 
Atlantic Ocean shorelines. Wetlands can accrete and move vertically to 
keep up with sea level rise, if the wetlands are healthy and have 
enough sediment. We looked at the few studies available on Chesapeake 
Bay wetlands and they showed many of our existing tidal vegetated 
wetlands would probably not keep up with a two foot sea level rise due 
to the compromised health and productivity of the wetlands and/or 
inadequate sediment in some ranges of the Bay.
    We assumed that if vegetated tidal wetlands and adjacent ecosystems 
could not move vertically, they would have to move landward or 
``uphill'' as sea level rose. We knew that about 85 percent of the 
Bay's shoreline is privately owned, and increasingly ``hardened'' with 
erosion control structures, development, roads, and other barriers 
blocking this landward migration. If wetlands cannot colonize the land 
at a higher elevation from their existing location, they will drown in 
place.
    We read research showing that sea level rise of the magnitude 
expected could result in a 30 to 40 percent reduction in submerged 
aquatic vegetation (SAV) due to lower light penetration through the 
higher water column. We also learned that the Chesapeake Bay's key SAV 
species, eelgrass, is already under stress from warmer water 
temperatures, and the Bay will only get warmer with climate change.
    We used this available information to make a rough estimate that 
the then-projected increase in the rate of sea level rise to 2 feet per 
century would eliminate between 50 and 80 percent of Virginia's 
remaining tidal wetlands and have significant impacts upon the rest of 
the coastal ecosystem.
    The coastal ecosystem complex is the most productive in North 
America, rivaling the productivity of tropical rain forests. Threats to 
this ecosystem directly threaten the Chesapeake Bay and the economies 
and communities that depend upon a healthy Bay.
    Estimates show that 70 to 90 percent of the finfish and shellfish 
in the Chesapeake Bay and mid-Atlantic coastal ocean use tidal wetlands 
and SAV beds for spawning, recruitment, food, or other habitat 
functions. Losses in these ecosystems would produce severe consequences 
for the Chesapeake Bay and Atlantic Ocean commercial and sport fishery 
and the communities and economies dependant upon that fishery.
    In Virginia alone, the commercial fishery is worth $130 million a 
year, the saltwater sport fishing industry generates $1.2 billion and 
9,000 jobs, waterfowl hunting is a $14 million sector, and wildlife 
watching--much of which takes place in coastal areas along the Atlantic 
flyway--generates $941 million a year and supports 23,000 jobs. One 
significant sector threatened by sea level rise is the hard shell clam 
aquaculture industry on the Eastern Shore of Virginia. This industry, 
located in the shallow coastal ecosystem, produces an economic output 
of $48.8 million a year and employs 620 people in coastal communities. 
If tidal wetlands and the coastal ecosystem are threatened by climate 
change, so is all of this economic activity.
    In the course of our analysis, we also noted adverse impacts on the 
U.S. Fish and Wildlife Service's (USFWS) refuge system in the mid-
Atlantic from climate change as we projected significant potential 
tidal wetland habitat loss in each of the refuges. Given that these 
impacts were occurring in each of the refuges simultaneously, we saw a 
potentially significant cumulative impact on the mid-Atlantic section 
of the Atlantic migratory bird flyway, from Cape May through Cedar 
Island National Wildlife Refuges. We spoke to USFWS refuge managers in 
Maryland, Virginia, and North Carolina all of whom had observed habitat 
losses occurring at their sites with current rates of sea level rise. 
Higher rates of sea level rise and temperature stress can be expected 
to accelerate this rate of habitat loss.
    We then wrote Virginia's Governor Kaine in May of 2007 (Attachment 
I), asking that Virginia take steps to prepare Virginia for the sea 
level rise we were expecting. Specifically, we asked that the state 
live up to its commitment under the Chesapeake Bay 2000 Agreement to 
evaluate climate change, undertake LIDAR mapping in the coastal plain, 
provide updated natural resource inventories in the tidal regions, and 
then model climate change impacts upon those natural resources. Finally 
we pointed to the need to work with local governments to develop 
adaptation plans at the local level, where most land use and shoreline 
hardening decisions are made.
    Governor Kaine soon thereafter appointed the Virginia Commission on 
Climate Change, on which I served along with 39 other citizens. We met 
during 2008 and delivered our report in January of 2009. Virginia joins 
30 other states in having a state climate commission and is among a 
very small number that examined adaptation strategies as part of their 
commission.
    Virginia's Commission on Climate Change looked extensively at what 
it would take for Virginia to adapt to the climate change impact end 
points expected by 2108, estimated in the report as: a 2.3 to 5.2 foot 
increase in sea level, a 3 degree Centigrade increase in temperature, 
and an 11 percent increase in storm intensity/precipitation intensity. 
We then developed a novel approach to formulating a state adaptation 
strategy, one that might serve as a model for development of government 
climate change adaptation strategies.
    The strategic process envisioned by the adaptation work group of 
the Commission involved each state agency reviewing programs and 
regulations under their authority and judging the impacts of projected 
climate change end points on those operations. The agencies would then 
recommend adjustments to those programs and regulations to adapt to the 
projected end points.
    So for example, the Virginia Secretary of Transportation, wanting 
to know the impacts of sea level rise on transportation structures, 
would ask the Virginia Department of Transportation for a list of all 
state-owned transportation segments in tidal flood plains whose 
centerlines are 3 feet or less above mean higher high water. Or 
Virginia's Secretary of Natural Resources, wanting to insure that 
habitat management accommodated these end points, would ask the 
Department of Game and Inland Fisheries what the impact of a 3 degree 
Centigrade rise in temperature would be upon brook trout habitat. Or 
the Virginia Secretary of Public Safety would ask the Department of 
Emergency Management what changes in emergency preparedness might be 
needed with an 11 percent increase in storm intensity and 2.3 feet of 
sea level rise.
    The agency responses would either highlight gaps and omissions in 
current agency authorities and operations that hindered their ability 
to address climate change, or the agencies would begin to adjust their 
programs to accommodate these changes. In the case of gaps and 
omissions, we would then be able to adjust agency statutory or 
regulatory authorities as needed. The process would be repeated as new 
information about end points was obtained.
    What we expected as a result of this process would be a growing 
awareness of how climate change needs to be taken into account in the 
daily conduct of government operations in Virginia. We hoped that as 
government ``led by example'' and went through adaptation planning, the 
private sector would as well. In the end, what we envisioned emerging 
from this process was a full adaptation strategy for Virginia.
    Unfortunately, Virginia has not taken action on the adaptation 
proposals made by its Commission on Climate Change. With estimates of 
the threat to Virginia constantly increasing, this inaction is 
inexcusable. Just last week, the latest federal report on climate 
change impacts stated that a relative sea level rise of 2.9 feet was 
probable for the southern Chesapeake Bay in the coming century. This is 
up from the Climate Change Commission's estimate of just last year of a 
minimum of 2.3 feet, and up from Wetlands Watch's original starting 
point in 2007 that assumed ``only'' a two-foot relative sea level rise.
    Others are taking notice, however. Recent decisions by private 
insurance companies to withdraw new coverage from coastal areas in 
Maryland and Virginia are a clear signal that businesses see an 
increasing risk from sea level rise. Over the last two years, a number 
of private insurance companies representing 55 percent of the insurance 
market in the mid-Atlantic have stopped writing policies on businesses 
and primary residences near the coast. Other companies have withdrawn 
new coverage on secondary residences.
    These moves illustrate another negative impact from our lack of 
climate change planning in Virginia. Communities without sufficient 
information on climate change impacts and adaptation strategies are 
having their economic future affected by business decisions beyond 
their control.
    The single largest barrier to putting an adaptation strategy in 
place in Virginia's is the lack of accurate maps of the coastal plain. 
At present, only a handful of localities have LIDAR maps, most of which 
were paid for by the local government themselves. The Virginia 
Commission on Climate Change set a ``no regrets'' priority for the 
mapping of the state's coastal plan with LIDAR, to provide individuals, 
businesses, and local governments in Virginia with a road map through 
the coming climate changes. This is a project that has been estimated 
by the Virginia Geographic Information Network to cost around $5 
million. Unfortunately, there are no proposals pending to fund the 
generation of these maps.
    We also stressed the need for inclusion of climate change impacts 
in numerous long range planning processes, for transportation and 
infrastructure at the state and regional level and in land use 
decisions at the local level. The hundreds of transportation and land 
use decisions made daily in scores of local governments throughout the 
Chesapeake Bay watershed combine and conspire to set the course for the 
health of the Bay.
    Our failures to meet the goals of the Chesapeake Bay 2000 Agreement 
have been traced primarily to our inability to plan for and control 
growth and our failure to give localities the tools they need to make 
smart land use decisions--technical tools, legal tools, and financial 
tools. These local land use decisions loom even larger as we move into 
the future under the uncertain consequences of climate change. Every 
bulkhead, development, road, or other barrier allowed will cause 
incremental change today that, when aggregated and exacerbated by 
climate change over time, will result in consequential change to the 
Chesapeake Bay. Our actions must guarantee the resiliency of the Bay by 
keeping its shoreline open, thus keeping our climate change adaptation 
options open.
    Without maps, models, wetlands inventories, and dozens of other 
bits of information, local governments are making decisions in the 
dark, encumbering the taxpayers and potentially endangering citizens. 
As Wetlands Watch works throughout tidewater Virginia helping local 
citizens and governments cope with climate change, we encounter 
examples of this daily. Let me walk you from my house in Norfolk, north 
along the Chesapeake Bay's western shoreline to look at a few of these 
examples we have run across.
    In a neighborhood in Norfolk just two miles from my house, federal 
and state taxpayers spent hundreds of thousands of dollars raising 
houses in the Larchmont/Edgewater neighborhoods after Hurricane Isabel 
under a Federal Emergency Management Agency (FEMA) grant. However, this 
program apparently didn't account for the impact of sea level rise on 
the flooding of the adjacent roads, which are now inundated frequently 
on full and new moon tides.
    People on these streets move their cars to higher ground on 
surrounding streets on a lunar cycle, to avoid having to put on their 
boots to slosh to their cars in the morning at high tide. To maintain 
the usefulness of the houses we just raised, the city of Norfolk 
proposes to spend countless thousands of dollars to raise the adjacent 
roads and infrastructure out of the zone of increased flooding. The 
park in front of these homes, formerly upland, is now a salt pan 
fringed by marsh grass and the city plans to convert it into a 
restoration wetland; an admission that sea level rise is here to stay.
    Was the decision to raise these houses made strategically? Do we 
know how high the roads should be raised and what the projected rate of 
inundation plus subsidence is for this neighborhood? What is the long-
term prospect for this neighborhood and when do we try to find out? 
These strategic questions need to be asked prior to making this next 
significant taxpayer investment.
    Moving north, on the other side of the James River, the Department 
of Defense is closing Fort Monroe and the state is determining its 
reuse. Virginia is studying the best use of the open space surrounding 
the Fort, land located on a low-lying barrier island. Proposals range 
from creating a new park to developing the land for residential and 
commercial use.
    On the Virginia Commission on Climate Change, we were presented 
with a simulation showing this open space adjacent to Fort Monroe going 
underwater in 2108 with a category I storm surge. Yet state and local 
planners are still considering proposals to build residences and 
businesses on this increasingly dangerous landscape.
    To the northwest a few miles is Poquoson, a city whose highest 
point is just seven feet above sea level. The city recently installed a 
new gravity-flow storm water system for around $20 million. The city 
engineer, who understands sea level rise, asked the contractor what it 
would take to make the system work with 2-3 feet of additional sea 
level rise. The answer was another $5 million to sleeve and pressurize 
the section of pipe and install a pump system. Without compelling data 
on climate change and financial support, the city installed the system 
as-is, effectively putting a $5 million taxpayer liability (in 2008 
dollars) in the ground.
    Across the York River from Poquoson, is Gloucester County, a low-
lying locality changing from a rural to a more developed area. 
Residents recently complained about a road section that was now 
regularly flooded on a monthly tide cycle or by winds from the north. 
They wanted the road raised to fix the problem.
    The County estimated that to raise the road 10 inches for a half 
mile would cost $320,000 in materials and labor, without including the 
expense of permits and environmental assessments. This represented 18% 
of the county's entire annual road maintenance budget to be spent for 
just one road section out of the many needing elevation in a low-lying 
and increasingly flood-prone locality. Without road elevations, precise 
digital maps, models of flooding and inundation, and other information, 
Gloucester County is forced to make these decisions in a vacuum, as are 
all other localities in Virginia.
    Just north of Gloucester County is Mathews County, the self-
proclaimed ``pearl of the Chesapeake Bay'' and deserving of the title. 
Mathews has much low laying land that is threatened by sea level rise 
and also has the longest shoreline of any county in Virginia. The 
County is undergoing a revision of its long-range land use plan, with 
an eye on sea level rise and trying to decide what to do along its 
coastline.
    Mathews is handicapped without data on transportation and public 
infrastructure elevations, it has no digital maps or geographic 
information system data, it lacks the funding to conduct build-out 
analyses of those low-lying areas of the county that may be threatened 
by sea level rise, and so on. The state is providing few resources to 
guide willing local planners and citizens find their way ahead. Mathews 
wants to do the right thing and there is even talk of making the county 
a ``living laboratory'' for climate change adaptation, but there is no 
funding to help them reach that goal.
    On the other side of the coin, in Mathews County, we have seen an 
example of federal and state efforts working at the local level with 
the support being provided by Chesapeake Network for Education of 
Municipal Officials (NEMO). Chesapeake NEMO is a federal-state 
partnership that helps communities implement sound, natural resource-
based planning. Chesapeake NEMO is providing support for Mathews as it 
works through its long-range plans and the staff from the National 
Oceanographic and Atmospheric Administration (NOAA) and the Virginia 
Department of Conservation and Recreation working with Mathews County 
deserve credit.
    As well, NOAA has funded three regional planning efforts being run 
through the Coastal Zone Management Program in Virginia attempting to 
bring stakeholder groups together to address climate change on a 
regional and local level. This same effort has funded programs in 
Maryland at the community level. However, as good as these efforts are, 
they are inadequate to the task we face.
    These bright spots need to be expanded because the stories just 
related of localities being abandoned in the face of sea level rise 
occur throughout the Virginia coastal region. They paint a clear 
picture of need for a significant expansion of state and federal work 
in support of local land use planning and decision-making processes in 
this changing environment.
Conclusion
    Restoring the Chesapeake Bay is a difficult task. We've made too 
many shortsighted decisions--allowed too many people to do too many 
unsustainable things along our shoreline--to expect to get out of this 
situation without a lot of expense and disruption. For a while we did 
this out of ignorance. For a time after that we did it out of 
indifference or indecision.
    Today, there is no longer any excuse for what we are allowing along 
our shorelines as we permit inappropriate and unsustainable development 
that is encumbering our grandchildren with a huge debt to be paid to 
restore the Chesapeake Bay. This debt is large enough today, without 
climate change figured in, and increases substantially when that 
calculation is made.
    The failure by state and federal governments to develop climate 
change adaptation strategies leaves individuals, companies, and local 
governments to stumble blind and alone onto an increasingly dangerous 
terrain. At a minimum, this will produce costly consequences for 
taxpayers and shareholders, as decisions made without considering 
climate change impacts need to be corrected or reversed. At the other 
extreme, decisions being made today in Virginia's policy vacuum will 
limit our future adaptation options and are putting lives and 
livelihoods at risk
    The absurdity of this situation is made worse by the fact that 
plans exist to begin the process of adapting to climate change. The 
federal government recently issued a report, ``Coastal Sensitivity to 
Sea-Level Rise: A Focus on the Mid-Atlantic Region,'' at the back of 
which is a list of suggested federal actions offered by the report's 
advisory committee (Attachment II). The Maryland and Virginia Climate 
Change Commission Reports contain dozens of sound recommendations that 
will get us started. Wetlands Watch has started work on a ``tool kit'' 
for local governments. Other reports from the private sector, 
professional organizations, and the like pile up daily.
    We know enough to take action. All that remains is the political 
will and the funding to do something with the recommendations on the 
table.
    Thank you for the opportunity to appear before you today. I welcome 
any questions you may have.
                                 ______
                                 
 ATTACHMENT I TO TESTIMONY OF WILLIAM A. STILES, JR. 
        June 23, 2009

May 31, 2007

Governor Tim Kaine
Office of the Governor
Patrick Henry Building, 3rd Floor
1111 East Broad Street
Richmond, VA 23219

Dear Governor Kaine:

    We are writing regarding sea level rise and the ecological impact 
upon Virginia's coastal ecosystems. We have been reviewing existing 
information for the Chesapeake Bay and its tidal tributaries, the 
coastal bays of the Eastern Shore, and Virginia's southern rivers and 
bays in the Currituck Sound watershed.
    With a relative sea level rise in the range currently predicted by 
federal agencies (1 1/2 to 2 feet in the next century), a ``best 
guess'' estimate indicates a loss of 50--80% of the remaining vegetated 
tidal wetlands in the tidal reaches of Virginia by 2107, absent efforts 
at mitigation. Adjacent shoreline features (mudflats, buffers, dunes, 
etc.) would also be adversely impacted.
    Losses of this magnitude would, at the lowest predicted ranges, 
negate any progress made toward restoration of the Chesapeake Bay's 
ecosystem. Unmitigated losses of wetlands, buffers, and coastal dunes 
at the upper predicted ranges would trigger an ecosystem collapse 
throughout the Chesapeake Bay.
    Sea level rise impacts are already being felt. A paper from 
University of Maryland states that, ``coastal marshes are currently 
disappearing in the Chesapeake at rates as rapid as the more widely 
publicized losses in the Mississippi Delta.''
    The coming relative sea level rise will hit the mid-Atlantic Region 
hard, with Virginia being the most impacted region. In fact, Hampton 
Roads is the largest population center at greatest risk from sea level 
rise and storm surges outside of New Orleans.
    In the mid-Atlantic, some states are in the process of initial 
analysis, some are conducting detailed mapping of coastal areas and 
running inundation models, and some have advanced to initial 
deliberations on a response and mitigation strategy. Virginia is 
currently the only state in the mid-Atlantic Region without a visible 
state reaction to the issue of sea level rise and its impacts on 
coastal ecosystems.
    In the Chesapeake 2000 agreement, Virginia and all of the 
signatories agreed to, ``Evaluate the potential impact of climate 
change on the Chesapeake Bay watershed, particularly with respect to 
its wetlands, and consider potential management options.'' Virginia has 
made no appreciable progress toward that goal since then-Governor 
Gilmore signed that agreement.
    In addition, the Coastal Zone Management Act at U.S.C. 33 
Sec. 1451(l) finds that, ``Because global warming may result in a 
substantial sea level rise with serious adverse effects in the coastal 
zone, coastal states must anticipate and plan for such an occurrence.''
    Wetlands Watch is beginning a campaign to raise awareness on this 
issue with a goal of making sea level rise a high priority issue in 
Virginia. We must do better than make a ``best guess'' at where 
inundation will occur and what the ecological impacts will be. We offer 
our assistance in improving the state response to sea level rise.
    First, Virginia's flood map modernization effort needs to be 
adequately funded to allow precise mapping of coastal areas. Maryland 
and North Carolina provided state funding to augment the Federal 
Emergency Management Agency (FEMA) program to modernize flood zone 
maps. In coastal areas, those state funds have provided LIDAR data and 
are producing digitized maps with data density sufficient to predict 
relative sea level rise inundation areas.
    In Virginia, inundation maps at this level of detail are only 
available if local governments pay for them, and as of today, few at-
risk coastal communities have paid to get the data. And even for those 
few localities with detailed inundation mapping, there is no funding 
for ecological impact analysis or modeling.
    This leaves these localities environmentally vulnerable. At the 
same time they are becoming economically vulnerable from decisions made 
by others with better information. Allstate has stopped writing new 
homeowner insurance policies in 19 Virginia coastal communities. State 
Farm and Nationwide are pulling new coverage from coastal areas as 
well. USAA will no longer offer unconditional coverage on second homes 
in Virginia.
    These companies are reacting to greater risk from sea level rise 
and storm surge damage. Together they represent more than 55% of the 
private insurance market in the mid-Atlantic. In addition, all 
insurance companies operating in Virginia have raised insurance rates 
and announced a doubling of the hurricane deductible to 5% on homeowner 
policies.
    For the ecosystems and economies of Tidewater Virginia, sea level 
rise and storm surge risks are a major threat to which our state 
government needs to respond.
    The second phase of a state action plan is an evaluation of the 
ecosystem services that will be lost as we identify those coastal 
features that will drown if they cannot move shoreward. For example, 
Maryland has estimated that it is currently losing around 150 acres of 
tidal vegetated wetlands a year and North Carolina has placed its loss 
from sea level rise and erosion at 780 acres of wetlands annually. 
Virginia has no estimate of its acreage losses nor the habitat, 
nutrient cycling, and other functions threatened by these losses. We do 
not know which functions will be in greatest demand as sea level rises 
and thus we have no plan for mitigating for the loss of those 
functions.
    Third, the state, in partnership with local governments, needs to 
begin assembling a ``tool box'' of land use and other approaches for 
arranging the orderly retreat of people and ecosystems from the rising 
tides. What is needed is collaboration between state and local 
governments, landowners and land trusts, and business and non-profit 
organizations such as Wetlands Watch.
    One focal point for the start of this collaboration is the planned 
release later this year of federal studies outlining regional 
tributary-level impacts of sea level rise in Virginia and the likely 
responses along the shoreline. These will be rough estimates and will 
need refinement by involved and interested citizens at all levels, but 
in the course of that work we can begin to move this issue to higher 
visibility and priority.
    We realize that this is a significant undertaking and one that will 
require constant effort for decades to come. It is also an issue that 
has, in the past, only been dimly glimpsed. With more immediate needs, 
it is understandable why this work has been placed farther down the 
list of state government priorities.
    However, now that we can begin to see the outlines of the problem, 
now that various economic sectors in Virginia have begun to react, now 
that the news is full of global change issues, now that the deadline 
looms on the commitments made under the Chesapeake 2000 agreement, we 
must make this matter one of our State's highest priorities.
    Wetlands Watch stands ready to assist you in this effort and bring 
greater public attention to this pressing need.

Sincerely,

William A. Stiles, Jr.
Executive Director
Wetlands Watch
                                 ______
                                 
 ATTACHMENT II TO TESTIMONY OF WILLIAM A. STILES, JR. 
        June 23, 2009

    From: ``Report of the Coastal Elevations and Sea Level Rise 
Advisory Committee,'' in the U.S. Climate Change Science Program 
report, ``Coastal Sensitivity to Sea-Level Rise: A Focus on the Mid-
Atlantic Region,'' October 2008.
6. Recommendations for the Future
    In addition to the recommendations above for improvement of SAP 
4.1, the committee would like to highlight several areas in which 
further research appears warranted. These include the following:
     1.  Efforts to better understand the impacts of extreme events 
upon coastal ecosystems should be supported as they will also 
contribute substantially to our understanding of the impacts of 
accelerated rates of SLR.
     2.  Many governmental programs maintain high quality shoreline and 
other coastal data: for land use analyses and associated decisions. It 
is important to ensure that these data are managed for maximum public 
accessibility.
     3.  There is a strong need for all levels of government to 
coordinate an integrated, comprehensive, high-resolution coastal 
mapping program (including shallow bathymetry as well as coastal 
topography). Such a program should provide for a minimum of a five-year 
re-mapping rate.
     4.  Work on coastal evolution models should be accelerated to 
better characterize the complex, punctuated dynamics of coastal 
ecosystems and SLR. This should include analysis of how physical 
stressors (e.g., salinity, pH, temperature, physical distance) impact 
biological processes that might also contribute to accretion and 
migration.
     5.  All public agencies should reexamine their current methods of 
cost effectiveness analysis, especially in light of conditions imposed 
by SLR associated with climate change.
     6.  Appropriate agencies should develop plans for replacement of 
coastal public lands (e.g., National Parks and Seashores, National 
Wildlife Refuges, National Estuarine Research Reserves) in the face of 
SLR.
     7.  There is a need to inventory efforts across all levels of 
government as to plans and strategies to address and/or adapt to 
accelerated rates of SLR as well as ``lessons learned'' and best 
management practices.
     8.  The committee recommends that appropriate agencies should 
develop a regional-scale resilience-ranking system based upon 
attributes such as climate sensitivity, societal and economic value of 
undeveloped vs. developed landscape, and elevational possibilities for 
wetland migration. Such a tool should enable assessment of the societal 
benefits of strategic acquisition and conservation actions.
     9.  Appropriate agencies should develop risk assessment approaches 
to inform strategic plans for coastal abandonment due to SLR. This 
effort should include detailed delineations of areas that warrant close 
scrutiny and explicitly assess the costs and impacts of not taking 
action.
    10.  Agencies should combine efforts to conduct a comprehensive 
assessment of opportunities for appropriate legislative responses to 
SLR: such as FEMA map modernization, Coastal Zone Management Act, Clean 
Water Act, Water Resources Development Act, Coastal Barrier Resources 
Act, and the Farm Bill. Tax code modifications and other appropriate 
mechanisms should be developed to provide incentives for more strategic 
landscape conservation practices as well as personal and community 
adaptation strategies. Climate change legislation needs to recognize 
that adaptation is an important step to initiate early on.
    11.  Agencies should develop executable mechanisms to assess the 
efficacy of publicly funded or operated infrastructure in high hazard 
coastal areas as an essential part of the public decision processes.
    12.  Appropriate agencies need to assess local capabilities and 
resources to respond to SLR, and ensure their ability to make use of 
high-resolution and other decision support tools.
    13.  There is a need to develop improved national estimates of U.S. 
coastal population subject to the effects of SLR. Improved demographic 
estimates combined with high resolution mapping of the coast would 
improve the ability to characterize high risk areas.
    14.  All water quality certifications (e.g., Clean Water Act 
Section 401) should incorporate evaluation of SLR impacts on the action 
reviewed to include consideration of both present and future compliance 
with water quality standards.
    15.  In the near-shore environment the USACE should adopt policies 
(e.g., Nationwide Permits) and procedures to discourage the placement 
or replacement (including following disasters) of bulkheads and other 
hard structures. In the event that protection is allowed, the use of 
soft protection techniques should be encouraged. There needs to be a 
comprehensive review and evaluation of federal laws, rules and 
practices in response to extreme events and coastal disasters to 
discourage the rebuilding of physical infrastructure in high hazard 
coastal areas (e.g., Coastal Barrier Resources Act).
    16.  Under next generation map modernization (RiskMAP), FEMA should 
include relevant information regarding SLR, coastal erosion, and/or 
projected coastal inundation. Implementation of this will be dependent 
on results obtained from a recently initiated study of the impact of 
climate change on the NFIP, and would require new legislative mandates.
    17.  Best sediment management practices should be implemented in 
the future. The USACE should be encouraged to accelerate its regional 
sediment management studies.
    18.  Human and other climate change impacts on watershed hydrology 
and soils should be taken into account in any discussion of the effects 
of SLR on coastal systems. This includes the impacts of SLR on non-
coastal floodplains, e.g., the lower Roanoke River, NC.
                                 ______
                                 
    Mr. Grijalva. Thank you.
    Let me now recognize Mr. Stuart Parnes, President, 
Chesapeake Bay Maritime Museum. Sir.

            STATEMENT OF STUART PARNES, PRESIDENT, 
                 CHESAPEAKE BAY MARITIME MUSEUM

    Mr. Parnes. Thank you very much. Madam Chairman, Mr. 
Chairman, Representative Kratovil, I'm delighted to be here. 
I'm especially delighted to be here this morning because I'm 
not a scientist. I think we need a broader participation in 
this discussion to meet these challenges that goes beyond the 
scientific community alone.
    I admit that I really don't lie awake at night worrying 
about TMDL's or dead zones. I cannot really predict the changes 
that are facing us or the impacts of those who are already 
feeling it. Of the 3,600 species of plants and animals that 
live along the Bay I'm really only concerned with one and that 
is the human animal. I'm a humanist. I worry about the Bay's 
people and particularly about the endangered communities in 
which they live.
    I worry about the survival of the rich human culture that 
for centuries has defined what and who we are along this part 
of the world. These cultures would still survive along the 
Bay's edges and islands and threatened with inundation and if 
they disappear, our sense of place may disappear with them.
    We may still be part of Maryland and part of America 100 
years from now but both Maryland and America will have been 
diminished having lost some of the important folkways and 
traditions and culture and knowledge that has been routed in 
these waters for generations.
    I've been involved in history museums for over 40 years, 
both in this country and abroad, and for most of that time the 
institutions that I've worked for have been focused on 
collecting and preserving works of art or artifacts from some 
ancient historic culture, lost civilizations or abandoned 
technologies.
    I currently am the President of the Chesapeake Bay Maritime 
Museum right across the Bay from here in St. Michaels. In 2009, 
I see the mission of museum people in a very different way. We 
are a museum about an extraordinary place, a place of 
outstanding not only cultural but natural vitality and beauty 
and significance. Our museum tells the story of the Chesapeake 
Bay and her people which is a story of the interconnectedness 
of the water and the land and the nature and the communities 
and both science and history.
    Of course we preserve and celebrate the rich heritage of 
the Bay's past but we are really attempting to do much more 
than that. Our goal now is to strengthen the link between 
today's past and its future that link these issues of science 
and humanities. Our mission is to inspire stewardship, plain 
and simple. We want to help our visitors and our members and 
the folks who experience our museum understand how important it 
is to preserve both the cultural and natural resources that 
make this place extraordinary.
    I actually believe that looking into rear-view mirror of 
history from time to time can help us navigate the road to the 
future. I think that museums like ours and many others can help 
the scientific community by offering unique educational 
experiences and by sharing the perspectives that centuries of 
living in this place have provided to us.
    I believe we can share our knowledge of the past and we can 
help our communities really appreciate how much of this 
region's culture has been shaped by the Bay and how much of 
that regional identity will be lost if we allow this culture to 
be simply washed away. The health and survival of this region's 
culture is now more than ever dependent on all of our decisions 
and actions, not just yours, not just the scientific community, 
but all of us.
    I think educational institutions like my museum and others 
can and must help inform those decisions. We need to take 
lessons from the generations that came before us both in how to 
live in this place and how to not live in this place. This is 
not simply a challenge for the scientific community.
    So many man-made pressures that my scientific colleagues 
this morning have mentioned, population explosion, accelerating 
development, increasing pollution, declining water quality, and 
the shift from a primarily agricultural and seafood harvesting 
economy to one that is now based on recreation and tourism and 
suburbanization. These are already threatening to change beyond 
recognition the place that we all love. Now climate change and 
sea level rise have been added to the list.
    These islands and waters have always been in flux. The 
natural processes of erosion and subsidence are not new nor are 
they going to stop. Their impact has always been here and it 
continues to be here for at least three centuries. I want to 
point your attention if I can to a couple of photographs that 
my colleague there, David Harp, who is the most extraordinary 
photographer on the Chesapeake Bay, has brought along with us 
today.
    For more than three centuries Holland Island, which is that 
image there, supported dozens of homes, farms, a huge fleet of 
fishing vessels. Today there is one house left. Residents of 
Smith Island have gradually moved from the southern end of that 
island as the properties have become slowly inundated.
    The panorama of Hooper's Island that Dave can show you is 
an extraordinary example of just how thin the margin is between 
water and land in this amazing place and how we are literally 
hanging on the edge. As climate changes cause the water to rise 
more quickly, we are at real risk of a sudden loss of not only 
marshlands and meadows, not only of low-lying buildings and 
roadways, not only of peninsulas and islands, we are at risk of 
losing important chapters of our history, our culture, and our 
identity.
    If 50 or 100 years from now our great grandchildren have to 
visit places like the Chesapeake Bay Maritime Museum to see the 
surviving relics of what was once a rich and varied coastal 
culture borne out of and nourished by the waters of this Bay, 
then I'm afraid we will all have failed.
    The attention and the leadership of your committees to 
these issues is hugely encouraging to all of us here on the 
Bay. We live and work here and we care about this place. All I 
ask is that you please do not overlook the impact of climate 
change on the traditional communities that define the very 
character of this extraordinary place. The reason we should 
care about this issue is the people of the Bay. I'm a people 
person and I'm hoping that you are and that we can keep focused 
on the real goal here. Thank you very much.
    [The prepared statement of Mr. Parnes follows:]

Statement of Stuart Parnes, President, Chesapeake Bay Maritime Museum, 
                         St. Michaels, Maryland

    I am not a scientist. I admit that I don't lie awake at night 
worrying about TMDL's or dead zones. I cannot enlighten any of you to 
the true causes of climate change nor the remedy for the impacts likely 
to be felt along the Chesapeake Bay.
    Of the 3600 species of plants and animals that live together in and 
around the Bay, I most concerned about just one. I am a humanist. I 
worry about the Bay's people, and the endangered communities in which 
they live. I worry about the survival of the rich human cultures that 
for centuries have defined what and who we are. These cultures, which 
still survive along the Bay's edges and islands are threatened with 
inundation, and if they disappear, our sense of place may disappear 
with them. We may still be part of Maryland and part of America, but 
both Maryland and America will have been diminished, having lost some 
of the folkways, traditions, culture and knowledge that has been rooted 
in these waters for generations.
    For nearly 40 years, I have been involved with history museums in 
this country and abroad. For most of that time, the institutions were 
focused on the collection and preservation of works of art or artifacts 
of historic significance. We were the keepers of ancient treasures, 
lost civilizations, forgotten cultures, abandoned technologies.
    I am currently the President of the Chesapeake Bay Maritime Museum, 
and in 2009 I see our mission in significantly different terms. We are 
a museum about an extraordinary place; a place of outstanding natural 
and cultural vitality, beauty, and significance. Our Museum tells the 
story of the Chesapeake Bay and her people--a story of the 
interconnectedness of water and land, of nature and communities. Of 
course we preserve and celebrate the rich heritage of the Bay's past, 
but we are attempting to do much more. Our goal is to strengthen the 
link between the Bay's past and its future. Our mission is to inspire 
stewardship of the bays cultural and natural resources. I actually 
believe that looking into the rear-view mirror from time to time can 
help us navigate the road that lies ahead.
    I believe that museums like ours can offer unique educational 
experiences by sharing the perspectives that centuries of living in a 
place provides. I believe that by sharing our knowledge of the past, we 
can help our communities recognize how much this region's culture has 
been shaped by the Bay, and how much of our regional identity will be 
lost if we allow this culture to be washed away. The health and 
vitality of this region's culture is now more than ever dependent on 
human decisions and actions, and educational institutions like ours 
must help inform those decisions. This is no time for nostalgia or 
romance. We need to take lessons from the generations that have come 
before us, both how to live and how NOT to live.
    Man-made pressures--population explosion, accelerating development, 
increasing pollution, declining water quality, and the shift from a 
primarily agricultural and seafood harvesting economy to one based on 
recreation, tourism, and suburbanization--are already threatening to 
change beyond recognition this place we all love. Now climate change 
and sea level rise have been added to the list.
    The Bay's islands and waters have always been in flux. The natural 
processes of erosion and subsidence are not new, nor is their impact on 
the Bay's people. For at least three centuries, Holland Island 
supported dozens of homes, today, there is one left. Residents of Smith 
Island have gradually moved from the southern end of the Island as 
their properties have become slowly inundated. The crisis we face today 
is due the accelerating PACE of this change. As climate changes cause 
the waters to rise more quickly, we are at real risk of sudden loss of 
not only marshlands and meadows, not only low-lying buildings and 
roads, not only peninsulas and islands. We are at risk of losing 
important chapters of our history, our culture, our identity. If, 50 or 
100 years from now, our great grandchildren have to visit places like 
the Chesapeake Bay Maritime Museum to see the surviving relics of what 
was once a rich and varied coastal culture born out of and nourished by 
the waters of the Bay, then we all will have failed.
    Your attention to these issues is hugely encouraging to all of us 
who live and work along the Chesapeake Bay. All I ask is that you 
please do not overlook the impact of climate change on the traditional 
communities that define the character of this extraordinary place.
                                 ______
                                 
    Mr. Grijalva. Thank you.
    Mr. Tommy Leggett, waterman.

             STATEMENT OF TOMMY LEGGETT, WATERMAN, 
                       WICOMICO, VIRGINIA

    Mr. Leggett. Good morning, Mr. Chairman, Madam Chair, 
members of the Committee. Thank you for inviting me to speak. 
I've been a waterman for about 27 years but I'm a waterman of a 
different variety. I have a degree in Marine Science from the 
Virginia Institute of Marine Science but I did not pursue that 
career. I didn't really want to be tied to grant writing and 
research and funding and that sort of thing. I wanted to do the 
fun stuff so I taught myself to be a waterman.
    I have no family in the commercial fishing business so I 
taught myself how to do it. I raised a family doing that. I'm a 
waterman that has evolved with a changing Chesapeake Bay. I 
have always been on the tale end of most all the fisheries 
jumping from one fishery as it declined to another. I've crab 
potted, oystered, gill netted for fish, I've shed soft crabs, 
and the last thing I did was patent tong for clams.
    I got a captain's license thinking that I might want to 
take fishing parties, charter fishing parties. The last thing 
that I started doing was shellfish aquaculture. I'm still a 
commercial shellfish grower. Continuing to adapt I was offered 
a job at the Chesapeake Bay Foundation doing environmental 
education in 1998. From there I took on the role in the 
Virginia part of the Chesapeake Bay Foundation doing 
environmental restoration, mainly oyster restoration.
    Just yesterday, or the last three days, my partner and I 
have planted nearly 2 million baby oysters in the Piankatank 
River. Last year we planted about 10 million. My day job is an 
oyster restoration scientist and I have a part-time business as 
a shellfish grower growing and harvesting about 100,000 oysters 
a year. I shell 1,000 to 2,000 oysters per week to local 
restaurants. That is who I am. Even though I have a day job as 
a restoration scientist, my identity is a waterman. It's who I 
have been for 27 years. That is what I think of myself.
    I have seen some changes and I have no idea if they are 
related to climate change but there are things that are 
different. Our winters seem to be warmer. When I moved to 
Gloucester County, and I do live in Gloucester County in a 
place called Guinea Neck, my residence is eight feet above sea 
level. I live on the Parana River with a southeast view of the 
Chesapeake Bay and 25 miles beyond that view is the Atlantic 
Ocean.
    When I first moved to Gloucester, the York River froze over 
in 1976 and 1977. I have yet to see the York River freeze over 
at the lower end since then. We have seen some episodes where 
the creeks freeze but, there again, they don't seem to freeze 
quite as often. I remember as a child it seemed to me it was 
colder, more snow. Just about seven years ago the creek that 
our oyster farm is located on we had three inches of ice. I 
just don't see those kind of events like we have seen in the 
past.
    Another observation I think Don Boesch mentioned, eelgrass. 
In 2005, the summer temperatures rose to 80 degrees, and above 
80 degrees Fahrenheit. Those temperatures are lethal for 
eelgrass. One of the areas that I traverse on a weekly basis to 
get to my oyster farm is a huge underwater grass, eelgrass 
meadow.
    That essentially disappeared in 2005 as a result of the 
lethal summer temperatures. I suspect we will continue to see 
more and more of that as eelgrass--we are at the southern end 
of its range and that particular type of vegetation is vital to 
our blue crab population. We are seeing reductions in the blue 
crab fishery as a result of that and other things.
    One of the things that concerns me the most, I mentioned 
that I've been at the tale end of most all these fisheries, is 
some of the possibilities that we are going to see affecting 
the shellfish industry and that is ocean acidification. This is 
something that I have really never thought about, something I 
learned in graduate school, but it is just starting to come 
home now. As CO<INF>2</INF> levels increase in the atmosphere, 
the ocean takes it up.
    Trees take up CO<INF>2</INF> but as levels increase the 
oceans are going to become more and more acidic. CO<INF>2</INF> 
converts to carbonic acid. Carbonic acid can convert to 
bicarbonate ions or carbonate. Shellfish such as oysters, 
clams, coral reefs, and other micro-organisms need calcium 
carbonate to form their shells. As the oceans become more 
acidic, their ability to take up that carbonate, or the ability 
of the oceans to produce carbonate, is reduced. We run the risk 
of losing these calcium carbonate-producing organisms.
    We saw last week a report from the Pacific Northwest on its 
huge shellfish aquaculture industry where they are suggesting 
that the oceanic waters, acidic waters, are up-welling into the 
bays on the West Coast. There has been essentially recruitment 
failure of some of their wild shellfisheries, and the suspect 
is ocean acidification.
    Are we seeing this in the Chesapeake Bay? I don't know. We 
are seeing very slow progress in restoring our native oyster 
despite the efforts that we are putting into it. We may already 
be seeing that. We are also seeing little progress in 
maintaining and restoring our clam fisheries, wild clam 
fisheries.
    The last thing I'll mention is just the impact on the 
cultural aspects. Our seafood industry depends on these coastal 
areas. That is where we have to be. That is where we tie our 
boats up. That is where we off load our catches and we are 
losing that aspect of our heritage not only to sea level rise 
but to the growth and development the pressure put on these 
areas for development.
    I'm just here to tell you things that I see. I'm in and on 
the water virtually every day of my life. I work around the 
tides. I depend on the environment so I see these things. I 
certainly haven't been around as long as Mr. Fowler but I have 
seen a lot of this going on in my 27 years as a waterman. Thank 
you very much for having me.
    [The prepared statement of Mr. Leggett follows:]

       Statement of Tommy Leggett, Waterman and Shellfish Farmer

    Chairman Grijalva, Madame Chair Bordallo, and members of the 
Natural Resources Committee, thank you for inviting me to participate 
in the joint field hearing on ``The Impacts of Climate Change on the 
Chesapeake Bay''. My name is Tommy Leggett. I am a resident of 
Gloucester County, Virginia, and I reside in a small fishing community 
known as Guinea Neck, at the confluence of the York River, Mobjack Bay, 
and the Chesapeake Bay. I have had the good fortune to live within two 
miles of a Virginia tributary of the Bay my entire life. It is fitting 
that this hearing is being held along the Chesapeake Bay in a coastal 
community that will be so severely impacted by sea level rise and 
climate change. What I will present to you is applicable to this 
community and many others around the Chesapeake Bay, as well as to 
coastal communities worldwide.
    By way of background, I am not a technical expert on climate 
change, but I do consider myself an expert on matters related the 
Chesapeake Bay, its fisheries, and its cultural heritage. I am a 
shellfish farmer and waterman. I grow native Eastern Oysters and hard 
clams on a small farm in the York River. I am not representing any 
group or organization here today, but like the thousands of individuals 
that reside and depend on the Chesapeake Bay for a livelihood, I have 
many concerns about the ability of future generations to make a living 
off the natural resources of the Bay as we face the effects of climate 
change. After receiving a bachelor of science degree in biology from 
Old Dominion University in 1977 and a masters degree in Marine Science 
from the Virginia Institute of Marine Science (VIMS) of the College of 
William and Mary in 1980, and being enrolled in the PhD program at VIMS 
for one year in 1981, I realized that academia and research was not for 
me and I taught myself how to make a living on the Chesapeake Bay as a 
waterman, or commercial fisherman. The term waterman is a carryover 
from British river workers who transferred passengers across and along 
the city center rivers in Britain prior to the settlement of North 
America. Today there are nearly 3,000 of us still working the Bay in 
Virginia and around 5,000 working the Bay in Maryland. I am one of only 
a handful of watermen in the Bay who have degrees in biology and marine 
science and it provides me a very unique perspective on the challenges 
we face in restoring the Bay and maintaining fisheries in the face of 
increasing pollution, population growth, use conflicts, and more 
recently, climate change.
    I worked the water commercially on a full time basis from 1982 
until 1998, crabbing, fishing, clamming and oystering. I was able to 
raise my family as a sole proprietor with my own 40 foot work boat. In 
1995 I realized that commercial fishing would not continue to be as 
profitable; I saw sweeping changes in the crab resource, decreasing 
abundance of hard clams, and the plight of the oyster fishery is all 
too familiar. I was desperate to continue working on the water, feeling 
far more comfortable carving a living out of the Bay as opposed to 
justifying my existence to funding agencies by writing grants and doing 
research in academia, so I began to explore other opportunities.
    I received a Coast Guard Captain's license in 1995 that would allow 
me to carry passengers for hire on charter fishing boats and I started 
toying with the idea of farming clams and oysters. By the end of the 
year, I had a small quantity of both clams and oysters growing on 
leased oyster ground in the York River. I continued to work in the hard 
clam fishery, using a mechanical harvesting device know as patent 
tongs, while working my way into the aquaculture business. Of all the 
public fisheries that I participated in, clamming was by far the most 
gratifying to me. I worked my boat alone, with no dependence on a crew, 
and the profits were respectable, with low operating expenses. 
Unfortunately, the clam population began to plummet, clammers began to 
drop out of the fishery and take land jobs such as trucking, and I soon 
followed after being offered a job as an environmental educator/captain 
on one of the Chesapeake Bay Foundation's (CBF) education vessels in 
Virginia. I did environmental education for two years in Hampton Roads 
aboard the Baywatcher while maintaining my commercial fishing licenses 
and developing my shellfish aquaculture business, and in 2000 began 
working in CBFs Environmental Restoration and Protection Department as 
a fisheries scientist, doing oyster restoration.
    I had come full circle at that point. Today, I am employed by CBF 
and produce millions of oysters annually for restoration projects and I 
still have my own clam and oyster farm, selling shellfish to 
restaurants. In addition, I still maintain my commercial fishing 
licenses and even though I am employed by CBF, I still consider myself 
a Chesapeake Bay waterman; it is who I have been for 27 years. My son 
Tom dabbled in commercial crabbing for a time but in 2001, he realized 
how difficult it would be to pursue the life of a Chesapeake Bay 
waterman, and joined the Coast Guard and is currently stationed at 
Coast Guard Station Sandy Hook, in New Jersey. There are very few 
watermen of Tom's generation entering the Chesapeake Bay fishery and I 
suspect this pattern is seen world wide. Adding climate change into the 
mix only exacerbates the problem of a shrinking population of watermen 
in Chesapeake Bay, and as daunting a task as improving the health of 
the Bay is, climate change can easily erase all of the progress made 
towards saving and restoring the Bay.
Effects of Climate Change on Fisheries and Natural Resources
    I want to offer you some sense of what climate change is likely to 
do to the Chesapeake Bay, based on my own experience and the reading I 
have done. Much of what I present to you today can also be found in a 
publication by the National Wildlife Federation entitled, ``Sea-Level 
Rise and Coastal Habitats of the Chesapeake Bay''.1 If possible, I 
would ask that you include this publication in today's hearing record.
Wetlands
    Virtually all of the fisheries in Chesapeake Bay depend on wetlands 
as nursery areas. Wetlands vegetation is completely dependent on 
varying degrees of water inundation and saltwater intrusion. Each 
species of vegetation has its own tolerance of water, whether it is 
salt or fresh. Sea level rise resulting from climate change will 
ultimately flood wetlands and eliminate vital habitats that species 
such as crabs and many finfish require at some point in their life 
cycle. Many acres of wetlands have already been lost as a result of 
population growth and the development of coastal areas. If sea level 
rises as a result climate change the loss of wetlands will be the nail 
in the coffin for the Chesapeake Bay seafood industry. No wetlands, no 
seafood, it's as simple as that.
    Wetlands and salt marshes also provide shoreline protection for 
coastal communities. My home in Guinea Neck is only 6-8 feet above sea 
level and my shore line is completely vegetated with salt mash species 
as is most of the creek where I live. Vegetated shorelines provide 
vital habitat for many estuarine species, reduce erosion and run off, 
and protect upland areas from the impacts of waves during severe storm 
events. Sea level rise will result in the loss of vegetated shorelines 
throughout the Chesapeake Bay and the result will be the eventual loss 
and inundation of coastal communities and the entire infrastructure 
associated with them such as roads and utilities, and more importantly, 
the cultural heritage of those communities that have fished the 
Chesapeake for many generations. The loss of coastal communities will 
also make inland areas more susceptible to storm surge as the incidence 
of tropical cyclones increases. One only has to look to the island 
chains of the Chesapeake Bay that terminate with Smith, Tangier and Fox 
Islands. Many of my island friends have described in detail the process 
by which their ancestors moved homes from one part of the island to the 
other as the land subsided and sea level crept up. Many of the once 
thriving island fishing communities such as Watts and Holland are now 
completely uninhabited. It is only a matter of time before we lose what 
is left of Tangier and Smith Islands, as the rate at which they are 
disappearing is increasing as the saga of sea level rise plays out.
Underwater Grasses (or SAV--Submerged Aquatic Vegetation)
    Underwater grass beds also provide vital habitat for many 
commercially important seafood species; most notable is the blue crab. 
Eel grass in particular is crucial in the life of blue crabs, providing 
shelter to juvenile life stages of the crab as larvae and the first 
crab stage migrate into and up the Chesapeake Bay. The once-dense 
meadows of this underwater grass are only a fraction of what they were 
100 years ago as a result of degradation of the Chesapeake Bay. The 
Chesapeake is at the southern geographic range for eel grass, meaning 
that areas south of the bay are too warm for it to thrive. As our 
climate warms and our oceans warm, eel grass will be completely removed 
from the southern portion of the Chesapeake. This was very obvious in 
2005 when the lower Bay experienced water temperatures in excess of 80 
degrees; temperatures which are lethal to eel grass. Vast meadows of 
the grass completely disappeared and are only now recovering after 4 
years as summer water temperatures come back to near normal levels. 
Areas that I had to run my boat carefully through at low tide were 
completely devoid of eel grass for nearly two years. Crabbers in 
Tangier and Pocomoke Sounds, the epicenter of soft shell crab 
production in the Bay, reported huge die-offs of eel grass and 
corresponding reductions in their take of peeler crabs, or the crab 
stage that eventually results in a soft shelled crab.
    Sea level rise will also affect meadows of underwater grass. The 
Bays underwater grass beds are primarily limited to very shallow areas 
because the Bay is too turbid, or cloudy, from algae blooms and 
suspended sediment for grasses to grow in water deeper than about 3 
feet. The grasses are dependent on sunlight for photosynthesis. A two 
foot rise in sea level will virtually eliminate all of the underwater 
grasses in the lower Bay because sunlight only penetrates about three 
feet during summer months when algae blooms and suspended sediment are 
most abundant.
    Grass beds also help control sediment transport. Just as grass and 
vegetation along a shoreline reduces runoff, underwater grass limits 
sediment movement in the Bay. This phenomenon is very obvious on my 
sandy bottom oyster ground lease. Patchy grass beds were once prevalent 
on my lease and sediment transport in those areas was limited. There 
are currently no underwater grass beds on my lease and I constantly 
contend with shifting sands around my oyster cages. Underwater grasses 
would tend to knock suspended sediment out of suspension.
Shellfish and Climate Change
    Shellfish such as clams and oysters require calcium carbonate to 
form their shells. Even the free swimming larvae of these species have 
a shell, although it is transparent under a microscope. As 
CO<INF>2</INF> levels in the atmosphere increase from the burning of 
fossil fuels, the oceans take up more and more of the greenhouse gas 
and it is converted to carbonic acid, which converts to either 
carbonate or bicarbonate ions. More and more carbonic acid tips the 
scale to a more acidic level (ocean acidification) which creates more 
bicarbonate, and results in less carbonate for shellfish to form 
shells. Too much carbonic acid can even cause the erosion of existing 
shell. The larval stages of oysters and clams are particularly 
vulnerable to ocean acidification since their shell material is very 
susceptible to erosion at low pH levels.
    Clammers in Virginia continue to see low recruitment of new clams 
into the fishery, even as take is reduced from the attrition of many 
clammers and restoration projects stockpile broodstock in sanctuaries 
to promote more successful reproduction. The number of patent tong 
clammers in Virginia has dropped from over 80 to around 24 since the 
1990s. It is likely that the clam population in Chesapeake Bay remains 
depressed as a function of environmental factors, predation, pollution, 
or perhaps ocean acidification. Similarly, oyster restoration is 
proceeding slowly, but that is largely a result of disease, lack of 
adequate funding for restoration projects, and predation. However, 
recruitment is often sporadic and inconsistent in areas that 
historically recruited very well. Ocean acidification could already be 
having an effect on oyster restoration in Chesapeake Bay.
    Just last week, news articles reminded us that the oyster fishery 
and aquaculture industry on the west coast of the United States has 
reported recruitment failure since 2005 and ocean acidification is 
suspect. There is a strong indication that cold acidic waters from the 
Pacific are upwelled into the estuaries of the west coast and the 
resulting corrosive waters are preventing oyster larvae from forming 
shells. Shellfish farmers and scientists expected that phenomenon would 
occur sometime in the future but it appears to be happening at the 
present.
Ocean Acidification and the Shells of Plankton
    Microscopic planktonic, or free floating organisms, are at the base 
of the ocean and estuarine food chains. Many planktonic organisms, in 
particular certain protozoans called foraminifera (forams) that have 
calcium carbonate shells, are also at risk of shell loss from ocean 
acidification. Researchers have found that forams in southern ocean 
core samples that predate the industrial age have thicker shells than 
modern day forams. The researchers conclude that modern day foram 
shells are thinner due to their inability to extract calcium carbonate 
from ocean water as a result of ocean acidification.2 This alarming 
finding strikes at the heart of the oceans food web and threatens the 
balance of the entire oceanic and estuarine ecosystem.
Concluding Personal Observations
    My watermen friends on Tangier Island are seeing more frequent 
flooding events on the island during typical northeasterly storms; 
storm events that are associated with low atmospheric pressure, north 
east winds, and more water moving into the bay and onto low lying 
coastal areas. Tangier Island is only five feet above sea level and 
they are situated in the center of the Bay, five miles south of the 
Maryland State line. The Bay water doesn't just go into marshes on the 
Island; it covers streets and rises up to some of the foundation of the 
homes. Reasons for this include subsidence of the island from 
freshwater withdrawal to supply the demands of an increasing population 
of people on the Delmarva Peninsula, or Eastern Shore, and tipping of 
the continental plates from melting glaciers to the north. As the 
glaciers melt, the weight on the continental plates decreases and the 
those to the south subside.
    Just in my lifetime I have seen changes in the seasons. We seldom 
have heavy freezes and when we do, they are shorter than in the past. 
When I moved to Gloucester County in 1977, it was common place for many 
of the creeks and even the York River to freeze over periodically. I 
haven't seen significant ice on the lower York River in over 20 years. 
We haven't had single digit temperatures since the early 1980s. Several 
of the local ponds would freeze over every year and serve as a source 
of ice for ice companies in the 1800s and early 1900s. Ice would be cut 
out of the pond, carried by horse drawn cart and stored at ice plants 
in salt hay and insulation until it was needed in the summer. Ice is 
now manufactured at commercial ice plants, but Haynes Mill Pond in 
Gloucester has not frozen over enough to supply any quantity of ice 
that I can remember since living in Gloucester.
    Our winters are starting later and are routinely milder. This is 
very evident in the Chesapeake Bay crab dredge fishery, which used to 
start December first, after crabs had begun to burrow in the bottom of 
the Bay. When I was crab dredging in the 1990s, the month of December 
was rarely cold enough for crabs to burrow in the bottom and the dredge 
boats usually spent the first half of the month chasing migrating 
``schools'' of crabs around the Bay until they settled down in January. 
It was typically warm enough that the crabs would scurry off the deck 
of the boat during the winter, when they should be nearly dormant.
    Shorter and milder winters may have benefits in that a longer 
agricultural growing season occurs, but that comes at a price for 
another resource. Longer warm seasons and shorter winters were suspect 
in the ability of oysters to go through full maturation, or ripening, 
prior to spawning in 2008 at the VIMS shellfish hatchery, which led to 
their inability to produce oyster larvae and seed in sufficient 
quantities for research and production. Whether or not this is the 
beginning of a pattern is yet to be determined, but it is a sign of 
what is yet to come as our climate changes and marine and estuarine 
organisms respond.
    Mr. and Madame Chairman and members of the committee, we humans 
have done a huge amount of damage to the Chesapeake Bay. Coastal 
communities of people dependent on the Bay for their livelihoods are 
engaged in a desperate struggle to restore the Bay and the bounty that 
lives in it. We are only now beginning to realize what we are also 
doing to the atmosphere and the oceans, and the effect that it will 
have on the Bay and other estuaries and coastal areas worldwide. On 
behalf of coastal people in communities around the globe, I urge you to 
do all you can to slow down the effects of climate change. Thank you.
References
Sea-Level Rise and Coastal Habitats of the Chesapeake Bay. 2008. 
        National Wildlife Federation. 11100 Wildlife Center Drive, 
        Reston VA, 20190, 703-438-6000, http://www.nwf.org/
        sealevelrise/chesapeake.cfm
Andrew D. Moy, William R. Howard, Stephen G. Bray & Thomas W. Trull. 
        2009. Reduced calcification in modern Southern Ocean planktonic 
        foraminifera. Nature Geoscience 2, 276-280 (2009).
                                 ______
                                 
    Mr. Grijalva. Thank you, sir.
    I will now ask Chairwoman Bordallo for any questions she 
might have.
    Ms. Bordallo. Thank you, Mr. Chairman. First I want to 
complement Senator Fowler. I truly enjoyed your testimony. It 
was very genuine. You've been around to see it all. I also am 
an optimist myself so I like your optimism. I think that is the 
way to go. I think more people should hang onto that.
    I was pleased that you mentioned Guam and you were there in 
the '40s during the war. I wish you could come back, Senator. 
You would be absolutely floored at what you will see today. We 
are a thriving community of about 175,000 people. We have 1.4 
million tourists a year. It's our main industry. Currently we 
are moving 8,300 marines and their families from Okinawa to 
Guam and this will be a $14 billion military buildup. Of 
course, this comes at a very opportune time since we have the 
situation in North Korea and other areas in the Asia area.
    We also have a Home Depot. We have a Macy's. We have a K-
Mart. We have all the U.S. restaurant chains represented there 
and the hotels and the boutiques. Most recently we just opened 
a Hooters. Senator, I want you to come back to Guam. Thank you 
very much, Senator.
    On a serious note, Mr. Stiles, I was surprised to hear that 
many communities in Virginia lack the necessary technical, 
legal, and financial tools to begin to plan for the projected 
impact of climate change. Could you please explain what factors 
have contributed to this situation and are the types of data or 
tools you recommend simply cost prohibitive for these 
communities to afford?
    Mr. Stiles. The sort of baseline tools that I think that 
every community needs are decent elevation maps. As I 
mentioned, there are about five or six localities in Virginia 
that have paid for these on their own but the state has not 
mapped the very flat coastal plain to give you the precise 
elevations you need.
    The second piece of it is to do the modeling on inundation. 
Once you have the maps then you can go in and start saying, 
``OK, this block is going to go under faster than this block. 
And decisions like which road do I elevate, and I said it right 
this time. Which road do I elevate are made in a much more 
strategic fashion.
    Virginia is sort of an odd state. We are what they call a 
Dillon Rule state and localities can only do what the state 
permits them to do. Maryland is a home rule state. Most places 
are. You can do what you want until the state says no. In 
Virginia, you've got to go to Richmond to get permission to 
change a lot of land use practices. Localities are pretty much 
handcuffed.
    The financial tools, the kinds of things we are talking 
about in keeping development off of open land and in some cases 
taking development off of land that is increasingly inundated 
is expensive. This is going to be a major problem nationwide, 
Bay wide, especially Virginia. Local governments right now 
could use--the best thing they could use is the mapping and the 
modeling to be able to figure out just exactly should I allow 
that shopping center at the end of Guinea Neck of shouldn't I?
    Should I allow development down there or not? Is that road 
going to go under in 30 years? Again, centerline elevations on 
roads in Virginia. I asked the other day an Assistant Secretary 
of Transportation if they could provide centerline elevations 
on roads to local governments and they at this point either 
cannot or don't have the data. It's those kinds of things that 
make the life of a local land use official a whole lot easier.
    Ms. Bordallo. I have a follow-up question. What is the best 
way to maintain economically viable coastal communities without 
creating new or compounding existing vulnerabilities to climate 
change? What is the appropriate time horizon for planning to 
ensure that large capital investments aren't a waste of 
taxpayer's money?
    Mr. Stiles. Well, the time to make those decisions is now 
because the decisions that we make today will have a long life. 
The average life of a residence is 100 years. Let me give you 
an example. Fort Monroe is being given back to the state under 
BRAC. It's being closed. It sits on a barrier island, very low 
lying. North of the fort is an open piece of land that, once 
they clear the ordnances off of it, will be developed.
    If they develop that land, that is a commitment being made 
today that will be in place when a lot of these impacts come to 
be. Again, retail. You know, you build and tear down a shopping 
center about every 25 years. Commercial real estate, office 
real estate 60, 70 years. A house is a house is a house for 
about 100 years. All of these decisions we are making today are 
cluttering our coastline. They are impairing the resiliency of 
that coastline to respond to climate change and they are 
creating expensive investments today that we are going to have 
to roll off of the land in coming decades.
    Ms. Bordallo. Another one. I have another question for you, 
Mr. Stiles. Should the Coastal Zone Management Act be amended 
to specifically require coastal states to amend their existing 
approved programs to account for climate change?
    Mr. Stiles. I think that would be one of the best things 
that could be done. Anything at the Federal level, the planning 
for transportation that is done regionally, FEMA changes, all 
of those things need to be on the table but the CZMA 
reauthorization language needs to be strengthened in that 
regard.
    Ms. Bordallo. Thank you. My final question, Mr. Chairman, 
is I want to thank all of you for your testimony and it is 
clear from your statements that coastal communities around the 
Chesapeake Bay should expect tougher times ahead as climate 
change begins to more significantly alter the Bay's 
environment. Now, if you were to offer one or two 
recommendations for what we in Congress could do to better 
prepare coastal communities around the Bay to adopt and respond 
to climate change, what would they be? If you could just make 
it very short.
    Yes, Mr. Parnes.
    Mr. Parnes. I'm an educator and my interest goes back to 
educating not people our age but the next generation. I'm 
surprised frequently by how little contact, even those of us 
who live very near the Bay, really have with the Bay. How 
little we think about it, how little we think it affects our 
lives. I think there is a sense that it's your job to deal with 
this problem. It's not my job.
    For institutions like ours we spent a lot of time educating 
not just children but adults both that it's all of our jobs to 
become part of the solution, to think hard about what it is 
about this place that is worth saving and that we need to agree 
if we are willing to sacrifice, willing to pay a few more tax 
pennies a year, willing to change what we do in order to make 
sure that the tradition of this place doesn't get erased.
    I think there is a real danger that 50 years from now this 
place will look just like so many other places and that would 
be a terrible loss. I think for us we are working to educate 
folks that it's part of their role as citizens. It's not just 
up to you all. It's not just who we elect to go into office but 
it's all of our role, too, to work closely with that and become 
part of it. I think this effort that you're making is a great 
step forward. I think the leadership in the White House right 
now is what a lot of us have been waiting for, for many years.
    Ms. Bordallo. Thank you. So your recommendation then is to 
educate and get the community involved.
    Mr. Parnes. I think in this region, at least right now, 
there is a great interest in education that tends to be science 
and math focused because of the challenges that we face. We are 
missing the opportunity also to educate folks about the 
cultural heritage and the richness of this place and what makes 
this place special. I think we don't want to lose that. To me 
that is a key piece.
    Ms. Bordallo. Thank you.
    Mr. Leggett.
    Mr. Leggett. I would have to agree education is critical, 
environmental education about how we can all be better 
environmental stewards, how we can better take care of our 
planet. In my case, it's the Chesapeake Bay. More support from 
environmental restoration as was mentioned earlier.
    A healthy ecosystem is more resilient. We need to continue 
all of our restoration activities to make a healthier Bay 
whether it's improving water quality, supporting oyster 
restoration or multi-species fisheries' management. Also 
education about our cultural heritage. I would say education 
and restoration is critical.
    Ms. Bordallo. Thank you.
    Mr. Stiles, do you have anything to add to that?
    Mr. Stiles. I think a comprehensive review of Federal 
authorities would be of use to look at how agency and 
department operations and regulatory processes can or cannot 
accept and adapt to the climate endpoints that we now 
understand, for us the 2.3 feet of sea level rise, the 3 degree 
Centigrade and the 11 percent increase in intensity.
    This is what we did at the state level. We said, ``OK, 
state agencies, how do these endpoints affect what you do?''In 
the process, you either get a gap analysis where the statutes 
can't cover those changes or you get an adaptation within the 
agencies within their existing statutory and regulatory 
authorities to do what they are supposed to do. I think that 
kind of a mandate would be a very good first step.
    Ms. Bordallo. So the Federal government involvement.
    Senator.
    Mr. Fowler. Thank you, Madam Chair. The Clean Water Act, I 
believe, was passed in 1972, 37 years ago. I don't want to 
suggest nothing has been done but it has been ignored for the 
patience creatures. I think one of the most important things, 
one of the key things early on if we had coincided with the 
intent of that bill an established total maximum daily loads 
for all of the tributaries. It doesn't mean to stop growing.
    It simply means if you're going to grow and you want to 
grow and growth is a big problem, then you are going to have to 
meet certain qualifications. It's going to have to be purified 
a little more. Instead of three milligrams of nitrogen per 
liter of water, it may have to be two. The technology is here 
to do it. It's costly. That's very important.
    Another thing that we have not done, and I'm partly to 
blame for that, we just have not been able to raise public 
awareness sufficiently enough. That bar needs to be raised 
high. People have to understand the personal consequences that 
are in store for us down the road. I mentioned the inhalation 
problems in the school my granddaughter teaches in. There is 
also a very, very high cancer rate in the Southern Maryland 
area.
    I can't sit here today and tell you that is what's causing 
it but I can tell you I really think it's a big part of it. The 
air and the water, the environment we live in has a lot to do 
with our well being. Those are two things I would strongly 
recommend. Maybe we need to get on television. We need to get 
that Indian back on the television.
    Let him shed some tears about the beer cans floating down 
the stream. That has all been taken away. We are all pumping 
our chests over what great things we're doing and it's time we 
looked at the world in reality. Let the public know that and 
demand that the public become strong supporters and intervenors 
and supporting you so you can get the job done.
    Ms. Bordallo. Thank you. Thank you very much, Senator. 
Thank you to all the witnesses.
    Mr. Chairman.
    Mr. Grijalva. Thank you very much.
    Mr. Kratovil.
    Mr. Kratovil. Mr. Chairman, I don't have any questions. 
I'll just close by thanking all the members of the panel.
    Senator Fowler, I do think there is reason to be 
optimistic. I mean, it was just a few years ago where everyone, 
and still there is obviously some debate although pretty 
minimal now, in terms of the concerns related to climate 
change. There is a much broader consensus now. Like many things 
in our country and across the world it takes some time for 
people to recognize sort of where we are going.
    I think there is consensus now across this country. There 
are some who still criticize the scientific part of this but I 
think that is a relatively small number. Given the comments you 
made about our President, given what we see, just this week as 
we are moving forward on some very significant energy 
legislation I think there is very good reason to be optimistic 
and perhaps we are now finally getting it. Thank you all for 
being here.
    Mr. Fowler. We can do it.
    Mr. Grijalva. Thank you very much. Just a couple of quick 
questions from me.
    Mr. Stiles, one of the hearings we had we have been 
exploring the role of western public lands and mitigating 
climate change. Out in the west where I am from we have large 
tracts of public land and we have intact ecosystems.
    To look at that corridor study, to look at how that plays a 
part with species and buffers I'm not saying it's easier but 
the planning is not as complex when you consider that in the 
area that we're talking about it's smaller tracts of public 
land, a lot of private land and obviously more densely 
populated. What role should the Federal government have in the 
public land, the Chesapeake Bay, and the watershed in combating 
that climate change?
    Mr. Stiles. Well, there are a number of large tracts in the 
Bay watershed. I think, again, elevating the awareness of this 
issue into the day-to-day operations of any agency, state or 
Federal, is going to help them begin to get their arms around 
what they need to do. I think managing the Federal lands with 
an eye toward increasing the sequestration of carbon is 
something that is important.
    I think that also a lot of these public lands serve as 
corridors for wildlife to move from the places where they are 
now that are going to get increasingly inhospitable to places 
where they are going to have to move in the future over time. 
Managing wildlife corridors is something we have just started 
to look at.
    It is something that a lot of the big land operations like 
Nature Conservancy and Trust for Public Lands are also looking 
at how you manage lands, how you manage public lands and also 
the allied lands to provide these wildlife corridors. Things 
like that would be very useful.
    Mr. Grijalva. I think as a former county supervisor 
commissioner land use planning was the big deal in our county 
in relationship to conservation. That role is vital to the 
health of the Bay. Could you elaborate a little more on the 
land use part of dealing with climate change?
    Mr. Stiles. The challenges in the Bay, especially in the 
flat areas around Edgewater, the flat areas, Mathews and 
Gloucester, is that the land that you need to preserve is not 
necessarily the land that is under jurisdiction now for 
wetlands protection or even uphill from it the buffer 
protections in both Maryland and Virginia.
    The land you are after is private land and it can be 
developed by right today but in these flat-lying counties that 
is where the wetlands or the shoreline is going to be in 40 or 
50 years. The big problem is the conflict between property 
rights and also the property tax aspirations of the locality. 
If I'm a locality, I'm not going to put my most valuable land 
off the table.
    What do I do with that land that is slightly uphill from 
what they call the jurisdictional lands? How do I deal with 
that? Is there some money on the table for me to buy those 
development rights out? Are there alliances that I can form 
with land trust? Is there favorable tracts treatment to where 
that land owner can get a fair return on some of the 
development value of that land but the public gets a promise 
that the land will remain open.
    Mr. Grijalva. So zoning prerogatives and acquisition become 
tools.
    Mr. Stiles. Yes. And down-zoning. At some point you tip the 
balance between the property rights governing that land and 
what they call the public trust doctrine. That land remaining 
developed is actually harming land and taxpayers somewhere 
else. At some point there is going to be a tipping point in the 
legal argument about the property rights of this upland. It's 
very hard to do, though, because it's an asymmetric operation.
    Mr. Grijalva. Yes.
    Mr. Stiles. The benefits come beyond the life of any 
current elected local politician.
    Mr. Grijalva. In your testimony, you mentioned that we have 
done enough studying, published enough reports that we know 
that we need to take some action. What immediate action if you 
had to recommend to this Committee as a first step given our 
jurisdictions what would that be?
    Mr. Stiles. Well, I think, especially since you have 
jurisdiction over the CZMA, I think there are a lot of things 
that could be done with the Coastal Zone Management Act to 
really bolster the mandate for coastal states to begin this 
planning. Some states are already doing it. I think Maryland is 
doing a pretty good job. North Carolina has the maps and is 
moving ahead.
    Then there are states that lag behind Virginia being the 
prime example that I know of because I live there but other 
states in the southeast are also experiencing a much slower 
pace of acceptance of the need to adapt. I think if there were 
a mandate that your CZMA money is dependent and your program is 
dependent upon some performance standard here on climate change 
would be useful.
    Mr. Grijalva. Did you review or look at all at the 
adaptation section that is part of what the legislation will be 
dealing with this week?
    Mr. Stiles. I have looked at it in various iterations and I 
think this is going to be a very, very expensive operation. 
Again, you are going to have to freeze lands and somebody's 
financial aspirations if you really want to do the right thing 
on sea level rise, for example.
    So it's going to take some money to put those adaptation 
programs in place and the only source of money that I can see 
is going to come from some of the auctioning and the generation 
of funding from that auctioning that is going to go on to the 
land. I think that probably the only way, I mean, the magnitude 
of the money we are after is probably the only way to 
effectively put adaptation in place.
    Mr. Grijalva. Thank you.
    Mr. Parnes, you mentioned in your testimony that we need to 
take lessons from the cultures and the generations that came 
before us. What are those lessons that you would suggest to 
help us deal with this enormous and urgent challenge of climate 
change?
    Mr. Parnes. Well, there are a couple of specific ones I 
guess I could say. Over the last century or so the way that the 
resources of the Chesapeake Bay have been harvested by our 
forefathers was not always with much looking out to the future. 
I came to this area from living on the Connecticut coast and 
100 years ago the fishermen on the Connecticut coast came down 
here and tried to catch every last oyster on the Bay.
    There are lessons about over-harvesting. There are lessons 
about living on the land, which our ancestors did extremely 
well, much better than we have. They knew they wanted to live 
in communities where they could provide for each other and be 
close to each other and have what they needed in their 
communities.
    Now we live in these sprawling suburban areas that we have 
to drive to get to school, we have to drive to get a quart of 
milk or whatever it is. We should have learned something from 
the way that our ancestors have lived here and we should have 
also learned something from the way they have kind of abused 
the privilege in a sense. So much abundance was here and so 
much abundance has been taken from this place that we need to 
balance that out.
    I think there is no shame in looking back and saying, 
``Boy, if we could do it again, we would be smarter now.'' But 
there is also no shame in looking back and saying, ``You know, 
they really knew what they were doing back then and they 
understood the sustainability of this place.'' Now in our 
intensive farming and our intensive development and our 
intensive suburbanization there is a certain capacity that the 
Chesapeake Bay is able to support.
    I think we all feel if we haven't crossed that line we are 
getting mighty close. That is a terrible kind of decision to 
make. I think we have put up on the walls these sort of 
romantic views of the Chesapeake Bay and they have sort of 
become a little motif for all of us. We go to our seafood 
restaurant and there it is but we don't think about it.
    Our ancestors actually were pretty smart the way they 
learned to live on this place and the way they understood that 
if they lived at the edge of the water they were going to have 
to pick up and move someday. They knew that but they thought it 
through and I think we can learn a great deal and I think there 
is no shame in looking back and saying, ``Gee, we didn't learn 
that lesson well. We really could have done it better.''
    Mr. Grijalva. Thank you.
    Mr. Leggett. thank you very much for your testimony.
    Senator, I had some questions I was going to ask you but 
after your opening comment and then your response to the 
Chairwoman's question they seem at best redundant right now so 
thank you very much for being here. I appreciate that very 
much.
    Mr. Fowler. Can I make a comment?
    Mr. Grijalva. Absolutely.
    Mr. Fowler.--nephew was working back there with a great big 
wooden box and on it was ``crab meat from Ecuador.'' When I was 
coming up as a youngster and even a young adult, we exported 
seafood all around the United States of America--fish, crabs, 
oysters, you name it. Today we are importing that to supply our 
need. That to me is really almost a national disgrace with the 
kind of ability we have in that Chesapeake Bay and the protein 
factor we have out there to import all this stuff to sustain 
our restaurants and people who love these delicacies.
    Ms. Bordallo. Good point.
    Mr. Fowler. Yet, we have the ability to do it. We just need 
to hunker down and crack down. I really think it will not get 
done. It will not get done unless there is a strong Federal 
oversight that has some mandatory authority there to get it 
done.
    Mr. Grijalva. Thank you very much. Let me thank you, 
gentlemen. The information that has been provided at all these 
hearings, and certainly this one, and all of you are very 
privileged and fortunate to live in this beautiful part of the 
world but we all share a responsibility to try to maintain what 
is there for future generations.
    I agree that the legislation before us on climate change is 
imperative and necessary. It needs to be strengthened in some 
areas. Thank you for that recommendation on the Coastal Land 
Management Act and putting some strength into the adaptation 
and the mandates, looking at our regulatory abilities and 
mandates now, and how to enforce them.
    Part of it has disappeared from our agencies, and they are 
barely growing their teeth back right now. Over the last almost 
decade, we have lost all enforcement ability and all desire to 
enforce the regulations and the laws that exist--clean water 
being one of them. Those are all lessons that we take from this 
hearing. Thank you so much and we are very appreciative of your 
time and your expertise. Thanks a lot. Meeting adjourned.
    [Whereupon, at 12:31 p.m., the Subcommittee was adjourned.]

                                 <all>

</pre></body></html>
